<html>
<title> - OVERSIGHT HEARING ON ZERO ACCOUNTABILITY: THE CONSEQUENCES OF POLITICALLY DRIVEN SCIENCE</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


  ZERO ACCOUNTABILITY: THE CONSEQUENCES OF POLITICALLY DRIVEN SCIENCE

=======================================================================

                           OVERSIGHT HEARING

                               BEFORE THE

              SUBCOMMITTEE ON OVERSIGHT AND INVESTIGATIONS

                                 OF THE

                     COMMITTEE ON NATURAL RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                       Wednesday, April 29, 2015

                               __________

                            Serial No. 114-5

                               __________

       Printed for the use of the Committee on Natural Resources
       
       
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]       


         Available via the World Wide Web: http://www.fdsys.gov
                                   or
          Committee address: http://naturalresources.house.gov
          
                               ____________
                               
                      U.S. GOVERNMENT PUBLISHING OFFICE
94-404 PDF                    WASHINGTON : 2016                      
                
________________________________________________________________________________________ 
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="d6b1a6b996b5a3a5a2beb3baa6f8b5b9bbf8">[email&#160;protected]</a>  
                    
                     
                     
                     
                     
                     
                     COMMITTEE ON NATURAL RESOURCES

                        ROB BISHOP, UT, Chairman
            RAUL M. GRIJALVA, AZ, Ranking Democratic Member

Don Young, AK                        Grace F. Napolitano, CA
Louie Gohmert, TX                    Madeleine Z. Bordallo, GU
Doug Lamborn, CO                     Jim Costa, CA
Robert J. Wittman, VA                Gregorio Kilili Camacho Sablan, 
John Fleming, LA                         CNMI
Tom McClintock, CA                   Niki Tsongas, MA
Glenn Thompson, PA                   Pedro R. Pierluisi, PR
Cynthia M. Lummis, WY                Jared Huffman, CA
Dan Benishek, MI                     Raul Ruiz, CA
Jeff Duncan, SC                      Alan S. Lowenthal, CA
Paul A. Gosar, AZ                    Matt Cartwright, PA
Raul R. Labrador, ID                 Donald S. Beyer, Jr., VA
Doug LaMalfa, CA                     Norma J. Torres, CA
Bradley Byrne, AL                    Debbie Dingell, MI
Jeff Denham, CA                      Ruben Gallego, AZ
Paul Cook, CA                        Lois Capps, CA
Bruce Westerman, AR                  Jared Polis, CO
Garret Graves, LA                    Vacancy
Dan Newhouse, WA
Ryan K. Zinke, MT
Jody B. Hice, GA
Aumua Amata Coleman Radewagen, AS
Thomas MacArthur, NJ
Alexander X. Mooney, WV
Cresent Hardy, NV

                       Jason Knox, Chief of Staff
                      Lisa Pittman, Chief Counsel
                David Watkins, Democratic Staff Director
             Sarah Parker, Democratic Deputy Chief Counsel
                                 ------                                

              SUBCOMMITTEE ON OVERSIGHT AND INVESTIGATIONS

                      LOUIE GOHMERT, TX, Chairman
             DEBBIE DINGELL, MI, Ranking Democratic Member

Doug Lamborn, CO                     Jared Huffman, CA
Raul R. Labrador, ID                 Ruben Gallego, AZ
Bradley Byrne, AL                    Jared Polis, CO
Bruce Westerman, AR                  Vacancy
Jody B. Hice, GA                     Vacancy
Aumua Amata Coleman Radewagen, AS    Raul M. Grijalva, AZ, ex officio
Alexander X. Mooney, WV
Rob Bishop, UT, ex officio
                                 ------                                

                                CONTENTS

                              ----------                              
                                                                   Page

Hearing held on Wednesday, April 29, 2015........................     1

Statement of Members:

    Dingell, Hon. Debbie, a Representative in Congress from the 
      State of Michigan..........................................     3
        Prepared statement of....................................     4

    Gohmert, Hon. Louie, a Representative in Congress from the 
      State of Texas.............................................     1
        Prepared statement of....................................     2

    Grijalva, Hon. Raul, a Representative in Congress from the 
      State of Arizona...........................................     5
        Prepared statement of....................................     6

Statement of Witnesses:

    Beckett, Honorable Clara, Bastrop County Commissioner, 
      Precinct 2, Bastrop, Texas.................................    14
        Prepared statement of....................................    16
        Questions submitted for the record.......................    32

    Hartnett White, Kathleen, Distinguished Senior Fellow-in-
      Residence and Director, Armstrong Center for Energy and 
      Environment, Texas Public Policy Foundation, Austin, Texas.     7
        Prepared statement of....................................     9
        Questions submitted for the record.......................    12

    Lunny, Kevin, Owner, Drakes Bay Oyster Company, Point Reyes, 
      California.................................................    45
        Prepared statement of....................................    46
        Questions submitted for the record.......................    49
        Supplemental documentation submitted for the record......    72

    Oreskes, Naomi, Ph.D., Professor of the History of Science 
      and Director of Graduate Studies, Department of the History 
      of Science, Harvard University, Cambridge, Massachusetts...    33
        Prepared statement of....................................    34
        Questions submitted for the record.......................    40

Additional Materials Submitted for the Record:

    Arctic Slope Regional Corporation, April 28, 2015 Letter 
      addressed to Chairman Gohmert..............................    87

    East Coast Shellfish Growers Association, April 25, 2015 
      Letter addressed to Chairman Gohmert.......................    90

    Feinstein, Hon. Dianne, March 12, 2015 Letter addressed to 
      the Honorable Ken Salazar and the Department of Interior, 
      submitted for the record by Mr. Labrador...................    86

    Hulls, John R., April 27, 2015 Letter addressed to Chairman 
      Gohmert....................................................    93

    List of documents submitted for the record retained in the 
      Committee's official files.................................   105

    Pacific Coast Shellfish Growers Association, April 27, 2015 
      Letter addressed to Chairman Gohmert.......................    91

    Rogers, Norman, ``Naomi Oreskes, Conspiracy Queen,'' American 
      Thinker, June 7, 2011......................................    96

    Singer, Fred, ``Science and Smear Merchants,'' American 
      Thinker, June 21, 2011.....................................    98
    Singer, Fred, A Response to ``The Climate Change Debates,'' 
      Heartland Institute, November 7, 2010......................   100

    Tetra Tech, a Working Paper titled ``Disaster Debris 
      Monitoring and Bastrop County, Texas Federal Emergency 
      Management Agency (FEMA) DR-4029''.........................   103
                                     


 
     OVERSIGHT HEARING ON ZERO ACCOUNTABILITY: THE CONSEQUENCES OF 
                       POLITICALLY DRIVEN SCIENCE

                              ----------                              


                       Wednesday, April 29, 2015

                     U.S. House of Representatives

              Subcommittee on Oversight and Investigations

                     Committee on Natural Resources

                             Washington, DC

                              ----------                              

    The subcommittee met, pursuant to notice, at 2:32 p.m., in 
room 1334, Longworth House Office Building, Hon. Louie Gohmert 
[Chairman of the Subcommittee] presiding.
    Present: Representatives Gohmert, Labrador, Hice, 
Radewagen, Mooney; Dingell, Huffman, and Grijalva.
    Mr. Gohmert. The Subcommittee on Oversight and 
Investigations will come to order.
    The subcommittee meeting today is to hear testimony on, 
``Zero Accountability: The Consequences of Politically Driven 
Science.'' Under Committee Rule 4(f), any oral opening 
statements at hearings are limited to the Chairman and the 
Ranking Member and the Vice Chair and a designee of the Ranking 
Member. This will allow us to hear from our witnesses sooner 
and help Members keep to their schedules.
    Therefore, I ask unanimous consent that all other Members' 
opening statements be made part of the hearing record if they 
are submitted to the Subcommittee Clerk by 5:00 p.m. today or 
the close of the hearing, whichever comes first. Hearing no 
objection, that is so ordered.

   STATEMENT OF THE HON. LOUIE GOHMERT, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF TEXAS

    Mr. Gohmert. This is the first meeting of the newly 
established Subcommittee on Oversight and Investigations. First 
I would like to thank Congresswoman Dingell for her willingness 
to serve as Ranking Member, especially having to sit next to 
me. I am very grateful. I thought a great deal of your husband 
while he was serving here; he was a man of honor. And I look 
forward to working with you.
    The subcommittee is a reflection of Chairman Bishop's and 
my commitment to place a greater focus on oversight in the 
Natural Resources Committee. Our committee has jurisdiction 
over more than 100,000 employees managing half a billion 
surface acres. I recognize within these bureaus are many 
dedicated people working on behalf of the country to see that 
our lands are worked and enjoyed to the maximum extent 
possible.
    However, as we will hear today, there are also times when 
individuals take advantage of their position and exercise not 
good stewardship, but a violation of trust with the American 
people.
    We have a great responsibility here. While the focus of our 
committee may only be a small fraction of the Government, 
financially speaking, the authorities we oversee have a major 
impact on millions of individuals across the Nation. It should 
be our goal to see that checks are in place to address some of 
the abuses we are going to hear about today.
    I would like to thank the witnesses for traveling here 
today. I know you did not come just because of the big 
paycheck. For those that do not know, there is no paycheck. But 
it is, I know, out of a sense of service to our country; so 
thank you. Some of what we are going to hear today defies 
logic, common sense, and even basic compassion. This will be an 
honest assessment of how the system has failed. There is not 
any other way to describe it.
    It is astounding reading the testimony, as I did last 
night, of those that are going to be here and are here today. 
At every level, a lack of accountability let a bureaucracy, or 
even the bully, win and our constituents, our friends, our 
neighbors, and our families pay with their livelihoods and 
their safety. We could have cared for the least of these, but 
we chose a toad instead.
    For this reason, our first hearing of this new subcommittee 
is entitled ``Zero Accountability.'' I want it seared into the 
records of this Congress and on the minds of its Members 
exactly what happens when we leave individuals to fend for 
themselves against the Federal Government. Why else are we here 
if not to hold accountable those charged with executing the 
laws that we establish?
    I am looking forward to having more accountability and am 
open to Minority suggestions for oversight where the Government 
has become abusive, because we see it from both sides of the 
aisle, we hear about it from constituents, and look forward to 
working together to oversee what is entrusted to our care. So 
thank you.
    [The prepared statement of Mr. Gohmert follows:]
Prepared Statement of the Hon. Louie Gohmert, Chairman, Subcommittee on 
                      Oversight and Investigations
    This is the first meeting of the newly established Subcommittee on 
Oversight and Investigations. First, I'd like to thank Congresswoman 
Dingell for her willingness to serve as Ranking Member and I look 
forward to the opportunities we will have to work together on 
government accountability.
    This subcommittee is a reflection of Chairman Bishop's and my 
commitment to place a greater focus on oversight in the Natural 
Resources Committee. Our committee has jurisdiction over more than 
100,000 employees managing half a billion surface acres. I recognize 
within these bureaus are many dedicated people working on behalf of the 
country to see that our lands are worked and enjoyed to the maximum 
extent possible.
    However, as we will hear today, there are also times when 
individuals take advantage of their position and exercise not good 
stewardship, but a violation of trust with the American people.
    We have a great responsibility here. While the focus of our 
committee may only be a small fraction of the government financially 
speaking, the authorities we oversee have a major impact on millions of 
individuals across the Nation. It should be our goal to see that checks 
are in place to address some of the abuses we will hear today.
    I'd like to thank the witnesses that traveled here to inform our 
subcommittee about what exactly is going on at the ground level of the 
Federal Government. Some of what we are going to hear defies logic, 
common sense and even basic compassion. This will be an honest 
assessment of how the system miserably failed. There isn't any other 
way to describe it.
    It is astounding reading this testimony how many different times 
the right choices could have been made. At every level a lack of 
accountability let the bureaucracy, or even the bully, win and our 
constituents, our friends, our neighbors, and our families paid with 
their livelihoods and their safety. When we could have cared for the 
least of these, we chose a toad instead.
    For this reason our first hearing of this new subcommittee is 
entitled ``Zero Accountability.'' I want it seared on the records of 
this Congress and on the minds of its Members exactly what happens when 
we leave individuals to fend for themselves against this Federal 
Government. Why else are we here if not to hold accountable those 
charged with executing the laws that we establish?

                                 ______
                                 

    At this time I would like to recognize the Ranking Member, 
Ms. Dingell, for any opening statement.

   STATEMENT OF THE HON. DEBBIE DINGELL, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MICHIGAN

    Ms. Dingell. Thank you, Mr. Chairman, and for those very 
kind remarks, for your recognition of my husband and his 
friendship with you, and for holding this hearing today. Though 
we will almost certainly differ on a number of issues which the 
subcommittee will explore, I hope we can find common ground on 
many issues as well. There is no shortage of natural resource 
issues that deserve oversight, and I am optimistic that there 
is common ground to be had.
    I would also like to thank our witnesses for being here 
with us today. We know, as the Chairman said, that your 
traveling here is not always the easiest, but you understand 
the importance of talking to you and talking about the issues.
    That brings me to today's hearing. I think the Chairman has 
chosen his first hearing topic well. The manipulation of 
science to achieve a predetermined policy end has become an 
increasingly common tactic. The tobacco industry, chemical 
industry, pharmaceutical industry, and the fossil fuel industry 
have had resounding success when they engage in a particular 
kind of politically driven science--manufacturing doubt.
    One of our witnesses, Naomi Oreskes of Harvard University, 
specializes in the history of science and has literally written 
the book that describes these campaigns that aim to create the 
impression of scientific uncertainty when the science is 
actually very clear.
    When there is doubt about the science of an issue, 
Americans do not want to take a chance on a policy remedy that 
might be unnecessary because there is a risk of unintended 
consequences. We have to wait until the science is clear, and 
it often moves at a glacial pace.
    So we have to hope that the science becomes clear before 
the problem does too much damage or becomes irreversible. In 
the meantime, delay represents victory. One of the most popular 
ways to kill a policy initiative in Washington, DC is to delay 
it. If it cannot be killed altogether, delay buys more time 
under the status quo. It is popular because it works.
    We are seeing these same tactics used today in the debate 
on climate change. Delaying action on climate change has 
consequences. If we let global temperature increase by 3 
degrees, it will cost the United States about $150 billion a 
year from damage to our health, loss of biodiversity, physical 
impacts from rising seas and more severe storms, droughts, and 
wildfires alone.
    And climate change will have a real impact on the Great 
Lakes in my home state of Michigan, including increased 
invasive species, much more frequent harmful algae blooms, and 
declining beach health, which we are already, unfortunately, 
seeing and saw last year again, where many people just could 
not drink water or go into the water.
    We are missing important opportunities. According to Ernst 
& Young, China has now surpassed the United States in investing 
in renewable energy. Ceding the lead on the transition to a 
low-carbon economy ensures that they will get a jump on 
lucrative emerging markets, economies of scale, patents, and a 
trained workforce.
    I do not want to buy my energy created by solar panels made 
in Japan--or made in China; sorry, I was thinking of the Prime 
Minister. I want to buy my energy from panels made in the 
United States. I want to see the jobs created here, where we 
already have some of the best manufacturing infrastructure and 
workers in the world, and that you and I agree on. We want to 
create those here and keep them here. I want those good-paying 
jobs here, where they can form rungs of ladders out of poverty 
in a Nation where the ranks of the poor are growing.
    There is no doubt in my mind we can transition to a clean 
energy economy and come out the other side as a stronger 
Nation. I have faith that we can do better than the status quo 
if we trust in our workers, and if we trust in Americans to 
innovate, and if we trust in our scientists who tell us it must 
be done.
    So thank you, Mr. Chairman. I am looking forward to today's 
hearing.
    [The prepared statement of Ms. Dingell follows:]
    Prepared Statement of the Hon. Debbie Dingell, Ranking Member, 
              Subcommittee on Oversight and Investigations
    Chairman Gohmert, thank you for the recognition and for holding 
this hearing today. Though we will almost certainly differ on a number 
of issues which this subcommittee will explore, I hope we can find 
common ground on many issues as well. There is no shortage of natural 
resource issues that deserve oversight and I am optimistic there is 
common ground to be had. I would also like to thank our witnesses for 
being here today.
    That brings me to today's hearing. I think the Chairman has chosen 
his first hearing topic well. The manipulation of science to achieve a 
predetermined policy end has become an increasingly common tactic.
    The tobacco industry, chemical industry, pharmaceutical industry, 
and the fossil fuel industry have had resounding success when they 
engage in a particular kind of politically driven science--
manufacturing doubt. One of our witnesses, Naomi Oreskes of Harvard 
University, specializes in the history of science and has literally 
written the book that describes these campaigns that aim to create the 
impression of scientific uncertainty where the science is actually 
clear.
    When there is doubt about the science of an issue, Americans don't 
want to take a chance on a policy remedy that might be unnecessary 
because there is a risk of unintended consequences. We have to wait 
until the science is clear, and it often moves at a glacial pace. So we 
have to hope that the science becomes clear before the problem does too 
much damage, or becomes irreversible. In the meantime, delay represents 
victory. One of the most popular ways to kill a policy initiative in 
Washington, DC is to delay it. If it can't be killed altogether, delay 
buys more time under the status quo. It's popular because it works.
    We are seeing these same tactics used today in the debate on 
climate change. Delaying action on climate change has consequences. If 
we let global temperature increase by 3 degrees, it would cost the 
United States about $150 billion a year from of damage to our health, 
loss of biodiversity, and physical impacts from rising seas and more 
severe storms, droughts and wildfires alone.\1\ And climate change will 
have a real impact on the Great Lakes in my home state of Michigan, 
including increased invasive species, more frequent harmful algae 
blooms, and declining beach health.
---------------------------------------------------------------------------
    \1\ https://www.whitehouse.gov/sites/default/files/docs/
the_cost_of_delaying_action_to_stem_ climate_change.pdf.
---------------------------------------------------------------------------
    We are missing important opportunities. According to Ernst and 
Young, China has now surpassed the United States in investing in 
renewable energy.\2\ Ceding the lead on the transition to a low carbon 
economy ensures they will get the jump on lucrative emerging markets, 
economies of scale, patents, and a trained workforce.
---------------------------------------------------------------------------
    \2\ http://www.ey.com/Publication/vwLUAssets/EY_-
_China_reclaims_the_top_spot_for_ 
renewables_energy_investment_attractive/$FILE/EY-recai-Issue42-11-sep-
2014.pdf.
---------------------------------------------------------------------------
    I don't want to buy my energy created by solar panels from China. I 
want to buy my energy from panels made in the United States where we 
already have some of the best manufacturing infrastructure and workers 
in the world. I want those good paying jobs to be created here, where 
they can form rungs on ladders out of poverty in a nation where the 
ranks of the poor are growing.
    There is no doubt in my mind we can transition to a clean energy 
economy and come out the other side stronger as a Nation. I have faith 
that we can do better than the status quo if we trust in our workers, 
if we trust in Americans to innovate, and if we trust our scientists 
who tell us it must be done.

                                 ______
                                 

    Mr. Gohmert. Thank you very much.
    At this time I will introduce our witnesses. Oh, that is 
right. Mr. Grijalva, do you wish to make an opening statement?
    Mr. Grijalva. Thank you.
    Mr. Gohmert. Yes, sir.

   STATEMENT BY THE HON. RAUL GRIJALVA, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF ARIZONA

    Mr. Grijalva. Thank you, Mr. Chairman. Again, I want to, as 
I did personally, congratulate you on your chairmanship of this 
new subcommittee. I know we will not agree often, but I think 
we can agree that congressional oversight is important. It is 
valuable, and I hope we get some opportunities to do some good 
things here with our work.
    I also want to thank and congratulate Ranking Member 
Dingell for dedicating her time, effort, and expertise to this 
subcommittee. We have great confidence in her leadership, and 
she knows very well that all of us look forward to working with 
her.
    And thank you to the witnesses for taking the time and 
effort to come here today.
    Mr. Chairman, I would like to begin with a quote from a 
book written by one of our witnesses today. The excerpt goes 
something like this:

        ``Imagine a gigantic banquet. Hundreds of millions of 
        people come to eat. They eat and drink to their heart's 
        content. Then one day a man arrives holding a bill. Not 
        surprisingly, the diners all go into shock. Some begin 
        to deny that this is their bill. Others deny that there 
        is even a bill. Still others deny that they partook of 
        the meal. One diner suggests that the man is not really 
        a waiter, but is only trying to get attention for 
        himself or to raise money for his own projects.

        Finally, the group concludes that if they simply ignore 
        the waiter, he will go away. This is where we stand 
        today on the subject of global warming. For the past 
        150 years, industrial civilization has been dining on 
        energy stored in fossil fuels, and the bill has come 
        due. Yet we have sat around the dinner table denying 
        that it is our bill and doubting the credibility of the 
        man who delivered it.''

    That is from the excellent ``Merchants of Doubt'' book, 
which I am proud to say was co-authored by one of our witnesses 
today, Professor Naomi Oreskes. Her book shows how multi-
billion dollar industries manipulate science to pad their 
profits at the expense of the American people. Their favorite 
tactic is to manufacture doubt about the state of the science, 
which undermines the case for taking any action at all to 
address a problem.
    Manufacturing doubt can be done in many different ways. You 
can question the quality of the science that indicates there is 
a problem with your product. You can find a scientist who 
agrees with you and fund their research or give them media 
training. You can take the research to the press and demand 
that they print both sides of the story as if there was really 
a controversy.
    In a hearing about politically driven science, climate 
denial is the ultimate case study. Its tactics are well-
documented, including paying scientists to produce industry-
friendly science. Individual case studies where accusations of 
scientific misconduct exist should be investigated.
    But we need to be clear. There is an ongoing, well-
organized, well-funded campaign to deny climate change and the 
established science behind it. That campaign poses serious risk 
to the quality of life on this planet and to the American 
people.
    Again, Chairman Gohmert, thanks for helping us give this 
topic an overdue hearing, and I look forward to the testimony. 
I yield back.
    [The prepared statement of Mr. Grijalva follows:]
   Prepared Statement of the Hon. Raul Grijalva, a Representative in 
                   Congress from the State of Arizona
    Thank you, Mr. Chairman. I want to congratulate you on your 
chairmanship of this new subcommittee. I know we don't agree often, but 
I think we can agree that congressional oversight is important and 
valuable, and I hope we get some opportunities to do some good work 
here.
    I also want to thank and congratulate Ranking Member Dingell for 
dedicating her time, effort, and expertise to this subcommittee. I have 
great confidence in her leadership, and as she knows I very much look 
forward to working with her.
    And thank you to the witnesses for making the time and effort to 
come here today.
    I would like to begin with a quote from a book written by one of 
our witnesses today:

    ``Imagine a gigantic banquet. Hundreds of millions of people come 
to eat. They eat and drink to their hearts' content . . . Then, one 
day, a man arrives . . . holding the bill.
    Not surprisingly, the diners are in shock. Some begin to deny that 
this is their bill. Others deny that there even is a bill. Still others 
deny that they partook of the meal. One diner suggests that the man is 
not really a waiter, but is only trying to get attention for himself or 
to raise money for his own projects. Finally, the group concludes that 
if they simply ignore the waiter, he will go away.
    This is where we stand today on the subject of global warming. For 
the past 150 years, industrial civilization has been dining on the 
energy stored in fossil fuels, and the bill has come due. Yet, we have 
sat around the dinner table denying that it is our bill, and doubting 
the credibility of the man who delivered it.''

    That's from the excellent Merchants of Doubt, which I'm proud to 
say was co-authored by one of our witnesses today, Professor Naomi 
Oreskes. Her book shows how multi-billion-dollar industries manipulate 
science to pad their profits at the expense of the American people. 
Their favorite tactic is to manufacture doubt about the state of the 
science, which undermines the case for taking action on a problem.
    Manufacturing doubt can be done in different ways. You can question 
the quality of the science that indicates there's a problem with your 
product. You can find a scientist who agrees with you and fund their 
research or give them media training. You can take their research to 
the press and demand that they print both sides of the story as if 
there were actually a controversy.
    In a hearing about politically driven science, climate denial is 
the ultimate case study. Its tactics are well documented, including 
paying scientists to produce industry-friendly science.
    Individual case studies where accusations of scientific misconduct 
exist should be investigated, but we need to be clear: there is an 
ongoing, well-organized, well-funded campaign to deny climate change 
and the settled science behind it. That campaign poses serious risks to 
the quality of life on this planet.
    I thank Chairman Gohmert for helping us give this topic an overdue 
hearing, and I look forward to the testimony.

                                 ______
                                 

    Mr. Gohmert. Thank you. The gentleman has yielded back.
    We will now introduce our witnesses. First of all we have 
Mrs. Kathleen Hartnett White. She is a Distinguished Senior 
Fellow-In-Residence and the Director of the Armstrong Center 
for Energy and Environment with the Texas Public Policy 
Foundation. Then we have the Honorable Clara Beckett, Bastrop 
County Commissioner, Precinct 2, from the Austin, Texas area; 
well, that is what this says, but you are from Bastrop. Yes. 
Mr. Kevin Lunny, Owner, Drakes Bay Oyster Company, and also Ms. 
Naomi Oreskes. We are pleased to have you all here.
    With that, we will go ahead and begin the opening 
statements by our witnesses. You each have 5 minutes. Even if 
you do not finish your oral testimony, your entire written 
statement is part of the record.
    The light will start green. After 4 minutes it goes to 
yellow; when it turns red, the time is up. You just need to 
finish the summary from there; but again, your written 
testimony will be part of the record. Also, each of you will 
give your opening statements before any questions will be 
allowed by the Members. So with that, I will ask Mrs. Kathleen 
Hartnett White, if you would please begin the opening 
statements. You have 5 minutes.

  STATEMENT OF KATHLEEN HARTNETT WHITE, DISTINGUISHED SENIOR 
 FELLOW-IN-RESIDENCE AND DIRECTOR, ARMSTRONG CENTER FOR ENERGY 
 AND ENVIRONMENT, TEXAS PUBLIC POLICY FOUNDATION, AUSTIN, TEXAS

    Mrs. Hartnett White. Thank you, Chairman Gohmert and 
Ranking Member Dingell and all the members of the subcommittee, 
for the opportunity to testify on what I think is an 
increasingly important topic. My testimony will take the angle 
of the development and use of science in government agencies 
predominately.
    I want to acknowledge my experience as, for 6 years, 
chairman of the equivalent of the Texas EPA, which is a very 
large environmental regulatory agency, in which I, as a non-
scientist, because of my position as final decisionmaker, 
frequently was called upon to assess the robustness and the 
quality and the credibility of all kinds of science informing 
what were ultimately final policy decisions.
    Science is a critical tool in the development and 
implementation of regulation, but not all science is created 
equal. I am going to focus on a single example, of which there 
could be many, that is a Texas example surrounding the 
endangered whooping crane, who winters in the lower part of the 
Guadalupe River Basin, a magnificent species. In the 1940s, it 
was thought there were only 15 members left, and now there are 
500. I am proud that our state agencies and volunteers and the 
Fish and Wildlife Service are seeing a recovering species.
    However, a lawsuit has arisen which I think is an example 
of how very weak government science could lead to enormous 
impacts on the state of Texas, an unusual case under the 
Endangered Species Act.
    Instead, as is typical with a challenge to Fish and 
Wildlife Service for failure to list a species or for failure 
to implement a habitat conservation plan, this lawsuit sues the 
state of Texas and claims that the actions of the Texas 
Commission on Environmental Quality, who under state law is in 
charge of all surface water allocations and water rights, 
charging that state agency for the take, in terms of the ESA, 
for the killing of 23 whooping cranes in 2008 and 2009, which 
was a record number.
    Texas lost at the District Court level. What would that 
mean? That would mean that according to the judge's ruling, 
that the Fish and Wildlife Service would really control the 
state agency's management of surface water. It really would set 
Texas on a path that we hear a lot about in California, of the 
Delta smelt. The perceived needs of the species would be a 
super-priority before any human use of surface water in the 
basin occurred. At the Appellate Court level, the District 
Court's ruling was reversed, and now the original plaintiffs 
have requested a review by the Supreme Court.
    There were key facts in this. What the judge called core 
facts in this issue were the deaths of 23 whooping cranes, 
developed by local Fish and Wildlife Service biologists in 
their annual population counts. That was considered dispositive 
to the judge.
    When the evidentiary record of the District Court's ruling 
was almost complete, Fish and Wildlife issued a report 
declaring the methodology used for the count of those 23 deaths 
as ``untenable'' and ``indefensible.'' There were efforts to 
submit that evidence, along with a very interesting new set of 
facts, and the judge denied them.
    So, for the lawyers in the room, the District Court 
establishes the facts. The Appellate Court and the Supreme 
Court cannot add additional facts. Some very important 
additional facts, besides the fact that Fish and Wildlife 
Service has abandoned and really trashed, if you will, the 
scientific methodology for making these bird counts.
    In 2008 and 2009, the claim was, remember, 23 birds dead, 
mostly because they were missing when the survey was conducted. 
They were not in their usual places. In the next year when the 
census was done, the same number, 17 birds, mysteriously 
reappeared. That really is a scientific issue.
    But those facts, that the basis of the count made in 2008 
and 2009 at the heart of the case, were in fact factually 
incorrect, it is one of many examples of how correlation is not 
necessarily causation. That, as an issue in science, is rampant 
throughout the Federal agencies.
    I am about to conclude. For over 40 years, we have been 
implementing these major Federal environmental laws. We have 
learned a great deal. A whole body of environmental science has 
developed. Now I think it is time just to make sure that it is 
strong, that the strength of the science is proportionate to 
the magnitude of the impacts. Thank you.
    [The prepared statement of Mrs. Hartnett White follows:]
  Prepared Statement of Kathleen Hartnett White, Distinguished Senior 
 Fellow and Director, Armstrong Center for Energy and the Environment, 
             Texas Public Policy Foundation, Austin, Texas
    Chairman Gohmert and members of the Oversight and Investigation 
Subcommittee, I thank you for the opportunity to offer testimony on an 
issue of pivotal importance to our country.
                                overview
    Sound, rigorous science is an appropriate driver of regulatory 
programs across the Federal agencies. The science used by the 
government to justify regulatory decision, however, has become 
increasingly weak, cherry-picked, opaque, and at odds with genuine 
scientific method. Members of the National Academy of Science's review 
panels have shared this assessment in recent years.
    As regulatory programs balloon, their scientific justification 
weakens. The reverse order should be true. The stakes are high. Yet, 
there are few available avenues to challenge the credibility of agency 
science. The Federal courts typically give broad deference to an 
agency's technical expertise in matters scientific. Yet, government 
science is now used to justify regulatory initiatives with 
unprecedented impacts on this country. My testimony will highlight one 
example, in Texas, of how weak science under the ESA has been used to 
justify a Federal take-over of fundamental state authority to allocate 
surface water for human uses.
    I offer this testimony from a perspective gained through my 6-year 
experience as the final regulatory decisionmaker (Chairman) of the 
Texas Commission on Environmental Quality (TCEQ), the world's second 
largest environmental agency after the EPA. Through my previous work on 
environmental issues in Washington, DC for the National Cattlemen's 
Association and through four other gubernatorial-appointed Commissions 
in Texas, I have observed the implementation of Federal environmental 
laws over the last 30 years.
    Robust science conducted under empirical methodologies is a 
critical tool to inform law making and agency regulatory implementation 
of those laws whether that involves listing decisions and conservation 
plans under the Endangered Species Act or National Ambient Air Quality 
Standards under the Clean Air Act.
    Some will claim that non-scientists, like me, cannot assess the 
credibility of the work of credentialed scientists. The structure of 
our democracy, however, requires that our popularly elected 
representatives or appointed heads of agencies make the final policy 
decisions in which all manner of science, of course, plays an essential 
role. My job as chairman of TCEQ required that I make judgments about 
science. Making final decisions for Texas on regulations, state 
implementation plans, environmental standards, permits, and enforcement 
action necessarily involved my judgments about the rigor, accuracy and 
relative uncertainties in diverse scientific studies, statistics, 
modeling protocols and technical analyses.
    In recent years, I have observed a substantial deterioration of the 
quality of science driving regulatory or judicial decisions. 
Implausible assumptions somehow immune to verification, worst case 
scenarios, cherry-picked studies, mysteriously missing data, and 
absurdly precautionary methodology are now regularly used by Federal 
agencies to justify regulatory regimes of expanding impact.
    I believe that science is a critical tool to inform policy, 
legislation and regulation. But not all of what is called science is 
equally robust, transparent or objective. Scientific methodology can be 
easily manipulated to support a pre-determined policy or political 
preference.
                       the whooping crane lawsuit
    My testimony will highlight scientific issues at the core of an 
unusual lawsuit surrounding the federally endangered whooping crane. 
This species winters in and around the Aransas National Wildlife Refuge 
(ANWR) on the Texas Gulf Coast, at the bottom of the Guadalupe and San 
Antonio river basins. (See, Aransas Project v. Shaw, 775 F.3d 641, 
(2014)). To this end, I submit for the record a study commissioned and 
published by the Texas Public Policy Foundation, ``Analysis of the 
Science: The Whooping Crane Decision'' by a widely regarded technical 
expert on the issue, Dr. Lee Wilson.
    This litigation offers an example of the far-reaching impacts that 
can flow from science developed by the Federal Government as used by 
environmental activist litigators. The stakes in this litigation for 
the state of Texas are unprecedented. If Texas loses, the Federal 
Government through the U.S. Fish and Wildlife Service (FWS) will 
control allocations and diversions of all surface water in large river 
basins. Texas will lose its exclusive authority to manage allocations 
of water, uphold long vested water rights, or issue new water rights in 
an entire river basin originating in the Texas Hill Country flowing 
through San Antonio and into the bays in this fast growing region of 
the state.
    Instead, FWS would control the state's management of surface water 
diversions throughout the basins under a Federal Habitat Conservation 
Plan (HCP). The alleged water needs of the whooping cranes would become 
a super priority over all water rights in the Guadalupe river basin. 
Vested water rights for beneficial human use would become second 
priority, to include curtailing existing water rights held in 
perpetuity. These impacts could put Texas under the kind of Federal 
water control that California is now experiencing under FWS's 
``science'' designed to protect the Delta Smelt. Federally listed or 
candidate species exist in all Texas river basins. If Texas does not 
prevail in this litigation, the likelihood the risk of FWS control of 
surface water allocations throughout Texas would be high.
    This lawsuit is still pending in the Federal courts. Initially, the 
Federal District Court ruled against Texas and issued an emergency 
order freezing TCEQ authority to issue new water rights in the San 
Antonio and Guadalupe River basins until FWS developed a conservation 
plan that would govern consumptive water use. The Fifth Circuit Court 
of Appeals reversed and ruled in favor of Texas. The original 
environmental plaintiff now request review by the U.S. Supreme Court.
    The disturbing irony in this litigation is that the assumed 
polarization of the water needs of an endangered species and the water 
needs of human beings does not match the facts of this case under the 
lens of more robust science. The whooping crane population and water 
diversions for human use in these river basins increased over the same 
time period. This is a fantastic ``win-win'' for the well-being of the 
whooping cranes and Texans!
    The Aransas Buffalo Whooping Crane is a magnificent species worthy 
of the attentive care of mankind. In the 1940s perhaps only 15 cranes 
existed. Conservation efforts, in which the state of Texas played an 
important role, have helped the population to increase to around 500 
birds. The species is recovering. The data demonstrates that the 
increasing population of whooping cranes correlates with increasing 
consumptive water use from 1941-2010. (Wilson, 11). The Texas 
population of around 300 birds is the only wild (non-captive) flock in 
the world.
    Aransas Project v. Shaw takes an approach unusual in the history of 
the ESA. The most prevalent form of litigation under the ESA is legal 
challenge to FWS for failure to list, failure to implement protective 
measures, or failure to enforce. In this suit, the environmentalist 
plaintiffs sued the state of Texas--not FWS--through the officials and 
state agency charged with allocation of surface waters, the TCEQ. Their 
claim is that the TCEQ is liable for killing a record number of 23 
whooping cranes, or, in the ESA's legal terms, what is known as a 
``Take'' of a listed species. The plaintiffs argue that TCEQ's 
fundamental authority and legal obligation under state law to uphold 
existing water rights caused the deaths of 23 whooping cranes in 2008-
2009--a number established by the FWS' annual local census of the crane 
population.
    But there was a major wrinkle in this census. In the next annual 
survey (2009-2010), 17 additional whooping cranes ``mysteriously 
returned.'' According to Dr. Wilson's analysis, these 17 cranes are the 
exact number that FWS found ``missing'' from their territory in 2008-
2009 and thus presumed dead. ``This number is 17: 17 birds dead in 
2008-2009 only because they were missing; 17 ``unexpected'' birds 
returning in fall 2009.'' (Wilson, 19).
    FWS wildlife biologists' annual estimates of the population of a 
listed species is fundamentally important to FWS' central job to 
prevent the risk of extinction by increasing the population and range 
of the species. The wildlife counts, however, typically lack rigorous 
methodology and are thus highly prone to error. Yet, these numbers are 
critical every step of the way in the ESA's legal ambit--from candidate 
and listing decisions, to ``jeopardy'' decisions under Section 7 of the 
Act, and to regulatory conservation plans and enforcement actions.
    In the pending whooping crane litigation, the FWS's claim that 23 
whooping crane deaths occurred over the 2008-2009 wintering season was 
accepted by the judge as the core fact of the case. The accuracy of 
FWS' whooping crane population survey, and thus the underlying 
scientific methodology endorsed by FWS to conduct these surveys, were 
found to be dispositive in the opinion of the District Court judge.
    The FWS then abandoned the methodology for estimating the 
population of whooping cranes as ``untenable,'' soon after the District 
Judge made her ruling. Texas requested that the evidentiary record be 
re-opened to include the new evidence about the return of the 17 
unexpected cranes and the FWS's new methodology. The Judge declined.
    The weakness of the FWS's whooping crane population survey in 2008-
2009 became glaringly apparent before the District Court's ruling. 
First, 17 whooping cranes, thought missing and thus dead in 2008-2009, 
mysteriously showed up in 2009-2010! Second, a FWS report in 2012 
described the assumptions of methodology that led to the 2008-2009 
estimate of 23 whooping crane deaths at ANWR as ``untenable'' and not 
``defensible.'' (Wilson, 4); (See also, ``Aransas-Wood Buffalo Whooping 
Crane Abundance Survey,'' released September 24, 2012 by the FWS).
    Subsequently, the FWS completely abandoned the old methodology, on 
which the District Court grounded its ruling against the TCEQ. The FWS 
was glaringly absent from this litigation. An expert witness testified 
in support of the conclusions of FWS' local wildlife biologist in ANWR 
that 23 whooping cranes died during the 2008-2009 season. FWS 
apparently made no effort to intervene or to supplement the evidentiary 
record. And note that the report of 23 whooping cranes presumed dead 
did not spawn any legal action by the FWS. Given the stakes of this 
litigation, FWS' silence was deafening.
    Because the District Court determines what are the facts at trial, 
a potential Supreme Court review will be without the new, more 
compelling facts that undermine the evidence on which the District 
Court ruled. The absence of these new facts could trouble a Supreme 
Court review.
    The conflation of untested correlation and causation is an endemic 
scientific problem across multiple agencies. Agencies regularly use 
correlations (crane deaths) to establish legal causation (increasing 
water consumption in the river basin). Correlations can be analyzed 
within a causal framework, such as the commonly used Bradford Hill 
criteria, to determine whether an observed correlation is more or less 
likely to be a factual cause. Additionally, the causal credibility of a 
correlation should be tested against alternative explanations for 
correlation.
    As Dr. Wilson reminds: ``In science, testing of multiple hypothesis 
is essential to sound methodology.'' (Wilson, 4). Note, Dr. Wilson's 
analysis finds a much stronger correlation between local drought in 
crane habitat and crane mortality, rather than consumptive water use 
throughout an entire basin. What the now abandoned FWS methodology used 
as the measure----missing birds = presumed dead----overlooked the good 
news that the increasing and stronger crane population was enlarging 
the reach of occupied territory--a positive sign of recovery.
    The Aransas Buffalo Whooping Crane is a magnificent species worthy 
of the attentive care of mankind. In the 1940s perhaps only 15 cranes 
existed. Conservation efforts in which the state of Texas played an 
important role have helped the population to increase to around 500 
birds. The species is recovering. And the Texas population of around 
300 birds is the only wild (non-captive) flock in the world.
    Assuring integrity in government science is possible within our 
system of government. Agencies should be held by law to minimal 
criteria for credible science. Over the last 40 years, there has been 
an enormous growth in the environmental sciences. Some disciplines are 
more rigorous than others, but all could be strengthened within the 
terms of the appropriate enabling Acts, or through amendments to the 
Information Quality Act or the Data Quality Act.
    Science rigorously conducted according to the empirical method in 
which the accuracy of a hypothesis must be tested by physical evidence 
is essential to sound governance in a democracy. Scientific findings 
are, however, categorically different than policy judgments based on 
reasoned weighing of societal trade-offs and relative risks. The depth 
and breadth of Federal regulatory agencies, typically ruling under the 
authority of science, is now so vast that it seems a fourth branch of 
government has emerged, but this administrative power lacks 
accountability to the constitutional branches of government.

                                 ______
                                 

 Questions Submitted for the Record to Kathleen Hartnett White, Texas 
                        Public Policy Foundation
                Questions Submitted by Chairman Gohmert
    Question 1. Under the current structure, what is the mechanism that 
gives Federal scientists an advantage, or a level of deference that 
puts non-Federal entities at a disadvantage?

    Answer. Existing law and judicial precedent give broad, relatively 
unqualified deference to the scientific findings that agencies use to 
justify regulatory actions under the major Federal environmental laws. 
When enacted over 40 years ago, Congress accorded relatively 
unqualified trust in the credentialed experts employed by the agencies 
as the arbiters of matters scientific. The Federal courts are extremely 
hesitant to question the technical judgment of agencies because, in the 
plain language of the law, Congress delegated such broad authority to 
the agencies. Thus, there are few--if any--legal procedures through 
which non-government scientists, impacted business and property owners 
can challenge the validity of regulatory science considered the legal 
foundation of agency rules.
    Although there are multiple required procedures to validate 
scientific findings, they have become dysfunctional for a variety of 
reasons. The National Academy of Science review panels, indeed, have 
challenged some agencies' scientific methodologies or findings. Yet, 
those panels have no authority to compel agencies to correct their 
errors or alter their conclusions. And many of the scientific advisory 
groups intended to provide a kind of peer review are typically hesitant 
to challenge agency science because many of the individual scientists 
on these advisory groups depend on agency funding for their income.
    Laws like the Data Quality Act (DQA) and the Information Quality 
Act (IQA) also were intended to assure sound and robust science to 
inform regulatory decision. The language of these laws, however, is so 
general that agencies can readily skirt a vigorous justification of 
their regulatory science.
    These problems could be meaningfully addressed with relatively 
simple amendment to the enabling laws as well as the DQA and IQA. Such 
amendments would impose on agencies much needed accountability to 
Congress and could establish meaningful legal grounds for private 
parties to challenge the adequacy of agency science used to justify 
regulatory decision of major national consequence.

    Question 2. Today we are talking about ``Zero Accountability.'' No 
one suggests that we throw scientists in prison for mistakes. We do not 
want to deter creative research that pushes our understanding. So, how 
do we move beyond the lack of accountability we see in these examples 
today?

    Answer. Creative science undertaken in universities and private 
institutions and science developed by agency employees or commissioned 
by Federal agencies to justify regulatory decisions of national 
importance are quite different. Such Federal legal findings as EPA's 
Endangerment Finding that CO2 is a pollutant within the authority of 
the existing law, ESA listing of the Delta Smelt, and current 
litigation that could put USFW Service in control of surface water 
allocations in Texas are Federal actions based on science that trigger 
a massive expansion of Federal control over basic economic activity. 
Agencies must be required to validate the science they assert to 
justify those decisions. Otherwise, our country is functioning more 
like a technocracy run by Federal employees acting under the authority 
of science rather than a democracy.
    Government by popularly elected representatives, on the one hand, 
and government by Federal administrators swearing by the authority of 
science, on the other hand, are contradictory notions. I would call the 
latter, moreover, an acutely dangerous notion. Regrettably, in the 
modern United States these two incompatible policymaking models clash 
often and with dire results. Elected officials trying to carry out 
their public duties--e.g. maximizing access to clean, affordable 
energy--meet stubborn opposition from Federal mandarins brandishing 
their scientific credentials. The magnitude of the aggressive 
regulatory agendas over the last 6 years has elevated the importance of 
these issues.

    Question 3. At first glance, it appears the Fish and Wildlife 
Service made a simple counting mistake, albeit with a flawed method for 
several decades. However, what is it that makes this more serious and 
less innocent? What is it that makes this a dangerous precedent?

    Answer. The FWS' methodology for regular census of the endangered 
Whooping Cranes wintering on the Aransas National Wildlife Refuge in 
Texas was accepted by the District Court Judge in the Whooping Crane 
litigation as the determinative evidence on which the Judge ruled 
against the state of Texas. FWS changed this methodology shortly after 
the record was closed in the lawsuit. Under rules of Federal civil 
procedure, the District Court establishes the evidentiary record. The 
Appellate Court or the Supreme Court can neither reject nor add new 
evidence to the trial court record in their appellate reviews. Thus, 
FWS's weak and flawed annual census of the whooping cranes--now 
replaced with sounder science by FWS--is part of the evidentiary record 
and cannot be rejected by the higher courts.
    The FWS was unusually absent from this litigation at the District 
Court level. No effort was made to intervene which would have been 
invaluable. Typical litigation under the Endangered Species Act (ESA) 
involves a challenge to FWS for failure to implement actions argued as 
legally required under the ESA. In contrast, the whooping crane 
litigation was a challenge by an environmental plaintiff to the state 
of Texas' oversight of surface water rights. If Texas loses at the 
Supreme Court level, FWS will assume control of the state's system of 
surface water rights--first throughout the Guadalupe river basin but 
likely to extend to other river basins. Such a result could very well 
lead to impacts as damaging as that now surrounding FWS protection of 
the Delta Smelt in California.

    Question 4. Some people assume that science from government or 
academia is not driven by an agenda. Is that a reasonable assumption in 
your experience?

    Answer. I have observed, studied and made official decisions on the 
basis of agency science for over 30 years. As Chairman of the Texas 
Commission on Environmental Quality, my job required frequent 
assessment of Federal and state regulatory science. I saw many examples 
of genuinely objective and rigorous science . . . typically more in 
agency conducted science at the state level rather than at the state 
Federal level. On the basis of my experience as the final decisionmaker 
in a state agency, I believe state agencies tackle environmental issues 
with more realism and objectivity than Federal employees who often look 
at the issues on paper with a one-size-fits-all approach that relegates 
sound science to the backseat while making abstractions like ``national 
consistency'' the driver. Regrettably, much agency science used by 
Federal agencies appears to be a justification for predetermined policy 
preference.
    On the other hand, I think employees in both state and Federal 
agencies have an inherent agenda to increase their jurisdiction and 
funding. Such an agenda regularly biases the regulatory science. Also 
there are career government employees who have strong ideological goals 
to expand Federal control--a key reason why this country now lives 
under thousands and thousands of Federal rules without any idea of 
whether those rules are addressing genuine problems in an effective 
manner.
    Without more binding congressional oversight of this ideologically 
technocracy now populating the Federal agencies, the rule of law 
recedes. Under the self-proclaimed authority of science, agencies now 
operate as if a fourth branch of government but with no accountability 
to the Congress, the Judiciary or the Executive branch. As a single 
example, the EPA has refused to release key data requested by Congress 
that the Agency uses scientific foundation of onerous new National 
Ambient Air Standards (NAAQS).

    Question 5. Was there anything discussed during the hearing that 
you felt you were not given ample time to elaborate on or properly 
discuss?

    Answer. I believe there are strategic ways to increase agency 
accountability with regard to regulatory science. The major Federal 
environmental laws, as well as the IQA and DQA, need to be amended to 
impose obligations on the agencies to validate the relevant 
methodologies and findings of their regulatory science.
    For example, the EPA calls its many risk assessments the legal 
foundation of regulation. Yet, EPA will cherry-pick among perhaps 
hundreds of relevant studies to select a single study that shows the 
highest risk in order to justify onerous regulation. EPA should be 
required to perform genuine weight of evidence assessments of 
background science--an analysis for which there are many widely 
recognized protocols.
    Science, of course, should drive Federal environmental regulation. 
Drive does not mean dictate. There are, however, very different forms 
of science some of which are far robust than others. Conflating the 
difference between correlation and causation is a typical approach used 
by agencies to exaggerate risk. See my ``EPA's Pretense of Science: 
Regulating Phantom Risks.'' Agencies throughout the Federal Government 
rely on scientific methodologies based on observed correlations. Yet, 
we all know that a correlation like that between a higher incidence of 
heart attacks in the winter and a higher incidence of purchasing heavy 
coats in the winter does not mean heavy coats cause more heart attacks 
in the winter. Yet, many Federal risk assessments use correlations this 
implausible to establish the causation of an environmental problem that 
therefore justifies Federal regulation. This is absurd, and there are 
ways to validate or invalidate whether an observed coincidence is 
likely a cause. Outside of government, one of the most widely used 
frameworks to assess whether correlation is indeed causation is the 
Bradford Hill analytical criteria. In regulatory areas where there are 
weaker and stronger scientific methodologies, agencies should be 
required to use the stronger approach.
    After 40 years of private conservation and environmental regulation 
under the major Federal environmental laws, most of the greatest risks 
to human health, wildlife and other natural resources in the United 
States have been dramatically reduced. Instead of absorbing this 
successful record of risk reduction and environmental improvements, 
many Federal agencies are manufacturing science to support more and 
more onerous regulation.
    Science is an essential tool in the environmental arena. The 
distinction between science and policy, however, is critical to any 
consideration of the accountability of government science. Science 
should never dictate a policy conclusion. Under our form of government, 
the popularly elected representatives serving in Congress are the final 
policymakers.
            Questions Submitted by Congressman Raul Grijalva
    Question 1. Though questions about Federal and foreign funding are 
asked of non-governmental witnesses before they testify, no questions 
are asked about private funding.

    1a. Have you received funding from any for-profit sources outside 
your Texas Public Policy Foundation income, including but not limited 
to grants, sponsored travel, speaking fees, compensation for writing, 
in-kind services, or any other services between 2010 and 2015? Do you 
solicit funding for the Texas Public Policy Foundation? If so, from 
whom have you solicited funding between 2010 and 2015?

    Answer. I do not solicit funding for the Texas Public Policy 
Foundation.

    I already have complied with the financial disclosure rules adopted 
by the U.S. Natural Resources Committee.

    1b. Would you support, in principle, a change in disclosure 
policies for congressional witnesses to include requirements for 
disclosure of private funding? Why or why not?

    Answer. I do not have an opinion on financial disclosure policies 
for congressional witnesses.

                                 ______
                                 

    Mr. Gohmert. Thank you so much, Mrs. Hartnett White.
    At this time we will hear from the Honorable Ms. Beckett.

   STATEMENT OF THE HONORABLE CLARA BECKETT, BASTROP COUNTY 
            COMMISSIONER, PRECINCT 2, BASTROP, TEXAS

    Ms. Beckett. Honorable Chairman and members of the 
committee, thank you for having me here today. My name is Clara 
Beckett. I am a County Commissioner over in Bastrop County, 
Texas. This is where the greatest, most disastrous fire in 
Texas history, and the third worst fire in U.S. history, 
occurred in September of 2011.
    The fire totally destroyed 1,700 homes and the entire fire 
occurred within federally listed critical habitat of an 
endangered species. Compliance with the Endangered Species Act 
turned out to be our greatest challenge, and what I and others 
in the county referred to as the ``disaster within the 
disaster''.
    The threats to public safety were vast. A Presidential 
disaster was declared, and FEMA public assistance was approved 
with a cost-share component. Bastrop County would be 
responsible for 25 percent of all the debris cleanup costs.
    The ESA has a unique requirement in that any Federal agency 
conducting activities where an endangered species could be 
impacted has to consult with the U.S. Fish and Wildlife 
Service, and they have to come up with certain findings to 
ensure the protection of endangered species.
    Initially, FEMA and the Service came up with a finding of 
no effect. Work began in early November, and focus was on tree 
removal on trees that could fall to public roadways. 
Subsequently, FEMA requested additional consultation with the 
Service. They sent letters in November and again in December.
    The letters stated, in part, due to the emergency nature of 
the event, the threat to public safety and help, the County of 
Bastrop needs to proceed in an expeditious manner to remove 
this material, and concluded a finding of no effect. The 
concurrence from the Fish and Wildlife Service never came.
    On January 10, 2012, a meeting was held at the JFO (I have 
learned a lot of acronyms since this; that is the Joint Field 
Office of FEMA), and a grave concern was expressed by the Fish 
and Wildlife Service and its expert biologists, independent, 
that tree removal going forward would result in an adverse 
effect on the Houston toad unless we developed intense 
avoidance and minimization measures. On January 27, FEMA 
proposed, in consultation with the Service and their local 
biologists, a plan that included a tentative set of measures. 
The plan presented a monstrous challenge--again, the ``disaster 
within the disaster''.
    Bastrop has an intense understanding of the ESA. We are a 
Section 10 permit holder for the Houston toad and are 
intimately familiar with protecting species while facilitating 
necessary governmental functions. We have successfully 
implemented our plan for 10 years, and we not only accepted 
this responsibility, we took ownership of it.
    The consultation, on the contrary, between the Service and 
FEMA had no accountable elected official input. Zero. No 
consideration, to my knowledge, was given to the practicality 
of the measures, the extent to which it would delay Bastrop 
County, and what effect delays would present to the safety of 
the public; nor would it provide any real scientific evidence 
that would conclude the measures were necessary at all.
    Every tree that was cut, fell, picked up, and hauled was 
inspected by a team of qualified toad monitors, and any work 
could not proceed until they said so. They were in charge. 
Frustration was intense. The county was forced to rebid the 
contract because the contractor refused to extend the contract 
beyond the original terms. Ultimately, a half million trees, 
vegetative debris, was collected. This is the volume of a 
football field 30 stories tall. It was a big task.
    The project was delayed at least 10 months due to these 
measures. This is a conservative estimate. Nearly a year, when 
a family is concerned for their safety, is an eternity to them. 
I personally expected tragedy every day. Fortunately, thank 
God, there was no more loss of life. There are a lot of stories 
I could tell you, individual stories about families.
    The biggest concern to me was the fact that there were a 
thousand homes that still remained intact within the burn area, 
and those families needed to be kept safe. It is one thing to 
hold up somebody from rebuilding your home, but it is another 
that they cannot be safe in their home. I know people that the 
fathers stayed in the home and the families stayed elsewhere. 
Others did not have that choice and just prayed for the best 
every day.
    We recognize the ESA comes with a financial impact, and 
protection of the species is our responsibility as a society; 
but during a federally declared disaster and authorized by the 
Stafford Act, by definition these threats pose a threat to 
public safety. The ESA must take a back seat to public safety. 
Respectfully submitted. Thank you.

    [The prepared statement of Ms. Beckett follows:]
   Prepared Statement of Clara Beckett, Bastrop County Commissioner, 
                             Bastrop, Texas

    Honorable Chairman and members of the committee, on September 4, 
2011, many lives where changed forever in Bastrop County and the state 
of Texas and touched many lives throughout the country. All hoping that 
Hurricane Lee would bring desperately needed rainfall and relief to the 
drought of record in Central Texas, he only brought the final blow to 
the perfect storm; a 30 mile per hour hot wind. Emergency personnel, 
and everyone in the region was anticipating the worst. Numerous fires 
broke throughout central Texas during this time. The fire first called 
into the Bastrop County Sheriff's 911 office at 2:21 p.m. from a 
resident of the neighborhood known as Circle D was dispatched to the 
Bastrop Fire Department. The fire suppression effort never remotely 
stood a chance and the quick decision making of emergency personnel 
saved many lives. What became known as the Bastrop County Complex Fire 
caused the immediate evacuation of thousands of our residents and 
resulted in the destruction of 1,677 residential dwellings, the most 
destructive fire in Texas history and the third most destructive in 
U.S. history. There were 34,000 acres of the Lost Pines forest that 
succumbed to the massive fire. The entire burn area also occurred 
entirely within federally designated Critical Habitat of the Houston 
Toad.

    The President of the United States signed the Major Disaster 
Declaration, FEMA-4029-DR-TX on September 9, 2011. Six hundred 
firefighting personnel on the ground assisted by an aerial attack for a 
fire which was not declared 100 percent contained until October 11, 
2011. All residents were given the authorization to re-enter the still 
smoldering area on day 14. Given the speed and intensity of the fire 
and the density of residential development, I personally presumed many 
deaths had occurred. The fire resulted in the death of two souls. The 
attached Fire Progression Map illustrates the massive speed and 
intensity of the initial ignition as well as two later ignitions.

    During the emergency response period of fire suppression, the 
Endangered Species Act (ESA) was given due consideration. Each morning 
and evening at the Incident Command Center, shift briefings by the 
Unified Command (Federal, State and Local) included instruction and 
guidance to personnel in an effort to heightened awareness of the 
potential presence of the endangered Houston toad on the ground. 
Fortunately, the ESA did not prove to hamper the firefighting efforts. 
However, after the firefighters left and the fire was declared 
contained, compliance with the ESA proved to be our greatest challenge 
and challenges were varied, unique and abundant. The fact that the 
majority of the fire occurred on private property and occurred entirely 
within Federally Designated Critical and Potential habitat of an 
endangered species presented what I and many others in Bastrop County 
refer to as, the disaster within the disaster. This fire was unlike any 
that FEMA, the state of Texas or our rural county had ever dealt with. 
The threats to public safety were vast. Homes that survived the fire 
and public roadways were now threatened by tens of thousands of pine 
trees burned by the fire that remained standing and at any time could 
fall and destroy property and take lives. Piles of rubble, including 
rock and brick veneer, needed to be removed to prevent vectors for 
snakes and rodents.

    The Disaster declaration was amended numerous times, the last being 
on November 3, 2011, and provided for Individual Assistance (IA) and 
Public Assistant (PA). The PA was approved for eligible applicants for 
75 percent financial reimbursement for all eligible activities 
authorized by the Robert T. Stafford Disaster Relief and Emergency 
Assistance Act, P.L. 93-288, as amended.

    Bastrop County was determined to be eligible along with two utility 
providers. In anticipation of the approval of Public Assistance, 
specifically, debris removal, Bastrop County went to work immediately 
performing damage assessments, procuring temporary debris management 
sites, environmental clearances and hiring a qualified monitoring 
company as well as a qualified debris removal contractor. Bastrop 
County officials meticulously followed all local, state and Federal 
procurement laws, as assuring compliance was critical to the mission. 
The cost of the debris removal was estimated to be $20 million and 
Bastrop County would be responsible for paying 100 percent of those 
costs up front and we were fully aware that we could ill afford to do 
anything that would put the eligibility of 75 percent reimbursement 
from FEMA at risk. Bastrop County's 25 percent responsibility was 
crippling to our fund balance and cash-flow was an incredible 
challenge.

    The ESA requires either an informal or formal Section 7 
consultation with any Federal agency--in this case--FEMA and must 
conclude that the proposed activities funded by FEMA have ``no affect'' 
or ``are not likely to adversely affect'' or ``is likely to adversely 
affect'' a federally endangered species. A finding of ``is likely'' 
results in a formal consultation that would have completely halted any 
and all debris removal operations, if and until mitigation measures and 
a complex plan could be developed. This would have been unfathomable. 
FEMA initially made a finding of ``no affect'' for approval of the use 
of temporary debris management sites and the USF&WS concurred.

    Debris removal work began in earnest on November 7 and was focused 
on dangerous tree removal within the County Rights-of-Way that could 
fall onto the more than 100 miles of public roads within the burn area. 
Subsequently, FEMA requested additional informal consultation with the 
USF&WS on November 7 and again on December 13, 2011, providing more 
details of the activities on the ground. The letter of December 13 
stated in part: ``Due to the emergency nature of the event and the 
threat to public health and safety, the County of Bastrop needs to 
proceed in an expeditious manner to remove this material to previously 
designated sites.'' And concluded in that request a finding of ``no 
affect.'' The concurrence from the USF&WS of FEMA's finding was not 
ever received. On the heels of the breading season of the Houston Toad 
a meeting was held January 10, 2012 at the Joint Field Office of FEMA. 
There was grave concern expressed by the USF&WS and local biologists 
that activities going forward would result in an ``adverse effect'' on 
the Houston Toad unless we could develop intense avoidance and 
minimization measures. On January 27 FEMA proposed, in consultation 
with the USF&WS and local biologists, an extensive set of avoidance and 
minimization measures for all activities as well as a detailed Houston 
Toad Monitoring Plan. The USF&WS sent their concurrence letter to FEMA 
on February 1, 2012. From that day forward all debris removal 
activities would be conducted under this intense set of procedures and/
or similar variations as deemed necessary as work activities varied in 
nature. We continued to work within these parameters on all projects 
moving forward which involved any Federal dollars and are still today 
working with these procedures on Recovery projects. The avoidance and 
minimization measures established in this informal Section 7 
consultation, set a monstrous challenge before the county and its 
contractors. What seemed to me, on the day the fire occurred up until 
this time to be the biggest challenge I and others would face in our 
lifetimes, just got monumentally more difficult. It felt like the blow 
to the chest I felt when I was 8 years old and shot my grandfather's 
double barrel shot gun, only that pain simply left a bruise for a few 
days. This new set of circumstance has left its mark to this day. The 
January 27, 2012 and the February 1, 2012 letter to initiate 
consultation from FEMA to the USF&WS and the concurrence from the 
USF&WS letter are attached. The consultations were updated again in 
January of 2013 and again in June of 2013 and further avoidance and 
minimization measures were added.

    Bastrop County and our citizens have an intense understanding of 
the ESA and history of compliance. Bastrop County is a Section 10 
permit holder with a Habitat Conservation Plan for the Houston Toad and 
are intimately familiar with the purpose and need for minimization and 
avoidance measures that reasonably assure compliance with the ESA while 
facilitating necessary county functions. We successfully implemented 
our permit many years before the fires occurred and for over 10 years 
and have had full-time staff dedicated to protecting the species and 
assuring compliance with all aspects of our permit. We work with 
thousands of landowners who also participate in the Habitat 
Conservation Plan on a voluntary basis. The plan took many years to 
develop and I believe was developed with solid thought and the best 
science available. The county was intimately involved for many years 
during its development.

    In complete contrast, the consultation between the USF&WS and FEMA 
that was implemented for the remaining duration of our disaster had no 
accountable elected official from Bastrop County input. As a result, no 
consideration, to my knowledge, was given to the practicality of the 
measures of the plan, the extent to which it would delay Bastrop County 
in our efforts and what ``affect'' delays could potentially present to 
the health and safety of the public or provide any real scientific 
evidence that would reasonably conclude the measures were necessary.

    A team of biologists, as regulated and determined to be qualified, 
by the Houston Toad Monitoring Plan and subsequent updates to the Plan, 
were deployed and the debris removal proceeded under the newly 
established avoidance and minimization measures and as updated. As 
stated in the letter of concurrence from the USF&WS, ``Implementation 
of these measures is a condition of Federal funding.'' It was very 
clear to me that whatever the document said is what we had to do 
regardless of anything. If the USF&WS and FEMA concurred that Bastrop 
County had to implement these measures we had absolutely no other 
options. Essentially every tree that was cut/fell/picked up/hauled and 
every pile of rubble that was picked up and hauled was inspected by 
qualified Houston Toad monitor prior to any work proceeding. 
Frustrations were intense and the debris removal contractor was under 
great distress from a production standpoint. The original contract for 
debris removal was for a duration of 12 months. The contractor at the 
end of the 12-month period requested an additional $2 million to 
complete the project via increased unit price costs. Bastrop County was 
forced, due to state procurement law, to re-bid the entire remaining 
work items and a contract was awarded to a second contractor. This 
caused a further 2-month delay in debris removal operations.

    Bastrop County and its debris removal contractors ultimately:

    Cut 53,000 trees which equated to a volume of about 530,000 cubic 
yards of vegetative debris. By way of a physical comparison this volume 
would cover a football field 300 feet in height.

    Removed/consolidated and hauled for re-cycling 100,000 tons of 
rubble, covering the size of a football field 45 feet in height.

    From the beginning of the operations on November 7, 2011 through 
February 1, 2012 under the initial consultation the county cut and 
removed 14,367 trees. From February 2, 2012 through July 31, 2013 the 
county cut and removed 35,785 trees under the strict avoidance and 
minimization measures and updated measures. If one calculates the trees 
per calendar day and compares the production rates for the time frames 
referenced above. The project was delayed 311 days. This is a 
conservative estimate as the month of January 2012, during the 
initially cutting, was the wettest month in Bastrop County in the 
proceeding 4 years. The initial ramp-up also effected the initial 
production numbers. My strong belief is that the debris removal 
operations could have been completed close to 1 year earlier than it 
did. I also believe that every elected official in Bastrop County, 
staff and FEMA personnel on the ground would agree that the Toad 
Monitoring significantly delayed completion.

    Three hundred eleven days when a family is concerned for their 
safety due to a burnt tree standing 75 feet tall on an adjacent 
abandoned property is an eternity to them; 311 days where trees could 
fall into the over 100 miles of county roads within the burn area is an 
eternity to the public and the county personnel tasked with keeping the 
public safe as well as the removal. I personally expected tragedy every 
day the debris removal was prolonged. Many trees did fall onto 
structures, fences and roadways; however, and most assuredly by the 
grace of God, we escaped any additional loss of life. There are many 
stories that I could share with the committee about the human stresses 
that I personally witnessed and the delay to so many wishing to move on 
with their lives and many stories I am sure I never knew or heard 
about. The standing dead trees were a constant reminder to fire 
victims, survivors, neighbors, friends and my constituents of the fire 
and the continued dangers to residents. It was also a constant reminder 
of the environmental destruction. At the end of the day, it is my 
belief that the delays ironically proved to be an impediment to 
environmental recovery. Removing this clear threat to human safety and 
health should have been the first and foremost priority, but I can tell 
you firsthand it was not. The protection of the Houston Toad was 
clearly the first priority.

    Bastrop County had a population of approximately 74,000 people at 
the time of the fire. The decision to rebuild for the 1,700 households 
that were destroyed, for many, hinged upon how long it would take to 
make the neighborhoods safe. There were also over 1,000 homes that 
remained intact within the burn area. We estimated that this number of 
households was approximately 11 percent of the total population of 
Bastrop County. Everyone knew someone affected. The quicker we could 
get these trees removed the quicker the emotional, ecological and 
economic recovery could begin. The 1,000 dwellings and the people 
living within the burn area needed to be immediately protected. Many 
families were so concerned for their safety the decision was made to 
have the father remain at the house, to protect the contents, while the 
mother and children stayed with friends or family, others simply had no 
choice but to remain in their homes and pray for the best. Please see 
the attached picture that I personally took on April 11, 2013, 19 
months after tree removal had commenced. This is one example of the 
many families that contacted me concerned with trees on adjacent 
properties threatening their safety and welfare. Delay was the worst 
case scenario, yet in order to comply with the ESA, we were forced to 
endure it. County elected officials, county staff, our contractors and, 
I believe, even FEMA personnel, were dismayed and frustrated with the 
tree removal process. The electric utility company and their staff were 
similarly frustrated. With the very limited resources of Bastrop 
County, we knew that every detail of compliance with local, state and 
Federal law and processes must be adhered to. I believe that under 
similar circumstance where debris removal did not involve this intense 
ESA compliance element, the process would be a significant challenge 
for any city or county in the country and we are a very small 
jurisdiction with limited staff. I often felt and compared the feeling 
I had to trying to breathe through a coffee straw.

    I have chosen to not, in detail, enumerate the significant direct 
and indirect costs of compliance, which many would certainly agree was 
unacceptable. The direct and indirect costs to the Federal Government 
and Bastrop County was well into the millions.

    While the ESA is understandably not free and the protection of 
endangered species is our responsibility as a society, it is my 
conviction that change must happen. Under the conditions of a 
Presidential Federally Declared Disaster and the eligibility for FEMA 
IA and PA, authorized under the authority of the Stafford Act and by 
definition the activities funded by the Federal Government must present 
a ``threat to public health and safety,'' compliance with the ESA must 
take a temporary back seat to removing those threats. We simply cannot 
continue to enforce a Federal law that impedes the removal of clear and 
immediate threats to human life.

Attachments:

1. Fire Progression Map

2. January 27, 2012 Letter--FEMA Consultation Request

3. February 1, 2012 Letter--USF&WS Concurrence

4. Picture of a Child

                              ATTACHMENT 1

                   Balstrop Complex Fire Progression
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                            ATTACHMENT 2
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

					January 27, 2012

Ms. Edith Erfling
Field Supervisor
U.S. Fish and Wildlife Service
17629 El Camino Real, Suite #211
Houston, TX 77058

    Dear Ms. Erfling:

    This letter is to initiate informal consultation between the 
Federal Emergency Management Agency (FEMA) and your office regarding 
ongoing work associated with the recovery from the Bastrop County 
Complex Fire, which was included as part of the major disaster 
declaration FEMA-4029-DR-TX. This letter has been revised to capture 
discussions between FEMA and your office on January 20, 2012, and 
following a site visit in Bastrop with Jeff Hill of the U.S. Fish and 
Wildlife Service (USFWS) on January 25, 2012. It also follows an 
initial consultation letter, dated November 7, 2011, that was submitted 
to the Austin Ecological Services Field Office and a subsequent letter, 
dated December 13, 2011, regarding FEMA's ``no effect'' determination 
for the impact of debris removal activities to the federally endangered 
Houston toad (toad; Bufo houstonensis) in Bastrop County. In addition, 
on September 19, 2011, FEMA requested and on September 23, 2011, 
received USFWS concurrence on proposed debris disposal sites within 
Bastrop County.
    As environmental conditions change and the toad is likely to become 
more active in Bastrop County, and as FEMA's emergency work activities 
are going beyond the initial predicted timeframe for completion, FEMA 
is requesting informal consultation with your office. Per conversations 
with Adam Zerrenner, Field Supervisor at the Austin Ecological Services 
Field Office, FEMA is to consult with the Clear Lake Ecological 
Services Field Office regarding the toad and FEMA work in Bastrop 
County.
    Realizing that FEMA Public Assistance and Individual Assistance 
efforts were proceeding into the toad chorusing season, FEMA arranged 
for a meeting on January 10, 2012, among FEMA program and environmental 
staff; applicants, including Bastrop County and Bluebonnet Electric 
Cooperative; the Texas Division of Emergency Management; USFWS; Texas 
Parks and Wildlife Department (TPWD); and representatives from Texas 
State University, to discuss ongoing FEMA-eligible activities, toad 
emergence and breeding activity status, potential mitigation measures, 
and consultation approaches under the Endangered Species Act.
FEDERAL ACTIONS INCLUDED IN THIS CONSULTATION
    Approximately 95 percent of the burn area associated with the 
Bastrop County Complex Fire is located within designated critical 
habitat for the toad. Therefore, much of the FEMA-eligible work under 
various funding authorities is taking place within toad critical 
habitat. A map has been included that shows the burn area, the 
designated critical habitat for the Houston toad, and the temporary 
debris staging sites being utilized by Bastrop County and Bluebonnet.
Individual Assistance
    Under FEMA's Individual Assistance Program, approximately 73 
temporary housing units with associated temporary electric poles have 
been placed on residential lots within Bastrop County to provide short-
term housing for those impacted by the wildfire. Most of the units are 
located in the Circle D-KC Estates area north of Bastrop, with others 
located just south of Bastrop State Park and in Tahitian Village. No 
additional units are anticipated to be placed within the burn area. 
These units will be decommissioned and removed from residential sites 
within various timeframes depending on the homeowners' needs. This 
consultation covers removal of units beginning in January 2012 and 
through the end of toad breeding season, June 1, 2012. FEMA 
approximates that between 5 and 1O units will be removed during this 
timeframe. Removals will be conducted during daylight hours. FEMA will 
make separate determinations for removals that continue from June 1, 
2012, through the remainder of the year and into early 2013. Removals 
after June 1, 2012 are therefore not included in this consultation.
Public Assistance
    Under FEMA's Public Assistance program, eligible applicants, 
including Bastrop County, Bluebonnet Electric Cooperative, and TPWD, 
have requested federal funding assistance for eligible emergency work 
related to recovery from the fire. Debris on or along roadways may 
impede the safe passage of emergency vehicles and local traffic, and 
debris piles on public and private property may also provide habitat 
for vectors of disease. Therefore, FEMA intends to provide assistance 
for eligible Private Property Debris Removal (PPDR) and removal of 
burned, dead, hazardous trees and other debris from public rights-of-
way (ROW) in Bastrop County. Most of this work is being conducted along 
Highway 21, Highway 71, within the Circle D-KC Estates, and within 
Tahitian Village (see enclosed map).
    The PPDR operation in Bastrop County includes removing burned, 
dead, and hazardous trees within 50 feet of the home and/or driveways. 
In some limited cases, debris crews will need to remove small 
quantities of building rubble if it impedes the entrance of debris 
removal equipment along entrance driveways. As of this date, FEMA 
projects that approximately 650 home owners will request assistance 
with debris removal on private property in total. Work has been 
completed on many of these sites, and at this time FEMA is estimating 
that about 200 of these 650 sites still need to be worked. Trees are 
being hand cut and skidded to driveway areas. Contractors are using 
bobcats, bucket trucks, and self-loading trucks with grapple hooks to 
remove the debris. Heavy equipment is remaining on driveways. The PPDR 
operation is running 7 days a week and work is being conducted only 
during daylight hours. The application period for PPDR will remain open 
through February 19, 2012, and PPDR work is estimated to conclude by 
the end of March 2012.
    In addition, some private property owners clean their property and 
move disaster-generated debris such as brush and vegetation and 
building components and contents to the public road ROW. FEMA and its 
applicants have little to no control over when the debris is brought to 
the roadsides. Most ROW debris is being removed from the roadway via 
self-loading trucks with grapple hooks. Heavier construction and 
demolition debris must be removed with front end loader equipment. 
Dead, burned trees within road ROWs have also accumulated and are a 
potential hazard. Arborists are making determinations of which trees 
are dead and marking them for contractors to remove; trees deemed at 
least partially alive are marked and will be re-evaluated at a future 
date. Trees are being hand cut. There should be little to no heavy 
trucks or equipment leaving roadways onto undisturbed ground for tree 
removal activities along ROWs. As of the date of this letter, most ROW 
work is complete and FEMA crews are responding to debris as it is 
periodically brought to the ROW by property owners. Finally, stump 
grinding within the public ROW may become an eligible FEMA-
reimbursement activity if the stumps are determined to pose a safety 
issue. Stumps would be ground down to be level with the adjacent grade 
and would not be excavated or otherwise mechanically removed. The ROW 
debris clearing operation is running 7 days a week and work is being 
conducted only during daylight hours.
    All PPDR and ROW debris will be taken to one of the five previously 
approved debris sites or will be recycled. Heavy equipment is removed 
from private property and the public ROW at the conclusion of each work 
day.
    Bluebonnet Electric Cooperative is also working to remove debris 
inside and outside of its maintained utility ROWs. Some of this work, 
including removal of debris in the ROW that presents a safety hazard 
and threat to continued electric service, is eligible for FEMA 
reimbursement. According to Bluebonnet, FEMA-funded tree cutting within 
the ROW is complete and removal of debris on the ground is about 70 
percent complete within the maintained ROW. Heavy equipment is being 
used to collect and haul the debris, and equipment will remain within 
the maintained ROW during the workday. Heavy equipment is removed from 
Bluebonnet ROWs at the conclusion of each work day. This work is 
estimated to be completed by the end of March, 2012. Bluebonnet is also 
conducting tree removal, tree trimming, and above-ground reconnection 
of electricity service to structures on private property where trees 
present a threat to the provision of electric service. Trees are being 
hand cut and hauled off site via equipment that will remain on roadways 
and driveways. Some of this work may also be eligible for FEMA 
reimbursement. It is difficult to estimate a completion date for work 
on private property as customers call in on their own timeframe for 
this service. Bluebonnet's operation is running 5 days a week and work 
is being conducted only during daylight hours.
    TPWD is conducting work within Bastrop State Park. Some debris 
removal activities at the park will be reimbursable through FEMA. 
Specifically, TPWD is conducting hazardous tree removal along park 
roadways using fella-bunchers, skidders, loaders, and chippers. 
Equipment is operating either on the roadways, or within immediately 
adjacent roadside cutting areas. Larger trees are being sent to a mill 
to be used for lumber and the remainder of the vegetative debris is 
being chipped on site and used for erosion control in the park. 
Hazardous tree removal is reportedly 50 percent complete as of January 
11, 2012, and TPWD estimates that it will be completed by the end of 
February, 2012. TPWD has prioritized work such that they are moving 
away from known toad habitats as chorusing season approaches. 
Therefore, the remaining tree removal work is likely to be in areas of 
the park that are uninhabited by the toad and where toads have not been 
documented in the last 6 years. The TPWD debris clearing operation is 
running up to 7 days a week and work is being conducted only during 
daylight hours. In addition to implementing the best management 
practices (BMPs) developed by the USFWS (2011a and 2011b), TPWD is 
conducting real-time monitoring for toad emergence throughout the 
project area as work proceeds.
    Consultation on permanent work repair projects, such as culvert 
replacement and building reconstruction under the FEMA Public 
Assistance Program will be conducted as necessary on an individual 
basis at a future date and is not included in this consultation.
HOUSTON TOAD STATUS IN PROJECT AREA
    The toad depends on healthy and mature forest ecosystems with mixed 
species composition, significant canopy cover, an open understory layer 
with a diverse herbaceous component, and breeding areas (ephemeral wet-
weather ponds and other water features, such as stock tanks, creeks, 
streams, wetlands, seeps, and springs) with shaded edges. They are most 
commonly found within the surrounding upland habitat adjacent to 
breeding sites. The toad uses drainages and riparian areas for 
dispersal and movement. The edges of breeding ponds are used by 
emerging juvenile toadlets after they metamorphose from their larval 
(tadpole) stage (USFWS, 2011a).
    This species is inactive during hot, dry seasons and during the 
coldest months. Most breeding occurs from February to April, when the 
minimum air temperature is above 14 C. Breeding has been reported as 
late as June. Breeding habitat consists of a body of water supporting 
the reproductive and larval toad life stages. Eggs and larvae develop 
in shallow water. For successful breeding, water must persist for at 
least 60 days. Larvae hatch in 4 to 7 days and metamorphose in 3-9 
weeks, depending on the water temperature. This species locally 
migrates between breeding and non-breeding habitats. The adjacent 
uplands support adults year round and provide patch connectivity 
outward from the ponds for juvenile dispersal (USFWS, 2011c). The toad 
tends to occupy areas with 60 percent to 100 percent canopy cover 
(Forstner et al. 2011). Upland forests in the Lost Pines area of 
Bastrop County serve as occupied and dispersal habitat for the Houston 
toad and cover/shade is a necessity to facilitate distribution without 
desiccation (LPRT 2011).
    Bastrop County has been surveyed consistently from year to year 
since the 1970s. By 2003, Dr. Michael Forstner of Texas State 
University estimated the number of Houston toads in Bastrop County to 
be between 100 and 200 individuals. The 2011 Houston toad breeding/
survey season ended May 2011 with only six Houston toads detected in 
Bastrop State Park, two Houston toads detected on the Griffith League 
Ranch in Bastrop County, one Houston toad detected south of the Texas 
State Highway 290 corridor in Bastrop County, one Houston toad detected 
in Austin County, one Houston toad detected in Lavaca County, and one 
Houston toad detected on Cade Lakes in Burleson County (USFWS 2011c). 
No reproductive events were observed during the 2011 breeding season, 
despite extensive survey attempts (Forstner and Dixon 2011).
    Prior to the Bastrop County Complex Fire, the Houston toad range in 
Bastrop County was in poor condition as a result of what is speculated 
to be the worst 1-year drought on recorded history for this area (LPRT 
2011). Approximately 41 percent of the high suitability habitat for the 
Houston toad within Bastrop County was moderately to heavily burned 
(Forstner et al. 2011). Though the toad may have adapted strategies to 
survive wildfire events, the extent of the impact of the Bastrop County 
Complex Fire on toad survival and population numbers is not yet known. 
FEMA is currently working with Dr. Forstner and is being advised of 
toad emergence and activity through his monitoring efforts throughout 
Bastrop County.
AVOIDANCE AND MINIMIZATION MEASURES
    The following avoidance and minimization measures will be 
implemented within the burn area for the FEMA-funded activities 
described above in order to minimize impact to the toad. These measures 
have been adapted from the USFWS BMPs (2011a, 2011b); the Lost Pines 
Habitat Conservation Plan (LPHCP; 2007) and the Bastrop Utilities 
Habitat Conservation Plan (2005); and discussions at the January 10, 
2012 meeting discussed above; and subsequent phone calls and meetings 
with the USFWS on-site in Bastrop. Implementation of these measures 
will be a condition of federal funding.
Individual Assistance Projects

    <bullet> For any removal of temporary housing units from the date 
            of this consultation and through the end of breeding 
            season, June 1, 2012, FEMA will deploy a Houston toad 
            monitor that is a qualified biologist and that will be 
            permitted in identifying, locating, handling, removing, and 
            transporting the Houston toad. Monitors will work in 
            accordance with the attached Houston Toad Monitoring Plan. 
            Should a toad be encountered during removal of a unit, work 
            must cease immediately, the biological monitor will secure 
            and relocate the toad; and the U.S. Fish and Wildlife 
            Service's Clear Lake Ecological Services Office will be 
            contacted at (281) 286-8282.

Public Assistance Projects

    <bullet> FEMA will deliver an introductory training course on 
            Houston toad life cycle and habitat requirements for FEMA 
            staff, the applicants, and key personnel of the debris 
            removal work crews. Estimated delivery of this training is 
            the week of January 30, 2012, with additional sessions to 
            follow as necessary.

    <bullet> For work conducted from the date of this consultation and 
            through the end of breeding season, June 1, 2012, FEMA will 
            deploy a team of Houston toad monitors that are qualified 
            biologists and that will collectively be permitted in 
            identifying, locating, handling, removing, and transporting 
            the Houston toad. Monitors must work in accordance with the 
            attached Houston Toad Monitoring Plan. Should a toad be 
            encountered during debris activities, work must cease 
            immediately, the biological monitor will secure and 
            relocate the toad; and the U.S. Fish and Wildlife Service's 
            Clear Lake Ecological Services Office will be contacted at 
            (281) 286-8282.

    <bullet> For PPDR, cut trees must be removed from the site in this 
            order of priority:

      --  Cut trees will be loaded and hauled away at the end of the 
            work day and no logs will be left behind;

      --  Cut trees will be stacked on hard surfaces (concrete/caliche 
            driveways or structural foundations);

      --  Cut trees will be kept off natural ground via staging on 
            horizontal support structures to minimize the creation of 
            artificial toad habitat. If other logs are used to serve as 
            horizontal supports, a toad monitor must inspect the logs 
            that are in contact with the ground for the presence of 
            toads before those logs can be removed.

    <bullet> To minimize the creation of toad habitat in non-desirable 
            locations such as rights-of way (ROW), every effort will be 
            made to remove debris piles within 48 hours of the debris 
            being deposited.

    <bullet> Debris piles will be, to the greatest extent possible, 
            either hand loaded and/or grapple hook loaded.

    <bullet> Any mulch, chips, or other woody debris from tree removal 
            that is left on site must cover the forest floor in no more 
            than a 1 to 2-inch layer.

    <bullet> Soil disturbance, clearing, and operation of heavy 
            equipment (for example, tractors, large trucks, bulldozers, 
            skidders) will not occur within a 200-foot distance from 
            potential Houston toad breeding sites and riparian areas at 
            any time of year. These may include ephemeral wet weather 
            ponds and other water features, such as stock tanks, 
            creeks, streams, drainages, wetlands, seeps, and springs.

    <bullet> For trees that pose an immediate safety threat and that 
            occur within 200 feet of a potential Houston toad breeding 
            site (ponds, stock tanks, creeks, streams, wetlands, seeps, 
            and springs that are within or immediately adjacent to a 
            forested area) or riparian area, tree removal activities 
            must be conducted in consultation with a qualified Houston 
            toad monitor and removal activities cannot begin until that 
            monitor is on site. Trees must be hand cut.

    <bullet> Hand cutting can occur within a 200-foot radius of a 
            potential Houston toad breeding site between July 1 and 
            December 31 (outside of the Houston toad breeding season 
            and emergence period) without a Houston toad monitor.

    <bullet> The number and size of entry and exit points for heavy 
            equipment to move into and out of forested areas will be 
            kept to the minimum needed for conducting safe and 
            effective tree and debris removal operations, while also 
            minimizing soil disturbance.

    <bullet> Streams, riparian zones, wetlands, and areas near 
            potential Houston toad breeding sites will not be used for 
            staging equipment or refueling. Equipment must be stored, 
            serviced, and fueled at least 200 feet away from these 
            sensitive areas.

    <bullet> Gasoline- and diesel-fueled field equipment must be 
            inspected daily for signs of fuel or hydraulic leaks; such 
            leaks must be repaired promptly and measures will be taken 
            to prevent soil contamination. All hazardous materials 
            related to construction or maintenance activities will be 
            properly contained, used, and/or disposed of.

    <bullet> Clearing for all utility lines and other structures will 
            be limited to the minimum amount that allows for the safe 
            completion of a particular project. Hand-clearing of 
            vegetation will be used when practical. The use of track 
            equipment for clearing will be minimized.

    <bullet> Following debris removal activities, the applicants will 
            ensure that equipment used on undisturbed ground has not 
            resulted in potential artificial breeding sites. For 
            example, large tire ruts will be smoothed so as not to 
            create an undesirable breeding pond along a ROW.

    In addition to being subject to the conditions above, some 
activities, such as those on participating private property sites or 
within the Bluebonnet Electric Cooperative permitted area, must also 
comply with habitat conservation plans (HCPs) that are already in 
place, including the Lost Pines Habitat Conservation Plan (LPHCP; 2007) 
and the Bastrop Utilities Habitat Conservation Plan (2005). While some 
of the PPDR work will occur on property/landowners enrolled in the 
county's LPHCP which are covered for incidental take; others are not 
enrolled. For instance, under their HCP, which covers routine repair, 
emergency repair, and maintenance of aboveground distribution lines 
within the permitted area, Bluebonnet distributes a Houston toad 
information brochure to contractors and landowners that are involved in 
maintenance work.
DETERMINATION
    Toad emergence and breeding is triggered, in part, by rainfall and 
warm nighttime temperatures. FEMA is communicating regularly with Dr. 
Forstner at Texas State University to remain informed of his team's 
monitoring efforts in toad habitat. FEMA is working under the 
assumption that weather conditions conducive for toad emergence and 
breeding could materialize any day now, and the toad could begin 
emerging and breeding very soon.
    Upon emergence, there is potential for adult toads to be present 
among debris piles that are being removed on ROWs and private property. 
Temporary debris piles, especially brush and vegetative debris, may 
provide ``artificial'' habitat for the toad. It is less likely that the 
toad would shelter within larger construction and demolition debris. 
There is also potential for toads to seek shelter under temporary 
housing units that have been installed at residential lots given that 
the forested habitat no longer provides adequate shade or cover for the 
toad after the fire. In addition, some tree removal and trimming 
activities may reduce the already compromised overstory that provides 
shaded habitat for the local migration of the toad. However, tree 
removal and trimming activities being funded by FEMA are restricted to 
dead or severely damaged trees that pose a threat to human safety. The 
use of debris removal equipment on undisturbed ground may create 
unsuitable and artificial habitat for the toad by creating ponding 
areas. Measures are being taken to minimize the work that is conducted 
immediately adjacent to breeding areas (ephemeral wet-weather ponds, 
creeks, streams, wetlands, seeps, and springs) during chorusing season.
    Based on a review of the Houston toad and its habitat requirements; 
the assumption that adult toad population numbers are likely low in the 
project area based on recent past population surveys and uncertainty 
about survivorship following the fire; the emergency nature of the work 
to be conducted; the duration and location of work; the implementation 
of required avoidance and minimization measures, including extensive 
monitoring by qualified biologists; the additional implementation of 
various conservation measures under applicable HCPs; and meetings and 
conversations with USFWS staff and Houston toad specialists, FEMA has 
determined that the federally funded work described above may affect, 
but is not likely to adversely affect the Houston toad in Bastrop 
County.
    Furthermore, FEMA contends that the ``no action'' alternative of 
leaving the debris along roadsides may result in an adverse effect to 
the toad by providing undesirable habitat and encouraging toads to 
occupy high risk areas along roadways. Creating habitat in these areas 
might contribute to direct mortality due to roadway traffic (USFWS 
2011c).
    FEMA requests your concurrence with this effect determination and 
input on any additional conservation measures required to ensure 
accuracy of this determination. Thank you for your attention and 
assistance. Should you have any questions, please contact FEMA 
Environmental Specialist, Dorothy Weir at <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="60240f120f1408194e370509122006050d014e">[email&#160;protected]</a> dhs.gov or 
at 940-435-9275.

            Sincerely,

                                         Kevin Jaynes, CHMM
                             Regional Environmental Officer
                                              FEMA Region 6

Attachment: Houston Toad Monitoring Plan

                                  ****

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                    	Houston Toad Monitoring Plan
                                  for
        Activities Covered in FEMA Letter Dated January 27, 2012
                 Bastrop County, Texas, FEMA-DR-4029-TX
                        (Revised March 15, 2012)

Monitor Qualifications: Monitors will hold a 10(a)(1a) permit. 
Individually, they must be able to locate and identify wild Houston 
toads. Collectively they must be able to handle, remove, and transport 
wild Houston toads and be federally permitted and permitted within the 
State of Texas to do so. The monitors will be prepared to initiate 
monitoring activities immediately and will be appropriately equipped to 
conduct the activities described above. As of March 15, 2012, fourteen 
toad monitors are rotating daily to fulfill the need to have six 
monitors in the field in Bastrop on any given day. Two of the monitors 
hold permits to locate and identify wild Houston toads. Twelve of the 
monitors are permitted to handle, remove, and transport wild Houston 
toads.

Monitor Hierarchy: Houston toad monitors will be directed by FEMA Task 
Monitor, Dorothy Weir. Lead monitors, in order of authority, are Mike 
Forstner, James Dixon, Jake Jackson, and Jim Bell. The lead monitors 
hold permits that allow them to handle and relocate the toad. These 
monitors will have supervisory authority over the other monitors 
regarding decisions in the field.

Number of Monitors: Fourteen toad monitors will be working on a 
rotational basis in Bastrop County on FEMA-related operations. FEMA has 
the capacity to fund six toad monitors on any given day. On average, 
two toad monitors will work with Bluebonnet Electric Cooperative and 
four monitors will be assigned to Bastrop County to assist in debris 
removal along rights-of-way (ROW) and on private property. These 
monitors will also be tasked as needed to oversee removal of temporary 
housing units and to assist with site visits to proposed FEMA permanent 
work projects within critical habitat in Bastrop County. At this time, 
debris removal work in Bastrop State Park is complete or near 
completion and Greg Creacy has been monitoring per the February 1, 2012 
consultation as approved by USFWS. The number of FEMA-funded monitors 
working in the field on a given day can be increased or decreased 
pending recovery effort success and speed of completion. FEMA will 
coordinate additional individual monitors and their qualifications 
through the USFWS Clear Lake Ecological Services Field Office.

Work Hours: Monitors will work when the debris crews are working, which 
is dependent on weather conditions and availability of personnel and 
equipment. At this time, Bastrop County debris operations run 6 days a 
week. At this time, Bluebonnet operations run 7 days a week. Work is 
only conducted during daylight hours, which averages about 10-12 hours 
a day. Precise scheduling will be contingent on field activities. Daily 
work assignments will be coordinated with FEMA Public Assistance and 
Environmental staff, the applicants, and their contractors.

Work Duration: Monitors will work through breeding season until FEMA 
operations included in the January 27, 2012, consultation letter are 
completed, or until such time in the year that FEMA is able to make a 
``no effect'' determination for debris removal activities. Monitors 
began work in the field on February 2, 2012, when there was an initial 
indication of toads chorusing in the wild. The period of performance 
for monitoring can be shortened and/or extended depending on duration 
of FEMA operations.

Work Plan and Prioritization: Monitors will be engaged with work being 
done by Bastrop County (debris removal along rights-of-way (ROWs) and 
on private property); Bluebonnet Electric Cooperative (debris removal 
along utility ROWs and tree removal at private property); Texas Parks 
and Wildlife Department (debris removal along ROWs within Bastrop State 
Park); and by FEMA's Individual Assistance Program for the removal of 
individual temporary housing units at residential sites. Work schedules 
for the biological monitors will be based on daily situational input 
from FEMA staff and work crews. Applicant implementation of the 
avoidance and minimization measures in the February 1, 2012, 
consultation letter, including adherence to this Houston Toad 
Monitoring Plan, is a condition of federal funding. Monitors will 
accompany work crews according to the following list of prioritized 
FEMA activities:

    <bullet> Private Property Debris Removal (PPDR): Debris crews will 
            initially focus PPDR efforts in neighborhoods with higher 
            toad probability. In particular, areas north of Highway 21 
            in the Circle D-KC Estates will be worked as soon as 
            possible. Areas to the south and east of Bastrop State Park 
            will be the secondary focus area. Areas to the south of 
            Highway 71 are a third priority and Tahitian Village is the 
            last priority. Toad monitors can advise, assist, and 
            provide oversight regarding the prioritization of work 
            based on their expertise on known toad locations.

      PPDR sites that are ready to cut have been assigned a monitoring 
            level of effort of easy, medium, or hard, which enables the 
            County to schedule cut sites appropriately. PPDR crews work 
            5 properties per day on average. Each morning, the Houston 
            toad monitor will arrive at their assigned PPDR site and 
            conduct monitoring for toads and potential toad habitat 
            based on the cut plan for that site, which is determined by 
            the County's contractor. The toad monitors are available to 
            provide guidance to the County on how best to implement 
            conditions that are specific to toad habitat. If no habitat 
            is present, PPDR is cleared to commence and must commence 
            that day or the following day, or the clearance becomes 
            null.

            <SUP><all></SUP>  If potential toad habitat is discovered 
        at the site, the toad monitor will inspect the debris for 
        toads.

                  --  If no toads are identified in the potential 
                habitat on the site, including any small amount of 
                building rubble that may need to be removed to allow 
                the entrance of equipment, work can proceed in line 
                with the conditions in the consultation letter. If 
                ground contact debris that creates toad sheltering 
                habitat is left overnight at the PPDR site, the site 
                clearance becomes null and the site has to be monitored 
                for toad presence again before work commences.

                  --  If a toad is located, if permitted to do so, the 
                monitor will secure and relocate the toad according to 
                protocols associated with their permit. If the monitor 
                is only permitted for survey, they will call another 
                FEMA assigned monitor that is permitted for handling 
                and relocation of the Houston toad, and that monitor 
                will come to the site immediately to secure and 
                relocate the toad. The U.S. Fish and Wildlife Service's 
                Clear Lake Ecological Services Field Office will be 
                contacted at (281) 286-8282. If ground contact debris 
                that creates toad sheltering habitat is left overnight 
                at the PPDR site, the site clearance becomes null and 
                the site has to be monitored for toad presence again 
                before work commences.

      For trees that pose an immediate safety threat and that occur 
            within 200 feet of a potential Houston toad breeding site 
            (field-verified ponds, stock tanks, creeks, streams, 
            wetlands, seeps, and springs that are within or immediately 
            adjacent to a forested area) or riparian area, tree removal 
            activities must be conducted in consultation with a 
            qualified Houston toad monitor and removal activities 
            cannot begin until that monitor is on site. Potential 
            breeding sites are likely to increase following periods of 
            heavy rains. Therefore debris crews should remain aware 
            that tree removal cannot begin within 200 feet of a 
            potential breeding site until a toad monitor is on site and 
            has evaluated and cleared the project area. Lead monitors 
            will assist in the identification of potential Houston toad 
            breeding sites and prioritization of tree removal in 
            proximity to potential Houston toad breeding sites.

      Removal of Debris and Hazardous Trees Along Rights of Way: For 
            Bastrop County, much of this work has been completed and 
            work will be sporadic. As required, the Bastrop County toad 
            monitors will survey any ROW debris and will assist with 
            and provide oversight regarding prioritization of its 
            removal. The debris contractor will alert the toad monitors 
            to the location of ROW debris. The toad monitor will 
            evaluate and pre-clear debris removal work in certain areas 
            or pre-clear the removal of specific debris piles based on 
            their knowledge of toad habitat and toad activity 
            throughout the burn area. Once pre-clearance has been 
            completed, debris work can continue without the presence of 
            toad monitor during the removal operation, provided that 
            the monitor determines the site is clear and that debris 
            pickup occurs during the same work day. If the site is 
            examined by a monitor and the debris cannot be removed 
            until the following day, the inspection process must be 
            reinitiated.

      FEMA-funded removal of debris on the ground within Bluebonnet 
            ROWs is estimated to be complete by March 31, 2012. The 
            toad monitor assigned to Bluebonnet will determine which 
            areas of Bluebonnet's remaining ROW debris areas are 
            located in higher probability toad areas. Bluebonnet will 
            work to remove debris in those areas as soon as possible. 
            The toad monitor will evaluate and pre-clear debris removal 
            work in certain areas or pre-clear the removal of specific 
            debris piles based on their knowledge of toad habitat and 
            toad activity throughout the burn area. Once pre-clearance 
            has been completed, debris work can continue without the 
            presence of toad monitor during the removal operation, 
            provided that the monitor determines the site is clear and 
            that debris pickup occurs during the same work day. If the 
            site is examined by a monitor and the debris cannot be 
            removed until the following day, the inspection process 
            must be reinitiated. Bluebonnet is continuing to receive 
            customer requests to cut and remove hazardous trees along 
            power lines at private property sites. These requests are 
            likely to continue through the summer of 2012. Toad 
            monitors are accompanying Bluebonnet cut crews to these 
            sites to monitor for toad presence and potential habitat 
            through the duration of the existing consultation.

      Hazardous tree removal along ROWs in Bastrop State Park is 
            estimated for completion by early March 2012. The Texas 
            Parks and Wildlife Department (TPWD) has prioritized work 
            such that they are moving away from known toad habitats. 
            Therefore, the remaining tree removal work is likely to be 
            in areas of the park that are uninhabited by the toad and 
            where toads have not been documented in the last 6 years. 
            FEMA toad monitors will periodically confer with TPWD to 
            observe operations and review future work sites. FEMA 
            monitors will become involved at particular cutting sites 
            if they determine it is necessary based on known toad 
            locations within the park. The FEMA monitoring effort will 
            complement real-time monitoring that is already being 
            conducted by TPWD biologists.

      For all applicants, for trees or debris that pose an immediate 
            safety threat and that occur within 200 feet of a potential 
            Houston toad breeding site (field-verified ponds, stock 
            tanks, creeks, streams, wetlands, seeps, and springs that 
            are within or immediately adjacent to a forested area) or 
            riparian area, tree and debris removal activities must be 
            conducted in consultation with a qualified Houston toad 
            monitor and removal activities cannot begin until that 
            monitor is on site. Potential breeding sites are likely to 
            increase following periods of heavy rains. Therefore debris 
            crews should remain aware that tree removal cannot begin 
            within 200 feet of a potential breeding site until a toad 
            monitor is on site and has evaluated and cleared the 
            project area. Lead monitors will assist in the 
            identification of potential Houston toad breeding sites and 
            prioritization of tree removal in proximity to potential 
            Houston toad breeding sites.

      Removal of Temporary Housing Units: FEMA's Environmental Planning 
            and Historic Preservation (EHP) section will be alerted 
            several days prior to the scheduled removal of any 
            temporary housing unit and will schedule a toad monitor, 
            permitted to handle, remove, and transport the Houston 
            toad, to inspect the site for toad habitat or toad activity 
            immediately prior to and during removal. For any removal of 
            temporary housing units from the date of this consultation 
            and through the end of breeding, emergence, and dispersal 
            season, August 31, 2012, FEMA will deploy a Houston toad 
            monitor that is a qualified biologist and that will be 
            permitted in identifying, locating, handling, removing, and 
            transporting the Houston toad. Should a toad be encountered 
            during removal of a unit, work must cease immediately, the 
            biological monitor will secure and relocate the toad, and 
            the U.S. Fish and Wildlife Service's Clear Lake Ecological 
            Services Field Office will be contacted at (281) 286-8282.

Documentation: Monitors will be equipped with GPS units so that if they 
encounter a toad, they can record its exact location. Monitors will 
handle and relocate toads in accordance with their 10(a)(1a) permits. 
Should a toad be encountered during work, Jeff Hill or Edith Erfling of 
the U.S. Fish and Wildlife Service's Clear Lake Ecological Services 
Field Office will be contacted at (281) 286-8282, at extensions x241 
and x228 respectively.

                                  ****

                              ATTACHMENT 3
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                               February 1, 2012

Mr. Kevin Jaynes
U.S. Department of Homeland Security
FEMA Region 6
800 North Loop 288
Denton, Texas 76209-3698

    Dear Mr. Jaynes:

    Thank you for your letter dated January 27, 2012, continuing 
consultation pursuant to Section 7 of the Endangered Species Act for 
FEMA's recovery operations related to the Bastrop County Complex Fire. 
Our consultation regarding these activities commenced on January 18, 
2012 with FEMA's initial consultation request. Earlier consultation 
activities were described in FEMA letters dated November 7, 2011 and 
December 13, 2011 and related to other aspects of FEMA's recovery 
actions in Bastrop and surrounding counties as part of the major 
disaster declaration FEMA-4029-DR-TX. The recovery operations 
considered herein occur within Bastrop County, Texas.
    Based on the scope of the January 27, 2012 request, the project 
includes removal of debris (as defined therein) from public rights-of-
way and qualifying private property, based upon an assessment of risk 
to life and property, and the removal of temporary housing units within 
the fire-impacted area. Based on your January 27, 2012 letter, FEMA 
determined that the recovery operations may affect, but are not likely 
to adversely affect the federally endangered Houston toad Bufo 
houstonenesis.
    As stated above, FEMA has determined that the proposed project may 
affect, but is not likely to adversely affect the Houston toad. This 
determination is based on the following information:

  1.  For any removal of temporary housing units from the date of this 
            consultation and through the end of breeding season, June 
            1, 2012, FEMA will deploy a Houston toad monitor that is a 
            qualified biologist and that will be permitted in 
            identifying, locating, handling, removing, and transporting 
            the Houston toad. Monitors will work in accordance with the 
            attached Houston Toad Monitoring Plan. Should a toad be 
            encountered during removal of a unit, work must cease 
            immediately, the biological monitor will secure and 
            relocate the toad and the U.S. Fish and Wildlife Service's 
            Clear Lake Ecological Services Office will be contacted at 
            (281) 286-8282.

  2.  FEMA will deliver an introductory training course on Houston toad 
            life cycle and habitat requirements for FEMA staff, the 
            applicants, and key personnel of the debris removal work 
            crews. Estimated delivery of this training is the week of 
            January 30, 2012.

  3.  For work conducted from the date of this consultation and through 
            the end of breeding season, June 1, 2012, FEMA will deploy 
            a team of Houston toad monitors that are qualified 
            biologists and that will collectively be permitted in 
            identifying, locating, handling, removing, and transporting 
            the Houston toad. Monitors must work in accordance with the 
            attached Houston Toad Monitoring Plan. Should a toad be 
            encountered during debris activities, work must cease 
            immediately, the biological monitor will secure and 
            relocate the toad and the U.S. Fish and Wildlife Service's 
            Clear Lake Ecological Services Office will be contacted at 
            (281) 286-8282.

  4.  For Private Property Debris Removal (PPDR), cut trees must be 
            removed from the site in this order of priority:

      <bullet>  Cut trees will be loaded and hauled away at the end of 
            the work day and no logs will be left behind;

      <bullet>  Cut trees will be stacked on hard surfaces (concrete/
            caliche driveways or structural foundations);

      <bullet>  Cut trees will be kept off natural ground via staging 
            on horizontal support structures to minimize the creation 
            of artificial toad habitat. If other logs are used to serve 
            as horizontal supports, a toad monitor must inspect the 
            logs that are in contact with the ground for the presence 
            of toads before those logs can be removed,

  5.  To minimize the creation of toad habitat in non-desirable 
            locations such as rights-of-way (ROW), every effort will be 
            made to remove debris piles within 48 hours of the debris 
            being deposited.

  6.  Debris piles will be, to the greatest extent possible, either 
            hand loaded and/or grapple hook loaded.

  7.  Any mulch, chips, or other woody debris from tree removal that is 
            left on site must cover the forest floor in no more than a 
            1 to 2-inch layer.

  8.  Soil disturbance, clearing, and operation of heavy equipment (for 
            example, tractors, large trucks, bulldozers, skidders) will 
            not occur within a 200-foot distance from potential Houston 
            toad breeding sites and riparian areas at any time of year. 
            These may include ephemeral wet weather ponds and other 
            water features, such as stock tanks, creeks, streams, 
            drainages, wetlands, seeps, and springs.

  9.  For trees that pose an immediate safety threat and that occur 
            within 200 feet of a potential Houston toad breeding site 
            (ponds, stock tanks, creeks, streams, wetlands, seeps, and 
            springs that are within or immediately adjacent to a 
            forested area) or riparian area, tree removal activities 
            must be conducted in consultation with a qualified Houston 
            toad monitor and removal activities cannot begin until that 
            monitor is on site. Trees must be hand cut.

  10.  Hand cutting can occur within a 200-foot radius of a potential 
            Houston toad breeding site between July 1 and December 31 
            (outside of the Houston toad breeding season and emergence 
            period) without a Houston toad monitor.

  11.  The number and size of entry and exit points for heavy equipment 
            to move into and out of forested areas will be kept to the 
            minimum needed for conducting safe and effective tree and 
            debris removal operations, while also minimizing soil 
            disturbance.

  12.  Streams, riparian zones, wetlands, and areas near potential 
            Houston toad breeding sites will not be used for staging 
            equipment or refueling. Equipment must be stored, serviced, 
            and fueled at least 200 feet away from these sensitive 
            areas.

  13.  Gasoline- and diesel-fueled field equipment must be inspected 
            daily for signs of fuel or hydraulic leaks; such leaks must 
            be repaired promptly and measures will be taken to prevent 
            soil contamination. All hazardous materials related to 
            construction or maintenance activities will be properly 
            contained, used, and/or disposed of.

  14.  Clearing for all utility lines and other structures will be 
            limited to the minimum amount that allows for the safe 
            completion of a particular project. Hand-clearing of 
            vegetation will be used when practical. The use of track 
            equipment for clearing will be minimized.

  15.  Following debris removal activities, the applicants will ensure 
            that equipment used on undisturbed ground has not resulted 
            in potential artificial breeding sites. For example, large 
            tire ruts will be smoothed so as not to create an 
            undesirable breeding pond along a ROW.
  16.  The consultation is limited spatially to Bastrop County and 
            temporally as described in the FEMA consultation request 
            dated January 27, 2012.

  17.  Tree stump grinding will be conducted only if determined by FEMA 
            to be a safety concern and under no circumstances will 
            stumps be removed mechanically (i.e., excavated or pushed).

  18.  All PPDR and ROW debris will be taken to one of the five 
            previously approved debris sites or will be recycled.

    Based on the aforementioned information, the U.S. Fish and Wildlife 
Service (Service) concurs that the debris cleanup operations and 
temporary housing removal activities as described in the January 27, 
2012 consultation letter are not likely to adversely affect the Houston 
toad. This concurrence is based upon a review of the Service's files, 
our site inspection on January 25, 2012, communications with Dr. 
Michael Forstner at Texas State University and others, and is 
contingent upon the implementation of the avoidance and minimization 
measures. In the event the project changes or additional information on 
listed or proposed species becomes available, the project should be 
reanalyzed for effects not previously considered.

    Our comments are provided in accordance with the provisions of the 
Endangered Species Act of 1973 (16 U.S.C. 1531 et seq.). If you have 
any questions, or need additional information, please contact Staff 
Biologist Mr. Jeff Hill or myself at 281/286-8282.

            Sincerely,

                                             Edith Erfling,
                                           Field Supervisor

                              ATTACHMENT 4
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


                                 _________
                                 

Questions Submitted for the Record by Chairman Gohmert to the Honorable 
         Clara Beckett, Bastrop County Commissioner, Precinct 2
The Honorable Clara Beckett did not submit responses to the Committee 
by the appropriate deadline for inclusion in the printed record.

    Question 1. Would you describe some of the restrictions you faced 
in potential toad habitat? You said you had to have special toad 
monitors, but what other modifications were made to your recovery 
projects?

    Question 2. What were the costs you had to absorb that you hadn't 
anticipated as a result of the toad requirements?

    Question 3. Was there anything discussed during the hearing that 
you felt you were not given ample time to elaborate on or properly 
address?

                                 __________
                                 

    Mr. Gohmert. Thank you. Thank you very much.
    At this time we will hear from Ms. Oreskes. Thank you. You 
are recognized for 5 minutes.

 STATEMENT OF PROFESSOR NAOMI ORESKES, Ph.D., PROFESSOR OF THE 
HISTORY OF SCIENCE AND DIRECTOR OF GRADUATE STUDIES, DEPARTMENT 
   OF THE HISTORY OF SCIENCE, HARVARD UNIVERSITY, CAMBRIDGE, 
                         MASSACHUSETTS

    Dr. Oreskes. Thank you. Thank you for the opportunity to be 
with you here today and to share my insights gleaned from three 
decades as a professional historian studying science in 
America.
    Witnesses here are trying to cast doubt on environmental 
science, arguing that it is politically driven and we should 
not be using it to make important decisions. I would like to 
challenge the presumption that politically driven science is 
bad science, because that presumption is demonstrably false.
    History shows that some of the best science in the history 
of this country was driven by goals that were explicitly 
political. Consider the Manhattan Project. Scientists during 
World War II gathered and mobilized to determine the details of 
fission reactions, of isotope separation, and many more matters 
for the purpose of building an atomic bomb. The political goal 
of stopping Adolf Hitler and the sense that the future of this 
Nation, and perhaps the entire free world, might rest on their 
success was a powerful motivation for scientists to get the 
science right.
    The Apollo program put men on the Moon and brought them 
safely home again, and in doing so expanded our horizons and 
our understanding of the universe in which we live. But it was 
created in no small part to demonstrate the superiority of 
American democracy and democratic capitalism over Soviet 
communism.
    Plate tectonics is the unifying theory of modern earth 
science. It emerged from oceanographic work sponsored by the 
U.S. Navy as part of its program in underwater warfare and from 
seismological research developed to differentiate earthquakes 
from nuclear bomb explosions. These were military and political 
goals, part of the cold war commitment to containing communism, 
but they led to research that provided fundamental 
understanding of planetary processes. And the recent tragedy in 
Nepal shows us how important that is.
    But what about environmental science? In the 1970s, two 
scientists at the University of California, Irvine, Sherwood 
Rowland and Mario Molina, realized that a certain class of 
chemicals known as chlorinated fluorocarbons, or CFCs, found in 
hairspray and other products, had the potential to destroy 
ozone on a global scale.
    At first their predictions were viewed skeptically, even by 
their colleagues. Could hairspray really lead to the end of 
life on Earth? That seemed a pretty bold claim. But in 1985, 
Joseph Farman of the British Antarctic Survey announced the 
discovery of the ozone hole. In 1986, a team led by a NOAA 
atmospheric scientist, Susan Solomon, confirmed that finding.
    In 1987, Harvard Professor James Anderson put an experiment 
on a NASA U-2 spy plane that flew over Antarctica, establishing 
through direct measurement that ozone had been massively 
depleted and that the depletions correlated in time and space 
with chlorine compounds derived from CFCs. If anyone is 
interested, I can explain the science to you. It is one of the 
most beautiful pieces of science of the 20th century, but we do 
not have time right now.
    On the basis of this work, President George H.W. Bush's 
Secretary of State George Schultz and Assistant Secretary of 
State John Negroponte lent their support to the Montreal 
Protocol, committing the world to reducing use of CFCs, the 
chemicals that these scientists had shown had created the ozone 
hole. In 1985, this body, Congress, ratified the protocol, and 
in 1995, Molina and Rowland won the Nobel Prize.
    Few people realize how much the Montreal Protocol has 
protected us and at how little cost. Were it not for the 
actions taken under the Protocol, skin cancer rates in America 
would be about 60 percent higher than they are today. Livestock 
and crops would be affected, too, so our economy was protected 
as well.
    Now, I would like to underscore two things about this 
history. First, this was government science. This science, 
which protected us from real harm, was almost all done by 
scientists and agencies like NASA and NOAA or funded by those 
agencies.
    Second, it was attacked at the time as corrupt and 
politically motivated. In 1995, Representative Dana Rohrabacher 
organized a hearing distressingly similar to the one in which 
we are participating today. Ostensibly focused on scientific 
integrity, its real purpose was to discredit not just ozone 
science but environmental science in general.
    Ozone science is now history, but climate science is very 
much alive. Like ozone science, climate science is being 
attacked, and not only in the same way but by the same people. 
Indeed, many of those attacking science today previously 
attacked the science that demonstrated the harms of tobacco 
use. Today, we know that millions of people have died from 
preventable, tobacco-related diseases. Do we really have to 
wait for people to die before we accept the evidence of climate 
change?
    Thank you.
    [The prepared statement of Dr. Oreskes follows:]
   Prepared Statement of Naomi Oreskes, Professor of the History of 
Science, Affiliated Professor of Earth and Planetary Sciences, Harvard 
                               University
    Thank you for the opportunity to be here with you today.\1\
---------------------------------------------------------------------------
    \1\ Unless otherwise noted, the materials presented here are drawn 
from Naomi Oreskes and Erik M. Conway, Merchants of Doubt: How a 
Handful of Scientists Obscured the Truth on Issues from Tobacco Smoke 
to Global Warming (Bloomsbury, 2010). On the details of NASA research 
on ozone, see also Erik M. Conway, Atmospheric Science at NASA: A 
History (The Johns Hopkins University Press, 2008).
---------------------------------------------------------------------------
    Our topic here today is politically driven science. I speak here as 
a historian who has spent the bulk of my professional life studying 
science, and I am interested in particular in the conditions that 
foster good science, and the conditions that undermine it. I have done 
research on the history of geology, geophysics and oceanography, 
focusing on American science in the 20th and 21st century. I have also 
studied environmental science, including studies of pesticides, 
endocrine-disrupting chemicals, acid rain, the ozone hole, and man-made 
climate change.
    Witnesses here today are trying to cast doubt on environmental 
science, arguing that is politically driven, and we should not be using 
it to make important decisions.
    As a guest of the democratic minority, I might be expected to 
attempt to refute the premise and argue that the science under 
consideration is not politically driven.
    What I want to do is slightly different. I want to challenge the 
presumption that politically driven science is bad science. That 
presumption--while widely held--is demonstrably false.
A great deal of science is politically driven
    History shows that a much--maybe most--science is driven by 
political, economic, or social goals. Some of the best and most famous 
science in the history of our country was driven by goals that were 
explicitly political.
    Consider the Manhattan Project. Scientists during World War II 
gathered and mobilized to determine the details of fission reactions, 
of isotope separation, of high-temperature and high-pressure metallurgy 
and many more matters, for the purpose of building an atomic bomb. The 
political goal of stopping Adolf Hitler--and the sense that the future 
of the United States, and perhaps the entire free world, might depend 
on their success--provided a powerful motivation for scientists to get 
the science right.
    Another example is the space program. The United States first 
developed rocketry to be able to deliver ballistic missiles, carrying 
nuclear warheads, to the Soviet Union. The political goal of containing 
Communism was a power motivation for scientists. In later years, the 
goal of maintaining peace through the doctrine of Mutual Assured 
Destruction further motivated our scientists to ensure that our weapons 
worked, and would go where they were sent.\2\
---------------------------------------------------------------------------
    \2\ Hugh Gusterson, Nuclear Rites: A Weapons Laboratory at the End 
of the Cold War (University of California Press, 1998).
---------------------------------------------------------------------------
    In the Apollo program, NASA scientists knew that getting the 
science right would make the difference between astronauts getting to 
the Moon or not, and more important, getting home. Knowing that the 
lives may depend on your calculations is a powerful form of 
accountability.
    Some might argue that these were not scientific projects but 
technological ones, but this is not a meaningful distinction. These 
various projects led to the construction of new and significant 
technologies, but they all also required--indeed were founded upon--
newly developed science. Moreover, we can find examples that are not 
technological at all, yet still show us how politics can drive good 
science.
    Plate tectonics is the unifying theory of modern earth science, and 
it too was a product of political goals. The key work that led to this 
theory came from oceanography and seismology. The oceanography was done 
as part of the U.S. Navy's programs in underwater warfare to use 
science to detect Soviet submarines, and to safely hide our own. The 
seismology emerged largely from efforts to differentiate earthquakes 
from nuclear bomb tests.
    These were military and political goals--part of the cold war 
commitment to contain Communism--but they led to research that provided 
the fundamental understanding of planetary processes; understanding 
that, not incidentally, forms the basis for oil and gas exploration, 
for mining and mineral exploration, and for predicting and protecting 
against seismic hazard.
    Nearly all of this work was done by government scientists. It was 
done either by scientists working directly for the U.S. Government, for 
example at the U.S. Naval Research Laboratory or U.S. Geological 
Survey, or by scientists in universities and research institutions like 
the University of California, Columbia University, and the Woods Hole 
Oceanographic Institution, with funds that were supplied almost 
entirely by the U.S. Government.

    The Manhattan project was government science.

    The Apollo program was government science.

    Plate tectonics was government science.

    Virtually every major development in the physical sciences in 
America in the second half of the 20th century was government science--
either done by scientists in government agencies and national 
laboratories, or by academics primarily funded by the Federal 
Government. The academic scientists, if they were at public 
universities, like the University of California, had their salaries 
paid by their states, so in some sense they were government scientists, 
too.

    Is environmental science any different?
The history of ozone science
    Consider the men and women who laid the scientific foundations for 
the Montreal Protocol to the Vienna Convention for the Protection of 
the Ozone Layer.\3\ The Vienna Convention, established in 1985, 
protects us from the potentially devastating effects of ozone 
depletion. Today, the ozone hole is recovering, and scientists expect 
it to recover fully in the coming decades.\4\ This recovery would not 
have happened without the work of environmental scientists.
---------------------------------------------------------------------------
    \3\ http://ozone.unep.org/new_site/en/vienna_convention.php.
    \4\ http://montreal-protocol.org/Assessment_Panels/SAP/
SAP2014_Assessment_for_Decision-Makers.pdf.
---------------------------------------------------------------------------
    Scientists first recognized threats to stratospheric ozone in the 
early 1970s. Scientists working at NASA and the University of 
California realized that chemicals released into the atmosphere from 
supersonic transport and the space shuttle could react with ozone in 
the stratosphere, and destroy it. Because of this threat, NASA began to 
fund studies of the chemical reactions involved. Meanwhile, two 
scientists at the University of California, Irvine, Sherwood Rowland 
and Mario Molina, realized that a certain class of chemicals known as 
Chlorinated Fluorocarbons--or CFCs--found in hairspray and other 
products, had the potential to destroy ozone on a global scale. At 
first, their predictions were viewed skeptically, even by their 
colleagues: could hairspray really lead to the end of life on Earth? 
That seemed a pretty bold--if not outrageous--claim.
    But in 1985, Joseph Farmer of the British Antarctic Survey 
announced the discovery of an ``ozone hole'' over Antarctica, Farmer 
had made a set of ground-based observations, using ultra-violet 
absorption measurements, that demonstrated that ozone was dramatically 
depleted in the Antarctic region. The following year a team led by NOAA 
atmospheric scientist, Susan Solomon, undertook further ground-based 
observations to confirm significant ozone depletion, and suggested that 
ozone was being depleted by chlorine chemicals--derived from CFCs--in 
catalytic reactions on polar stratospheric clouds.
    In 1987, Harvard Professor James Anderson sent an experiment in a 
NASA U-2 plane over the Antarctic, establishing through direct 
measurement that ozone had been massively depleted, and that the 
depletions correlated in time and space with chlorine compounds derived 
from CFCs, thus confirming the earlier hypotheses (Figure 1). Later his 
team obtained similar measurements over the Arctic demonstrating the 
same catalytic chemistry in the northern hemisphere. All this research 
was NASA funded.
    On the basis of this work, President Bush, Secretary of State 
George Schultz, and Assistant Secretary of State John Negroponte leant 
their support to the Montreal Protocol to the Vienna Convention, 
committing the world to reducing the use of CFCs--the chemicals that 
these scientists had shown had created the ozone hole. In 1988, with 
the President's support, Congress ratified the Montreal Protocol.\4\
    Susan Solomon has been elected to the U.S. National Academy of 
Sciences, the European Academy of Sciences, and the French Academy of 
Sciences. In 2008, she was named by Time magazine as one of the 100 
most influential people in the world.
    Jim Anderson has won more prizes than you can count, including 
Harvard University's Ledlie Prize for Most Valuable Contribution to 
Science by a Member of the Faculty (and I teach at Harvard so I can 
tell you that the competition at Harvard is stiff.)

    In 1995, Rowland and Molina shared the Nobel Prize in chemistry for 
this work.

    If ozone science had been distorted, corrupted or was otherwise 
incorrect, Rowland and his colleagues would not have received the 
world's highest scientific honors. More important, if the science had 
been wrong, the ozone hole would not today be recovering. But it was 
right, and we were, and are, protected.
    President Bush was not duped; President Bush did the right thing. 
He protected us from harm.
    Few people realize how much the Montreal Protocol has protected 
us--and at how little it cost. Were it not for the Montreal Protocol, 
skin cancer rates in America would be about 60 percent higher than they 
are today. Livestock and crops would be affected too. And few people 
realize how little this protection cost, as DuPont, the major 
manufacturer of CFCs, realized that it could replace those chemicals 
with new, less harmful products.

    I'd like to underscore two things about this history.

    First, this was government science. These men and women worked 
either at government agencies like NASA and NOAA, publicly funded 
universities like the University of California, Irvine, or received 
their funding through government agencies: NOAA, NASA, and the NSF. And 
many of these scientists spoke out publicly to explain to the American 
people--and to Congress--what their work meant, and why it showed that 
we needed to act.
    Second, this science was attacked at the time as corrupt and 
politically motivated. It was attacked in the Halls of Congress, in 
much the same way as science is being attacked here today. In 1995, 
Representative Dana Rohrabacher organized a hearing distressingly 
similar to the one we are participating in today. Ostensibly it focused 
on ``scientific integrity;'' its real purpose was to challenge ozone 
science.
    Industry representatives claimed the science was incorrect and that 
fixing the problem would be devastating to our economy. They claimed 
that scientists were exaggerating the threat to get more money for 
their research. Entered into the Congressional Record was the claim 
that there was ``no scientific consensus on ozone depletion,'' a claim 
that was shown to be completely false by the award of the Nobel prize 
just a few weeks later. And, when the DuPont Corporation phased out 
production of CFCs, our economy did not collapse.
    Yet, similar claims are being made today, particularly with respect 
to climate science.

    These claims are as misguided today as they were 20 years ago.

    Who is behind these attacks?

    Many of the same people who attacked ozone science. Climate science 
is being attacked by many of the same individuals and organizations who 
attacked ozone science, and using many of the same arguments.
Climate science
    Let's look a bit at the history of climate science.

    Scientists have known for more than 100 years that greenhouse 
gases, such as carbon dioxide and methane, are greenhouse gases that 
trap heat in a planet's atmosphere. If you increase their concentration 
in a planet's atmosphere, the planet will get hotter. Venus is 
incredibly hot--(864 degrees Fahrenheit) not because it is closer to 
the sun, but because it has an atmosphere hundreds of times denser than 
Earth's, and composed mainly of CO<INF>2</INF>.
    In the United States, the first scientist to focus attention on the 
risk of increased CO<INF>2</INF> from burning fossil fuels was 
oceanographer Roger Revelle. During World War II, Revelle served an 
officer in the U.S. Navy Hydrographic Office, and he continued to work 
closely with the Navy throughout his career, including with the 
Hydrographic Office, the Office of Naval Research, and the Bureau of 
Ships. In the 1950s, he argued for the importance of scientific 
research on man-made climate change, calling particular attention to 
the threat that sea level rise from melting glaciers and thermal 
expansion of the oceans posed to the safety and security of major 
cities, ports, and naval facilities.
    In the 1960s, he was joined in his concern by several colleagues, 
including Dave Keeling, the man who first began to measure atmospheric 
carbon dioxide in 1958, and by Gordon MacDonald, a geophysicist who 
served on the first Council on Environmental Quality, under President 
Richard Nixon.
    In the 1974, the emerging scientific understanding was summarized 
by Alvin Weinberg, the head of the Oak Ridge National Laboratory, who 
explained that our use of fossil fuels was likely to be limited by the 
threat they represented to the Earth's stable and beneficent climate. 
He wrote: ``Although it is difficult to estimate how soon we shall have 
to adjust the world's energy policies to take this limit into account, 
it might well be as little as 30-50 years.'' \5\
---------------------------------------------------------------------------
    \5\ Alvin Weinberg, 1974. Global Effects of Man's Production of 
Energy, Science 186: 205. http://www.sciencemag.org/content/186/4160/
205.citation.

    In 1977, Robert M. White, the first administrator of NOAA and later 
President of the National Academy of Engineering, summarized the 
---------------------------------------------------------------------------
scientific findings this way:

        We now understand that industrial wastes, such as carbon 
        dioxide released during the burning of fossil fuels, can have 
        consequences for climate that pose a considerable threat to 
        future society. . . . [E]xperiences of the past decade have 
        demonstrated the consequences of even modest fluctuations in 
        climatic conditions [and] lent a new urgency to the study of 
        climate. . . . The scientific problems are formidable, the 
        technological problems, unprecedented, and the potential 
        economic and social impacts, ominous.'' \6\
---------------------------------------------------------------------------
    \6\ Robert M. White, 1978, Oceans and Climate: An Introduction, 
Oceanus, 21: 2-3.

    In 1979, the U.S. National Academy of Sciences concluded: ``If 
carbon dioxide continues to increase, [we] find no reason to doubt that 
climate changes will result, and no reason to believe that these 
changes will be negligible.'' \7\
---------------------------------------------------------------------------
    \7\ Jule Charney et al., Carbon Dioxide and Climate: A Scientific 
Assessment, Report of an Ad-Hoc Study Group on Carbon Dioxide and 
Climate, Woods Hole, Massachusetts, July 23-27, 1979, to the Climate 
Research Board, National Research Council (Washington, DC: National 
Academies Press, 1979), on p. 2.
---------------------------------------------------------------------------
    These findings led the World Meteorological Organization to join 
forces with the United Nations to create the Intergovernmental Panel on 
Climate Change, to establish a stable scientific foundation for 
informed public policies. Just as good science laid the foundation for 
the Vienna Convention, good science would now lay the foundation for 
the United Nations Framework Convention on Climate change, signed in 
1992 by President George H.W. Bush.
    Since then, the scientific world has affirmed and re-affirmed the 
scientific evidence over and over again. It has been affirmed in the 
United States by our own National Academy of Sciences, the American 
Meteorological Society, the American Geophysical Union, the American 
Association for the Advancement of Sciences, and many more, as well as 
by leading scientific societies and academies abroad.
    In 2006, 11 national academies of science around the globe, 
including the oldest in the world--the Accademia nazionale dei Lincei 
of Italy-- issued an unusual joint statement, noting that the ``threat 
of climate change is clear and increasing,'' and that ``delayed action 
will . . . incur a greater cost.'' That was nearly a decade ago. Today 
scientists tell us that human-made climate change is now 
``unequivocal'' and the costs are already being felt.
    This work was done by scientists around the globe--men and women, 
old and young, Democrats and Republicans. In fact, probably more of 
them were Republicans than Democrats: Gordon MacDonald was a close 
advisor to President Nixon; Dave Keeling was awarded the National Medal 
of Science by President George W. Bush in 2002.
    Yet, despite the long history of this work and the bipartisan 
character of the scientists who did it, climate science continues not 
merely to be questioned, but to be attacked. Just yesterday, the 
world's most revered climate scientists met with Pope Francis to advise 
him on the facts of climate change, and the threat that it represents 
to the future health, wealth, and well-being of men, women and 
children--not to mention the other species with whom we share this 
unique planet we call our Earth. Yet at the same time, climate change 
deniers met across the road from the Vatican, to attempt to prevent the 
Pope from speaking out on the moral meaning of climate change. Whenever 
we see signs that the political landscape is shifting, and that the 
world might be ready to act to prevent dangerous climate change, the 
forces of denial redouble their efforts to stop us.
    Time does not permit me to recount the long history of climate 
change denial, so let me just say this. The organization responsible 
for the denialist meeting in Rome is the Heartland Institute, a group 
with a long history not only of rejecting climate science, but also of 
rejecting science generally. They were responsible for the infamous 
billboards comparing climate scientists to the Unabomber. They have a 
documented history of working with the tobacco industry to question the 
scientific evidence of the harms of tobacco. Indeed, many of the groups 
who today question the reality or significance of human-made climate 
previously questioned the scientific evidence of the harms of 
tobacco.\8\
---------------------------------------------------------------------------
    \8\ In 1997, Philip Morris paid $50,000 to the Heartland Institute, 
it gave $200,000 for the Advancement of Sound Science Coalition, 
$125,000 for the Competitive Enterprise Institute, $100,000 to the 
American Enterprise Institute, and many more. All of these groups have 
questioned the scientific evidence of man-made climate change. Often 
financial contributions were referred to in company documents as 
``philanthropy,'' and because these organizations all claim to be 
nonprofit and nonpartisan. But it is hard to see how defending tobacco 
use exactly qualifies as ``philanthropy.'' Indeed, one wonders if this 
is not in fact a violation of the tax code. See Oreskes and Conway, 
Merchants of Doubt, p. 234.
---------------------------------------------------------------------------
    Today, we know that millions of people have died from tobacco-
related diseases. Do we really have to wait for people to die before we 
accept the evidence of damaging climate change?
Does politics distort science?
    Let me return to our question of politically driven science.

    Ozone science was not attacked because it was wrong scientifically; 
it was attacked because it was politically and economically 
consequential. The realities of ozone depletion had political and 
economic consequences that some people did not like, consequences that 
threatened their interests. It is the same with climate science. The 
reality is that climate science has told us that business as usual 
threatens our health, our wealth, and our well-being. Hence it is 
hardly surprising that some sectors of the business community have 
tried to undermine that message, supporting attacks on science and 
scientists, and funding distracting research and misleading conferences 
to create the impression of scientific debate, confuse the American 
people, and delay action.
    This brings me to my most important point. Science can be biased, 
particularly when the financial support for that science comes from 
parties who have a vested interest in a particular outcome. But history 
suggests that such vested interests have, at least in our country, come 
more from the private sector than from the public sector.

    The clearly documented example of this is tobacco.

    For decades tobacco companies supported scientific research, both 
in their own laboratories and in universities, medical schools, and 
even cancer research institutes. But we know, from their own internal 
records, that the purpose of this research was not to determine the 
truth about tobacco, but to create the impression of scientific debate, 
to create doubt about whether or not tobacco was really harmful, and 
therefore protect the industry against lawsuits and regulation.
    The research that industry funded was less likely to find that 
tobacco use was damaging than research that was not funded by the 
industry. Nearly all of that research has today been discredited.
    Not only was much of the industry-funded research biased, but the 
industry knew it was. Industry executives knew in the 1950s that 
tobacco caused cancer, they knew by the 1960s that it caused a host of 
other diseases as well, they knew by the 1970s that it was addictive, 
and they knew by the 1980s that secondhand smoke caused cancer in non-
smokers, and sudden infant death syndrome in babies.
    What lessons can we learn from this experience? One important 
lesson is the disclosure of funding sources. In preparing my testimony 
for today I was asked to disclose all sources of government funding of 
my research. This is a reasonable request. But there was no comparable 
request for disclosure of private funding. This is an unreasonable 
omission.
    Because the potential for distortion is real, it is important that 
funding sources be disclosed. But this means all funding sources--both 
private and public, for profit and not. To ask for disclosure of public 
funds and not ask the same of private sources would be like asking for 
automotive inspections of half your engine, or safety inspections of 
half an airplane.
Concluding remarks
    Many people resist accepting the scientific evidence of climate 
change because they fear it will be used as an excuse to expand big 
government. The logic of this is wrong on two counts.
    The first should be obvious: denying a problem does not make it go 
away. On the contrary, delay makes the problem harder to cure. Delay in 
acting on tobacco control led to millions of preventable deaths. Delay 
in acting on climate change will increase the costs we pay to deal with 
the impacts, at minimum in dollars and very likely in lives.
    The second is perhaps a bit less obvious. By delaying action on 
global carbon emission for more than two decades, we have increased the 
likelihood that disruptive global warming will lead to the very 
government interventions that many of you seek to avoid. Climate change 
is already causing an increase in extreme weather events--events that 
almost always need governmental response.
    As climate change unfolds here in the United States, natural 
disasters--especially those that disrupt food and water supply--will 
cause us to have to rely more on government--especially the Federal 
Government--to deal with them. As climate change unfolds around the 
globe, natural disasters will give undemocratic forces the 
justification they seek to commandeer resources, declare martial law, 
interfere with the market economy and, suspend democratic process. But 
note one thing: our grandchildren will not call them ``natural'' 
disasters, because they will know that we caused them.
    All of us who care about political freedom--and I believe that is 
all Americans--should do everything we can to support our climate 
scientists, and to act to prevent the threats they have so clearly 
documented. To do otherwise can only increase the chances that 
authoritarian forms of governance will come out ahead in the end.

                                FIGURE 1

            Ozone Loss in Southern Hemisphere from Satellite
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


	Supplementary Material Submitted for the Record and Retained in 
Committee's Official Files

    --Essay beyond the Ivory Tower: ``The Scientific Consensus on 
            Climate Change,'' Naomi Oreskes. 3 December 2004, Vol 306, 
            Science, p. 1686.

    --``The Long Consensus on Climate Change,'' Naomi Oreskes, February 
            1, 2007, WashingtonPost.com.

    --Excerpt from Chapter 4 of Oreskes, Naomi and Erik M. Conway, 
            2010. Merchants of Doubt: How a Handful of Scientists 
            Obscured the Truth on Issues from Tobacco Smoke to Global 
            Warming. (New York: Bloomsbury Press); reproduced with 
            permission.

                                 ______
                                 

  Questions Submitted for the Record by Congressman Raul Grijalva to 
 Naomi Oreskes, Professor of the History of Science, Harvard University
    Question 1. Questioning of Kathleen Hartnett White at the hearing 
went, in part, as follows:

    Mr. Grijalva. You have written that climate change is real but not 
caused by humans. Is that a correct summary of your position?

    Mrs. Hartnett White. That is not how I would express my opinion 
about the issue. I tried to say at the conclusion of my earlier oral 
testimony that I think that as the impacts of certain policy decisions 
or regulatory decisions that Congress makes, as the magnitude of those 
get greater or bigger, I think the elimination of fossil fuels as 
rapidly as possible would have enormous impacts across the world. But 
the science that supports the need to do that has to be extremely 
robust. I think that the current state of climate science is not strong 
enough, nor are the key models validated, in order to support policy of 
that magnitude.

    Do you agree that ``the current state of climate science is not 
strong enough nor are the key models validated in order to support'' 
the phase out of fossil fuels? Why or why not?

    Answer. Absolutely not. Any person who would make such a claim is 
either ignorant of the state of climate science or fails to understand 
its implications. The scientific evidence and consensus on the reality 
of anthropogenic climate change is robust, extensive, and of long 
standing. Its implications in terms of the grave risks posed by 
continued, unrestricted fossil fuel combustion have been documented at 
great length.\1\
---------------------------------------------------------------------------
    \1\ Intergovernmental Panel on Climate Change, five reports since 
its founding in 1988, all available on line at http://www.ipcc.ch.
---------------------------------------------------------------------------
    Scientists have known for more than 100 years that greenhouse 
gases, such as carbon dioxide and methane, are greenhouse gases that 
trap heat in a planet's atmosphere. If you increase their concentration 
in a planet's atmosphere, the planet will get hotter. Venus is 
incredibly hot (864 degrees Fahrenheit) not because it is closer to the 
sun, but because it has an atmosphere composed mainly of carbon dioxide 
(CO<INF>2</INF>).
    In the United States, the first scientist to focus attention on the 
risk of increased CO<INF>2</INF> from burning fossil fuels was 
oceanographer Roger Revelle. During World War II, Revelle served an 
officer in the U.S. Navy Hydrographic Office; he continued to work 
closely with the Navy throughout his career, including with the 
Hydrographic Office, the Office of Naval Research, and the Bureau of 
Ships. In the 1950s, he argued for the importance of scientific 
research on man-made climate change, calling particular attention to 
the threat that sea level rise from melting glaciers and thermal 
expansion of the oceans posed to the safety and security of major 
cities, ports, and naval facilities. In the 1960s, he was joined in 
this concern by several colleagues, including Dave Keeling, the man who 
first began to measure atmospheric CO<INF>2</INF> in 1958, and by 
Gordon MacDonald, a geophysicist who served on the first Council on 
Environmental Quality, under President Richard Nixon.
    In the 1974, the emerging scientific understanding was summarized 
by Alvin Weinberg, the head of the Oak Ridge National Laboratory. 
Weinberg explained that fossil fuel use was likely to be limited not by 
the total amount of fuel in the world, but by the threat their use 
represented to the Earth's stable and beneficent climate: ``Although it 
is difficult to estimate how soon we shall have to adjust the world's 
energy policies to take this limit into account, it might well be as 
little as 30-50 years.'' \2\
---------------------------------------------------------------------------
    \2\ Alvin M. Weinberg, ``Global Effects of Man's Production of 
Energy,'' Science 186, no. 4160 (October 18, 1974): 205.

    In 1977, Robert M. White, the first administrator of the National 
Oceanic and Atmospheric Administration (NOAA) and later President of 
the U.S. National Academy of Engineering, summarized the scientific 
---------------------------------------------------------------------------
findings this way:

        We now understand that industrial wastes, such as carbon 
        dioxide released during the burning of fossil fuels, can have 
        consequences for climate that pose a considerable threat to 
        future society. . . . [E]xperiences of the past decade have 
        demonstrated the consequences of even modest fluctuations in 
        climatic conditions, [and] lent a new urgency to the study of 
        climate. . . . The scientific problems are formidable, the 
        technological problems, unprecedented, and the potential 
        economic and social impacts, ominous.'' \3\
---------------------------------------------------------------------------
    \3\ Robert M. White, ``Oceans and Climate--Introduction,'' Oceanus 
21 (1978): 2-3.

    In 1979, the U.S. National Academy of Sciences concluded: ``If 
carbon dioxide continues to increase, [we] find no reason to doubt that 
climate changes will result, and no reason to believe that these 
changes will be negligible.'' \4\
---------------------------------------------------------------------------
    \4\ Jule Charney et al., Carbon Dioxide and Climate: A Scientific 
Assessment, Report of an Ad-Hoc Study Group on Carbon Dioxide and 
Climate, Woods Hole, Massachusetts, July 23-27, 1979, to the Climate 
Research Board, National Research Council (Washington, DC: National 
Academies Press, 1979).
---------------------------------------------------------------------------
    These findings led the World Meteorological Organization to join 
forces with the United Nations to create the Intergovernmental Panel on 
Climate Change to establish a stable scientific foundation for informed 
and prudent public policies. Following the model established by the 
Montreal Protocol on Substances that deplete the ozone layer--a science 
based Protocol supported by diverse constituencies, including the 
private sector and President George H.W. Bush--the United Nations 
Framework Convention on Climate Change would use substantiated science 
to inform prudent policy. It was signed by President Bush in 1992. 
However, time political resistance--led by libertarian think tanks and 
the fossil fuel sector--was already emerging, and Congress never 
ratified the Convention.
    Meanwhile the science was becoming clearer, and by 1995 a consensus 
had emerged that man-made climate change--long predicted by 
scientists--was now underway. In the Second Assessment Report of the 
Intergovernmental Panel on Climate Change, scientists affirmed that: 
``The balance of evidence suggests a discernible human impact on global 
climate'' (IPCC, 1995). However, this conclusion was attacked by 
climate change deniers, who were by this time fully engaged in a 
strategy of sowing doubt about the science. They did this in a pattern 
developed and used to great effect by the tobacco industry in delaying 
government action to control tobacco and decrease its adverse effects 
on American public health. In fact, some of the groups and individuals 
now challenging climate science were active in these prior campaigns to 
defend tobacco by challenging the scientific evidence of its harms.\5\
---------------------------------------------------------------------------
    \5\ Gelbspan, Ross, 1998. The Heat is On, The Climate Crisis, The 
Cover-Up, The Prescription, (New York: Basic Books), and idem, 2004, 
Boiling Point: How Politicians, Big Oil and Coal, Journalists, and 
Activists Have Fueled the Climate Crisis--and What We Can Do to Avert 
Disaster (New York: Basic Books).
---------------------------------------------------------------------------
    Since 1995, the scientific world has affirmed and re-affirmed the 
scientific evidence over and over again. It has been affirmed in the 
United States by our own National Academy of Sciences, the American 
Meteorological Society, the American Geophysical Union, the American 
Association for the Advancement of Sciences, and many more, as well as 
by leading scientific societies and Academies abroad.
    In 2004 I wrote the first peer-reviewed article that reviewed the 
state of climate science and asked the question: Does the peer reviewed 
literature comport with the statements of these leading scientific 
bodies? (Oreskes, 2004), The answer was yes. This result has been 
replicated by other, independent scientists, most recently by John Cook 
and colleagues.\6\
---------------------------------------------------------------------------
    \6\ John Cook et al., 2013. ``Quantifying the consensus on 
anthropogenic global warming in the scientific literature,'' 
Environmental Research Letters 8(2): 024024 doi:10.1088/1748-9326/8/2/
024024.
---------------------------------------------------------------------------
    In 2006, 11 national academies of science around the globe, 
including the oldest in the world--the Accademia nazionale dei Lincei 
of Italy-- issued an unusual joint statement, noting that the ``threat 
of climate change is clear and increasing,'' and that ``delayed action 
will . . . incur a greater cost.'' That was nearly a decade ago. Today 
scientists tell us that human-made climate change is now 
``unequivocal'' and the costs are already being felt.\7\
---------------------------------------------------------------------------
    \7\ Intergovernmental Panel on Climate Change, Fifth Assessment 
Report, 2013, https://www.ipcc.ch/report/ar5/wg1/; see also https://
www.ipcc.ch/news_and_events/docs/ar5/press_release_ar5_wgi_en.pdf.
---------------------------------------------------------------------------
    This science, done over the course of more than a century, was done 
by scientists around the globe--men and women, old and young, Democrats 
and Republicans. Probably more of them were Republicans than Democrats: 
Gordon MacDonald was a close advisor to President Nixon; Charles David 
Keeling was awarded the National Medal of Science by President George 
W. Bush in 2002. What all these men and women had in common was that 
all would have agreed that the scientific basis for any public policy 
decision should be robust. Scientists today would say the same, and 
their work over many decades has been a sustained effort to ensure just 
that.
    Despite the long history of this work and the bipartisan character 
of the scientists who did it, climate science continues not merely to 
be questioned, but to be attacked. In the very week that our hearing 
took place, the world's most revered climate scientists met with Pope 
Francis to advise him on the facts of climate change, and the threat 
that it represents to the future health, wealth, and well-being of men, 
women and children--not to mention the other species with whom we share 
this unique planet we call our Earth.\8\ Yet at the same time, climate 
change deniers met across the road from the Vatican, to attempt to 
prevent the Pope from speaking out on the moral meaning of climate 
change.\9\ Whenever there are signs that the political landscape is 
shifting, and that the world might be ready to act to prevent dangerous 
climate change, the forces of denial redouble their efforts to stop us.
---------------------------------------------------------------------------
    \8\ http://www.casinapioiv.va/content/accademia/en/publications/
extraseries/sustainable.html; See also http://www.casinapioiv.va/
content/accademia/en/events/2014/sustainable/statement.html.
    \9\ http://www.theguardian.com/environment/2015/apr/24/heartland-
institute-koch-pope-francis-lobbying-climate-change-global-warming.
---------------------------------------------------------------------------
    The history of climate change denial is recounted in my book, co-
authored with Erik M. Conway, Merchants of Doubt.\10\ The organization 
responsible for the denialist meeting in Rome is the Heartland 
Institute, a group with a long history not only of rejecting climate 
science, but of rejecting science generally. They were responsible for 
the infamous billboards comparing climate scientists to the Unabomber. 
They are an institute with a documented history of working with the 
tobacco industry to question the scientific evidence of the harms of 
tobacco. They are not the only ones with a history in tobacco. Many of 
the groups who today question the reality or significance of human-made 
climate previously questioned the scientific evidence of the harms of 
tobacco.\11\ The strategy that Ms. White uses--to raise questions about 
the science, and suggest that it is insufficiently robust on which to 
base public policy--is precisely the one that was used for decades by 
the tobacco industry and its allies.
---------------------------------------------------------------------------
    \10\ Oreskes, Naomi and Erik M. Conway, 2010. Merchants of Doubt: 
How a Handful of Scientists Obscured the Truth on Issues from Tobacco 
Smoke to Global Warming (New York: Bloomsbury Press).
    \11\ In 1997, Philip Morris paid $50,000 to the Heartland 
Institute, $200,000 to the Advancement of Sound Science Coalition, 
$125,000 to the Competitive Enterprise Institute, $100,000 to the 
American Enterprise Institute, and many more. All of these groups have 
questioned the scientific evidence of man-made climate change. Often 
financial contributions were referred to in company documents as 
``philanthropy,'' and because these organizations all claim to be 
nonprofit and nonpartisan. But it is hard to see how defending tobacco 
use exactly qualifies as ``philanthropy''. See Oreskes and Conway, 
Merchants of Doubt, p. 234.
---------------------------------------------------------------------------
    All sensible people agree that major public policy decisions should 
be rooted in good information. When the issues depend in part on 
scientific information--which action on climate change inescapably 
does--then that information must necessarily be in part scientific. It 
is essential for public safety and well-being that decisionmakers be 
well-informed about and understand that science. It is not in the 
interest of the American people to be misled, either by ignorance or 
intent.
    Despite the allegations and innuendo of individuals like Ms. White 
and her colleagues, scientific world is not at war with fossil fuels. 
Scientific investigations are a sustained attempt to understand the 
ways in which the natural world--the world on which we depend on both 
for our prosperity and our survival--works. As Rachel Carson argued so 
eloquently many years ago, we break the laws of nature at our peril. 
And a war against nature is a war we cannot win. This is a lesson that 
both Republicans and Democrats heeded in the past, but which many seem 
of late to have forgotten.
    As for model validation (sic), much of the scientific work of the 
past three decades has been dedicated to model development and testing. 
In the early 1990s, I wrote what is now considered a benchmark paper on 
the question of how models are evaluated.\12\ In this work, my 
colleagues and I explored the ways and means scientists test their 
models. Since that time, the scientific community has put extraordinary 
effort into evaluating and testing climate models. The important point 
to underscore here is that models are tools, not facts. Scientists use 
them to answer questions about the behavior of the natural world. We 
have learned a great deal about Earth's climate system through 
modeling: among the things we have learned is that the observed warming 
trend of the past 50 years cannot be accounted for by natural 
variability, but can only be explained by dominant contribution of 
greenhouse gas-driven warming.
---------------------------------------------------------------------------
    \12\ Oreskes, Naomi, Kristin Shrader-Frechette and Kenneth Belitz, 
1994. ``Verification, validation, and confirmation of numerical models 
in the earth sciences,'' Science 263: 641-646; Oreskes, Naomi, 1998. 
``Evaluation (not validation) of quantitative models,'' Environmental 
Health Perspectives 106 (supp. 6): 1453-1460; Oreskes, Naomi, 2007, 
``The scientific consensus on climate change: How do we know we're not 
wrong? '' Climate Change: What It Means for Us, Our Children, and Our 
Grandchildren, edited by Joseph F.C. DiMento and Pamela Doughman, MIT 
Press, pp. 65-99.

    Question 2. You mentioned in your testimony that you were asked to 
disclose your Federal and foreign funding sources but there were no 
questions about private funding. From the perspective of a historian of 
science and an expert on the politicization of science, what are the 
implications of that for public policy generally, and for the climate 
---------------------------------------------------------------------------
denier movement, specifically?

    Answer. From any perspective, disclosure of funding sources--
whether public or private--is essential to the preservation of 
scientific integrity. A robust scientific literature, dating to the 
mid-eighties, has found that research outcomes can be statistically 
correlated with funding sources, in what is called the ``funding 
effect.'' \13\ This does not mean that the researchers have been 
``corrupted''--although in some cases they may be--since the funding 
effect may be the result of unconscious bias. Researchers make many 
choices in the design, implementation and interpretation of their work 
that involve expert judgment. This opens a pathway through which 
unconscious bias may exert itself, both in study design and in data 
interpretation. In theory, such bias should be noticed in peer review; 
in practice, these subtleties often escape notice until results are 
contested by whistleblowers, challenged by other scientists, re-
examined in litigation, or detected in later meta-studies.
---------------------------------------------------------------------------
    \13\ Good points of entry into this literature are Lundh A, 
Sismondo S, Lexchin J, Busuioc OA, Bero L. Industry sponsorship and 
research outcome. Cochrane Data base of Systematic Reviews 
2012;12:MR000033. dx.doi.org/10.1002/14651858.MR000033.pub2, and 
Sheldon Krimsky, ``Do Financial Conflicts of Interest Bias Research? An 
Inquiry into the ``Funding Effect'' Hypothesis,'' Science, Technology, 
and Human Values, September 20, 2012, doi: 10.1177/0162243912456271, 
http://sth.sagepub.com/content/38/4/566.abstract.
---------------------------------------------------------------------------
    Editors, reviewers, readers, and the public make the default 
assumption that the research before them is unbiased; disclosure is 
essential because it alerts them to the fact that honest researchers 
may nevertheless be subject to unconscious bias.
    Scientists themselves may not be fully aware of how subconscious 
bias may affect their results. Many researchers have a narrow 
conception of research integrity, restricting it in their own minds to 
avoiding egregious misconduct such as fraud, fabrication, and 
plagiarism. But many other behaviors can compromise research integrity, 
and evidence suggests that these behaviors may be widespread. One 
large, well-designed study, published in Nature in 2005, found that 33 
percent of researchers surveyed admitted to questionable behaviors 
within the previous 3 years, including 20 percent of mid-career 
researchers who acknowledged ``changing the design, methodology or 
results of a study in response to pressure from a funding source.'' 
\14\
---------------------------------------------------------------------------
    \14\ http://www.nature.com/nature/journal/v435/n7043/full/
435737a.html.
---------------------------------------------------------------------------
    A survey of researchers conducted by the Nuffield Council on 
Bioethics found that 58 percent of respondents aware of scientists 
feeling tempted to compromise on research integrity and standards, yet 
only 26 percent of these same respondents felt personally tempted to 
engage in the same behavior. A similar study of medical residents found 
that 61 percent argued that gifts from pharmaceutical companies would 
not affect their behavior, while only 16 percent of their colleagues 
could remain similarly unaffected by such gifts. This is a clear 
example of what social scientists call the ``third person effect'': 
that we all think that other people are more prone to bias and error 
than we are ourselves.\15\
---------------------------------------------------------------------------
    \15\ On third-person effect in climate science, see Lewandowsky, 
Stephan, Naomi Oreskes, James S. Risbey, Ben R. Nerwell and Michael 
Smithson, 2015 ``Climate Change Denial and its Effect on the Scientific 
Community,'' Global Environmental Change 33: 1-13. http://
www.sciencedirect.com/science/article/pii/S0959378015000515.
---------------------------------------------------------------------------
    This problem is of especial concern in relation to climate science, 
because prominent climate change deniers have received substantial 
funding from private sector sources.\16\ Indeed, in some cases, they 
may have only private sector sources, because the quality of their work 
is too poor to be able to compete for competitive scientific funding, 
such as that provided by the National Science Foundation, the National 
Institutes of Health, NASA, NOAA, or the any of the various executive 
branch departments, such as Energy and Defense, that fund basic and 
applied scientific research. The notable recent example of this is Dr. 
Wei-Hook (``Willie'') Soon, whose contrarian climate research of recent 
years has, apparently, been wholly funded by fossil fuel interests. 
While every scientific community has its outliers, and these 
individuals are entitled to their views, Dr. Soon's outlier views have 
been mischaracterized and exploited by the climate change denial 
movement for political purposes. His industry-funded publications have 
been used in political debate to support the misleading claim that 
there is substantial scientific uncertainty about the causes of recent 
global warming. Fossil fuel interests thus create and sustain the 
impression of continued scientific disagreement and debate about an 
issue that is, for all intellectual intents and practical purposes, 
scientifically settled.
---------------------------------------------------------------------------
    \16\ http://www.nature.com/nature/journal/v435/n7043/full/
435737a.html.
---------------------------------------------------------------------------
    Industry funding is also a potential source of concern because of 
the potential for the biasing of research results, even among respected 
scientists working on topics that are not yet settled. An example of 
this may be found in the recent dispute over disclosure of funding 
sources for research on the environmental impacts of hydraulic 
fracturing in oil and gas drilling.\17\ The author of the study, who 
failed to disclose private sector logistical and financial support for 
his work, including salary to him, personally, has been quoted as 
stating that his analysis was not influenced by the source of his 
funding.\18\ The problem is that he has no way to know that, and 
neither do we.
---------------------------------------------------------------------------
    \17\ Donald Siegel et al., Environmental Science and Technology 49: 
4106-4112, and 49: 5840.
    \18\ http://insideclimatenews.org/news/06042015/fracking-study-
water-contamination-under-ethics-review.
---------------------------------------------------------------------------
    Disclosure is essential so that those who use scientific work can 
adequately judge both whether or not there was a risk of bias, and 
whether that risk may have affected the research outcomes. This has 
been a major risk in research on hydraulic fracturing, in part because 
the lack of adequate public funding for research on the topic has 
forced researchers to look to industry for funds, and in part because 
industry secrecy and non-disclosure can make it effectively impossible 
to answer the relevant questions without industry cooperation.
    The Cochrane Reports, the leading source of systematic reviews in 
health care, recently concluded that the funding effect ``is a known 
bias that should be assessed.'' However, this is difficult to do on a 
case-by-case basis, because absent evidence of fraud, one cannot prove 
that a research result would have been different had the funders been 
different. The Cochrane researchers thus conclude that bias is best 
assessed ``by using empirical methods to identify factors that are 
[systematically] associated with research results.'' \19\ Such 
assessments of funding effects can only be performed if sources are 
known.
---------------------------------------------------------------------------
    \19\ Lundh A, Sismondo S, Lexchin J, Busuioc OA, Bero L. Industry 
sponsorship and research outcome. Cochrane Data base of Systematic 
Reviews 2012;12:MR000033. dx.doi.org/10.1002/14651858.MR000033.pub2.

---------------------------------------------------------------------------
                                 ______
                                 

    Mr. Gohmert. Thank you very much.
    At this time we will hear from Mr. Lunny. You are 
recognized for 5 minutes.

STATEMENT OF MR. KEVIN LUNNY, OWNER, DRAKES BAY OYSTER COMPANY, 
                    POINT REYES, CALIFORNIA

    Mr. Lunny. Good afternoon, Chairman Gohmert, Ranking Member 
Dingell, and members of the subcommittee. My name is Kevin 
Lunny. My family owned the Drakes Bay Oyster Company and 
operates the ``G'' Ranch at the Point Reyes National Seashore 
in Marin County, California. On behalf of the entire Lunny 
family, our 30 workers who lost their jobs, and the 
overwhelming majority of citizens in West Marin, I am here 
today to tell you our story.
    On December 31, 2015, the National Park Service forced our 
iconic 80-year-old oyster farm to shut down. Let me be clear, 
we did not fail as a business. This was not bad luck. Rather, 
the Park Service engaged in a taxpayer-funded enterprise of 
corruption to run our small business out of Point Reyes.
    Our family experienced the worst of what a motivated 
Federal agency can do to a small business. We incurred millions 
of dollars in expenses and debts defending our farm from 
relentless misrepresentation, deception, and the complicit 
participation of multiple Federal agencies. These actions 
culminated in an Environmental Impact Statement that can only 
be described as weaponized.
    It is important to understand that Point Reyes National 
Seashore is not a typical Park Service unit. Point Reyes has 
been settled for almost two centuries, with ranches dating back 
to the California Gold Rush, and our oyster farm sited squarely 
in the middle. The Seashore was created in part to preserve 
that unique working landscape. Point Reyes is not Yosemite. It 
was never intended to be.
    Living and working inside a National Park unit is unusual. 
Rather than a mayor, city council, or a police department, we 
have only the unelected Park Service serving in all those 
capacities. We have no vote and no input. Unfortunately, this 
creates an environment ripe for intimidation.
    In the early 2000s, the Park Service interpretation of 
Congress' intent at Point Reyes changed. No longer was 
agriculture at Point Reyes viewed as the cornerstone of the 
seashore. Instead, we became the scapegoats in every new issue. 
Our existence was suddenly a problem, a roadblock in an 
ideological pursuit of pure wilderness.
    In an effort to drive out nonconforming uses from Point 
Reyes, they accused us of all manner of sins. The pattern 
became quite familiar. First the Park Service would make false 
claims, either in public hearings or published studies and 
reports. Confronted with evidence refuting their claims, they 
would ignore the data, refuse to correct the record, and simply 
move on. The process would then repeat itself. In a letter to 
then-Secretary of the Interior, Ken Salazar, Senator Feinstein 
called it ``deceptive'' and ``fraudulent.''
    In the course of pursuing these attacks, at various times 
we were accused of causing an 80 percent decline in harbor 
seals, industrial-level noise pollution, and countless other 
claims, all of which were shown to be false. In addition to 
this, we were covertly monitored and photographed by the Park 
Service for several years. These surveillance photos exonerated 
the oyster farm from seal disturbance and were concealed by the 
Park Service.
    One of the most disturbing actions was when the Park 
Service asked another agency, USGS, to review these secret 
photos. Their seal expert found no disturbance by our oyster 
farm, but the Park Service altered his findings to falsely 
claim harm. This issue was documented in a Newsweek story 
published in January of this year.
    After building this multi-year record of false accusations 
against us, the Park Service manipulated the NEPA process 
initiated to renew our permit. All of the false science, and 
more, was combined into a draft environmental impact statement 
so flawed that it was never finalized.
    No record or decision was issued. No final public comment 
period was held. We were not even sent a copy of that document. 
Not only was this flawed, incomplete document used to inform 
the Secretary in his decision to evict us, it was also used 
against us in Federal court.
    The President promised scientific integrity, and we are 
here today to ask for this committee's help in securing it. 
Congress could right these wrongs. The science dictates that we 
should preserve, protect, and promote oysters around the world, 
and Drakes Estero is no different. Thank you for the 
opportunity.
    [The prepared statement of Mr. Lunny follows:]
Prepared Statement of Kevin Lunny, President, Drakes Bay Oyster Company
    Good afternoon Chairman Gohmert, Ranking Member Dingell, and 
members of the subcommittee.
    My name is Kevin Lunny. My family owned the Drakes Bay Oyster 
Company and operates the ``G'' Ranch at Point Reyes National Seashore 
in Marin County, California. On behalf of the entire Lunny family, our 
30 workers who lost their jobs, and the overwhelming majority of 
citizens in West Marin, I am here today to tell you our story.
    On December 31, 2014, the National Park Service forced our iconic 
80-year-old oyster farm to shut down. Let me be clear, we did not fail 
as a business. This was not bad luck. Rather, the Park Service engaged 
in a taxpayer-funded enterprise of corruption to run our small business 
out of Point Reyes.
    Our family experienced the worst of what a motivated Federal agency 
can do to a small business. We incurred millions of dollars in expenses 
and debts defending our farm from relentless misrepresentation, 
deception, and the complicit participation of multiple Federal 
agencies. These actions culminated in an Environmental Impact Statement 
preparation process that can only be described as weaponized.
    The history of procedural and ethical missteps by the Park Service 
at Point Reyes is stunning in its complexity and boldness. From the 
beginning of our stewardship of the farm, false science has been used 
as the primary tool to divide our community, intimidate government 
officials, and ostracize our family. Our family run oyster farm became 
ground zero for scientific misconduct in the United States. No leaders 
at the Park Service were willing to stop this campaign of false 
science, and no agencies outside of the Park Service were willing or 
able to step in despite countless guidelines, policies, and codes of 
conduct governing the application of science in the Federal Government.
    It is important to understand that Point Reyes National Seashore is 
not a typical Park Service unit. Point Reyes has been settled for 
almost two centuries, with ranches dating back to the California Gold 
Rush, and our oyster farm sited squarely in the middle. The Seashore 
was created in part to preserve that unique working landscape. Its 
original authorization by Congress in 1962 was secured through a 
partnership of agricultural and environmental interests working to 
prevent development spreading rapidly up the coast from San Francisco. 
Point Reyes isn't Yosemite. It was never intended to be.
    Contrary to this historic intention, Park Service management and 
interpretation of policies changed around the early 2000s. No longer 
was agriculture at Point Reyes viewed as a benefit to the Seashore. 
Instead, we became the scapegoats in every new issue. Our existence was 
suddenly a problem--a roadblock in the new ideological pursuit of pure 
Wilderness, free from ``non-conforming'' uses like agriculture and 
mariculture. In an effort to drive those uses from Point Reyes, 
starting with DBOC, they accused us of all manner of sins. The pattern 
became quite familiar. First the Park Service would make false claims--
either in public hearings, as they did before the Marin County Board of 
Supervisors, or in interviews and press statements, published studies, 
or reports, Then, when confronted with evidence refuting their claims, 
they would ignore the data, refuse to correct the record, and simply 
move on. The process would then repeat itself. Senator Feinstein 
described it as ``deceptive and potentially fraudulent'' in a letter to 
then-Secretary of Interior Ken Salazar.
    The Park Service campaign against us began in earnest in early 
2007, when they publicly claimed that DBOC was responsible for an 80 
percent decline in harbor seals in Drakes Estero. Not only did the Park 
Service lack scientific data to support such a serious claim, but they 
acknowledged in an email to NOAA just before the hearing that no actual 
records of harm existed.
    Another early claim by the Park Service was that sedimentation from 
oyster production was upsetting the ecological balance in the Estero 
and cited a 1991 USGS study as proof. According to that USGS study, and 
affirmed by the State Health Department, the water bottom of the Estero 
was and is healthy. Regardless, the Park Service misrepresented that 
study--they instead attempted to demonstrate harm by substituting data 
from a 60-year-old study conducted at the Sea of Japan and attributing 
it to our farm.
    Perhaps most telling of all, the Park Service embarked on a covert 
surveillance operation of Drakes Estero, a fishing expedition seeking 
justification for their unsupported claims of disturbance. The results 
were only discovered years later and following multiple unfulfilled 
FOIA requests. The covert cameras were focused on our boats and our 
oyster beds in Drakes Estero, and captured hundreds of thousands of 
photos, as often as one photo per minute. Once it was determined that 
these photos exonerated us, the Park Service hid them from the Marine 
Mammal Commission and National Academy, and excluded them from the EIS 
process.
    Following publication of the so-called Final EIS, these covert 
photos reappeared as the subject of a USGS review. That report, and its 
subsequently altered findings, were recently featured in a January 2015 
article in Newsweek (``The Oyster Shell Game,'' by Michael Ames, 
January 18, 2015). As reported in the article, Dr. Brent Stewart (the 
marine biologist and seal expert with the Hubbs-Sea World Research 
Institute) was enlisted by USGS to perform an analysis of the photos. 
Stewart's independent conclusion was that the Park Service photos 
showed no disturbance to seals by DBOC operations--that conclusion, 
according to Newsweek, was altered in the final USGS report 
commissioned by the National Park Service. The USGS report inferred 
that there were in fact some potential disturbances by DBOC boats--a 
clear change from Stewart's original findings. In the story, Stewart 
says the following:

        ``Its clear that what I provided to them and what they produced 
        were different conclusions and different values. In science, 
        you shouldn't do that.''

    Specifically, Dr. Stewart stated that his original phrase, ``no 
evidence of disturbance,'' was changed to read ``were associated with 
boat activity.'' Months later, USGS asked Dr. Stewart to re-verify his 
findings, which he did. Despite this reiteration of his finding of no 
disturbance, USGS and the Park Service moved forward with their altered 
version, going a step further in the never-completed Final EIS by 
implying causation of disturbance to the seals at the hands of our 
boats. This causation was explicitly ruled out in Dr. Stewart's 
original, unaltered work.
    According to the article, when Dr. Stewart discovered the altered 
conclusion and asked USGS to correct it, the response he got was: ``No, 
it's done. It can't be changed.''

    ``That was a bit shocking,'' Dr. Stewart said.

    After building this multi-year record of false accusations against 
us, the Park Service manipulated the NEPA process initiated to renew 
our permit. In September 2010, Department of Interior Regional 
Solicitor Barbara Goodyear and Point Reyes National Seashore 
Superintendent Cecily Muldoon informed DBOC at a meeting that a NEPA 
review was required to consider our request to extend our lease and 
that the Secretary had already determined that a full Environmental 
Impact Statement would have to be prepared (a highly irregular decision 
for a simple permit renewal to continue an ongoing activity that's been 
in place since 1934).
    In an attempt to make amends for past misconduct and start fresh, 
Park Service Director Jon Jarvis negotiated and executed a Statement of 
Principles with DBOC to guide the process. We were to have a seat at 
the table. It was to be a working partnership. It was nothing of the 
kind. We were told little, asked less and there was no working 
partnership of any kind. Instead, it became evident that a pre-
determined outcome remained the agenda.
    Repeatedly during preparation of the EIS--and despite protests from 
a wide range of interested parties and observers--the Park Service 
doubled down on its use of manipulated data. The harbor seal 
disturbance, sedimentation, and more, were compiled into a Draft EIS.
    For example, in assessing the noise impact of our small outboard 
motor boats, the Park Service, rather than measuring our boats on our 
soundscape (as required), instead used the measurements from a 70-
horsepower, 700cc Kawasaki jet ski in New Jersey. When describing how 
our oysters caused sedimentation in the Estero, the Park Service again 
chose not to use site-specific information, instead substituting data 
from a 1955 study from Japan. It should be noted that NPS formal 
management policies mandate site-specific measurements for use in these 
kinds of studies--obviously not followed in this EIS process. The Park 
Service never corrected the record, and was never held accountable.
    The Park Service enjoyed free reign to manipulate processes, data, 
and policy at Point Reyes. In fact, the Park Service never officially 
completed the NEPA EIS process. After 2 years and more than $2,000,000 
spent, the final draft was published without a Record of Decision or 
notice in the Federal Register. There was no final comment period. 
Further, the unofficial final version of the EIS was never submitted to 
EPA for review as required by regulation. The Park Service never even 
sent us a copy of the so-called ``Final'' EIS. These omissions did not 
prevent the Park Service from using the incomplete document as a weapon 
against DBOC. The Secretary of Interior, in deciding our oyster farm 
would be closed, indicated that he was disregarding the flawed data and 
utilizing only those parts of the EIS that were sound--in his sole 
discretion. As if to add insult to injury, the Justice Department 
submitted approximately 250 pages of this document as evidence during 
our challenge of the permit denial in Federal court. In that 
submission, DOJ referred to the incomplete document as a ``valid EIS,'' 
a term without meaning in the NEPA process.
    Perhaps most shocking to us--as newcomers to such a complex 
process--was learning, one investigation at a time, that there was no 
way to stop the Park Service from executing their agenda. When we first 
heard the Park Service staff make false accusations against us back in 
May 2007, we went to the Park Superintendent to correct what we thought 
was a simple mistake. The local Park Service staff were not willing to 
correct the false claims, so we went to the Regional Director. No help 
there. Then we went to the Park Service Director, and finally the 
Secretary of Interior. No one, at any level, was willing to admit that 
false science was being used against us, or to at least correct the 
record and stop the false accusations.
    Numerous Data Quality Act complaints were filed asking the Park 
Service to correct the record of false science--with no relief. The 
Department of Interior Inspector General investigated and found 
misconduct and deliberate misrepresentation of facts, yet failed to 
actually stop misconduct or force a correction of the record. Instead, 
the three Park Service employees cited in the Inspector General's 
report have since been rewarded for their work with promotions and 
greater responsibilities. The National Academy of Sciences conducted 
two studies on the science in our case, and the Marine Mammal 
Commission did one. Despite nearly all reports finding wrongdoing in 
what the Park Service did to our family and our community, all of these 
agencies and safeguards failed to correct the record or curb Park 
Service overreach at Point Reyes. The Inspector General at Interior 
told us that they were not equipped to deal with science issues. The 
National Academy told us they were not equipped to deal with policy 
issues and would not enter the misconduct arena. We felt helpless, 
bullied, and ignored.
    In fact, even this week the Park Service at Point Reyes continues 
its nearly decade-long pattern of false claims in the pursuit of a 
predetermined outcome. Now that the Park Service has driven out our 
family's oyster farm, they are turning their attention to the ranchers 
at Point Reyes. We are heartsick to see the same tactics we faced used 
against our neighbors. The Park Service has been using a playbook of 
false science at Point Reyes, and there seems to be no individual or 
agency who is capable of, or willing to, stop this campaign against our 
community.
    What the Park Service did to our family was unconscionable. This 
polluted legacy of false science has tainted our dealings with state 
(California Coastal Commission, California Department of Fish and Game, 
California Fish and Game Commission) and Federal agencies (United State 
Geological Survey, National Oceanic and Atmospheric Administration, 
Marine Mammal Commission), and has resulted in unnecessary regulatory 
and legal action against our family and our farm. The Park Service 
false accusations and misconduct infected nearly every interaction we 
had and impacted otherwise non-controversial processes.
    The committee's hearing is entitled ``Zero Accountability: The 
Consequences of Politically Driven Science.'' The National Park 
Service, armed with an agenda to purge the oyster farm and all 
agriculture from the Seashore, ran wild with taxpayer dollars. They 
evaded and avoided accountability at every turn. Immediately after the 
National Academy of Sciences issued a report highly critical of Park 
Service science, we wrote a detailed letter to Park Service Director 
Jarvis and asked how Park Service would inform other Federal and state 
agencies, local officials, and the public that their scientific claims 
and accusations were wrong and further asked how the Park Service would 
correct the record. Director Jarvis refused to answer our letter.
    The President promised scientific integrity and we are here today 
to ask for this committee's help securing it. If a schoolyard bully 
takes a ball, he should be caught and punished, and the ball returned. 
The situation at Point Reyes is no different. Congress should right 
these wrongs. Those who committed fraud should be held accountable. 
Drakes Estero is an outstanding body of water, in a remote place, ideal 
for growing oysters. Until vilified by activist environmental groups, 
our farm had been compatible with Park Service values, the current PRNS 
General Management Plan, and the congressionally designated pastoral 
zone. Further, our shellfish cultivation lease with the state of 
California is still valid through 2029. In purging us from the Seashore 
and claiming the Estero as Wilderness, the Park Service has overstepped 
its authority and ignored state-level regulatory partners like the 
California State Fish & Game Commission.
    For almost a century, Point Reyes has been a destination for 
visitors from the community, the state, the Nation, and the world. Next 
year, the Nation celebrates the National Park Service Centennial. The 
first act of that Centennial should be to restore scientific integrity, 
right these wrongs, and protect Congress' intent to preserve these 
working landscapes.
    Thank you for the opportunity to appear before the subcommittee and 
tell our story.

                                 ______
                                 

 Questions Submitted for the Record to Kevin Lunny, Owner, Drakes Bay 
                             Oyster Company
                Questions Submitted by Chairman Gohmert

    Question 1. What affect did the National Park Service shutting down 
the Drakes Bay Oyster Company have on your employees? How many 
employees were affected? How were they affected and how detrimental was 
it to them?

    Answer. The most immediate effect was that our 31 workers lost 
their jobs, some of whom had been with the farm for decades. Since DBOC 
also provided housing to many employees, these workers and their 
families, including at least 12 children, have also lost their homes. 
These families are part of the Point Reyes family, their children 
attend the local schools and churches, and their eviction from the 
Seashore is quite literally destroying part of our community.

    It is important to understand that these are not unskilled 
laborers. Our workers possess specialized skill sets and have spent 
years honing their craft. With continued pressure in northern 
California from special interests that would like to eliminate 
agriculture entirely, opportunities are quickly vanishing for these 
workers to find alternate employment.

    The Park Service promised to aid these workers in their transition 
as part of our farm closure settlement, yet we've seen little evidence 
of such aid, and only to a few of the workers. Soon our workers will be 
sent packing to attempt to rebuild their lives and families elsewhere.

    For supporting documentation, please see Ninth Circuit Amicus Brief 
filed by oyster farm workers telling their own story--[This document 
can be found on page 65 as a response to Staff question 4.]

    Question 2. Please elaborate on the decisionmaking process for the 
purchase and financing of the Oyster Farm.

    2a. What did your lending bank require to satisfy them that the 
lease would not terminate any time soon and allowed them to grant you a 
loan to fund your business?

    Answer. DBOC used the same Bank (Bank of Oakland) as Johnson Oyster 
Company (JOC) used. The Bank was already quite familiar with the NPS 
Reservation of Use and Occupancy (RUO), covering 3 acres land above the 
high tide line where the oyster buildings are, that would be up for 
renewal in 2012 and with the California Fish and Game Commission (CFGC) 
shellfish lease, covering all submerged areas of Drakes Estero below 
the high tide line) that would be up for renewal in 2029. The Bank was 
also aware of the PRNS General Management Plan which supports the 
continuation of the oyster farm beyond 2012. The Bank also reviewed the 
NPS 1998 Environmental Assessment for the replacement of all of the 
oyster farm buildings with new docks, a new hatchery and a new 
processing plant. Nothing in this NEPA document suggested the oyster 
farming would end in 2012, or ever. The Bank was also given a letter 
from Don Neubacher, Superintendent, Point Reyes National Seashore, in 
support of the permanent new construction evaluated in the 1998 EA. 
With these facts and encouragement from NPS directly, the Bank of 
Oakland approved a large loan to JOC to remove and rebuild the entire 
oyster farm building complex as approved in the FONSI. JOC did not 
begin the NPS supported project and therefore did not borrow the money 
from the Bank. Shortly after, JOC sold the farm to DBOC. The Bank 
recognized that the same assurances were in place. There were no new 
policy changes, no management plan changes and the same supportive 
superintendent. Therefore, the Bank of Oakland agreed to a loan for 
DBOC that was not required to be paid off until 2015.
    For supporting documentation, please see 1996 letter from NPS 
Neubacher to the Bank of Oakland supporting the oyster farm expansion 
plan, Excerpts from the 1980 PRNS General Management Plan regarding 
mariculture in the Seashore, 1998 Environmental Assessment (EA), 
Finding of No Significant Impact (FONSI) for oyster farm expansion 
plan--[These documents have been submitted for the record and are being 
retained in the Committee's official files.]

    2b. Would you have gotten the loan and invested approximately 
$750,000 in the Oyster Farm if you did not have some assurance that 
your lease would be extended beyond 2012? Please specify from whom the 
assurance or assurances came and what they were.

    Answer. DBOC would not have taken the risk to borrow and invest 
more money than we could pay back before the lease expired without 
certain assurances. Furthermore, we would not have invested the time 
and energy to clean up the site and rebuild the business without the 
likelihood that the use could continue beyond 2012. DBOC had all the 
same assurances that the Bank of Oakland had before it risked approving 
a long-term loan that would extend beyond the renewal date. We also had 
other assurances. We have lived and worked on the Pt. Reyes peninsula 
since long before it became a unit of the Park Service. We supported 
the creation of the seashore because we were told that our way of 
life--farming and ranching--would be protected. We knew that all other 
ranching and farming reservations of use and occupancy were extended by 
special use permits (SUP) upon expiration. We knew that the 
congressional sponsors of the Pt. Reyes Wilderness Act both said that 
the oyster farm should continue operations in the wilderness area as a 
pre-existing use. We knew the PRNS Superintendent and knew that he 
supported the long-term continuation of the oyster farm as demonstrated 
by his full support of the complete replacement of the oyster farm 
building complex only a few years prior. I was personally told by the 
Superintendent that he would be happy if we (DBOC) took over 
operations. PRNS chose to approve the sale of JOC to DBOC instead of 
choosing to exercise its first right of refusal to purchase the balance 
of the leasehold interest from JOC, if JOC decided to sell, as allowed 
for in the RUO. If the Park Service actually planned to force the 
closure of the shellfish farm in Drakes Estero, it would reasonably 
have exercised this right to purchase the leasehold interest from JOC 
and wind down operations. This gave us further assurance. In 2004, the 
California Fish and Game Commission (CFGC) renewed the Drakes Estero 
shellfish lease for 25 years. CFGC had full authority over operations 
in Drakes Estero and the Park Service RUO was limited only to the 
upland area where the buildings are situated--3 acres in total. Last, 
in 2004, before purchasing the oyster farm, the Lunny family retained 
the services of the law firm Baker & McKenzie to review all of the 
above mentioned documents. Baker & McKenzie concluded that there was no 
reason that the oyster farm would not be granted an SUP in 2012. The 
renewal clause, the enabling legislation, the Point Reyes Wilderness 
Act, the seashore GMP, the administrative record showing that all other 
agricultural operations within PRNS were issued SUPs at the time that 
the RUOs expired. There was no reason to believe that this agricultural 
permit for the 3 acres within the pastoral zone would be treated 
differently than the others. We feel that we did responsible due 
diligence so as not to put our family in harm's way.
    For supporting documentation, please see 2011 letter from 
McCloskey, Burton, and Bagley in support of the continuation of the 
oyster farm and discussing congressional intent--[This document has 
been submitted for the record and is being retained in the Committee's 
official files.]

    2c. Did anyone with the Federal Government give you any reason to 
believe that the lease would not be extended beyond 2012? If so, who 
was the person?

    Answer. Before our family purchased the Drakes Estero oyster farm, 
I met with the PRNS Superintendent Don Neubacher several times. I 
explained our plans for upgrading and continuing oyster operations in a 
more sustainable manner at Drakes Estero, to which Superintendent 
Neubacher responded that we were the answer to his prayers.
    Superintendent Neubacher told us at the time of our purchase that, 
like any lease, the oyster farm lease would need to be renewed at the 
end of the current term. He could not guarantee that renewal, although 
a specific renewal clause existed in the lease and customary practice 
at the Seashore is to renew. Every Federal land use lease expires and 
must be renewed--and this lease was no different. With the assistance 
of the Superintendent, a renewal clause in place, and assurances from 
the Superintendent that it would be treated like any other agricultural 
lease at Point Reyes, we proceeded.
    A few months after DBOC began operations, spending hundreds of 
thousands of dollars to clean up the site and plant oysters to recover 
production, Superintendent Neubacher reversed course and told DBOC that 
the Park Service could not renew the Reservation of Use and Occupancy 
(RUO) because Congress mandated that the estero be converted 
wilderness. No record of such a requirement exists in the enabling 
legislation, legislative history, or subsequent administrative history 
for Point Reyes. Furthermore, as found in the Congressional Record, 
even if converted to full wilderness, the oyster farm was to stay as a 
pre-existing use. (See above referenced 2011 letter from California 
legislators McCloskey, Burton, and Bagley discussing congressional 
intent and pre-existing use intentions.)

    Question 3. The Park Service went above and beyond to portray you 
as a bad steward of the environment. Now that they have closed the 
oyster farm, have the attacks continued?

    Answer. Yes, the Park Service attacks on DBOC and the Lunny family 
have continued following our eviction. Despite complying with the terms 
of our settlement, which stipulated that the Park Service would 
spearhead the removal of our remaining infrastructure from Drakes 
Estero (at their insistence), Park Service staff have repeatedly spoken 
to the press in the months since our departure about the condition of 
the Estero and inferred that DBOC somehow didn't hold up its end of the 
settlement. We have seen numerous articles itemizing ``debris'' 
recovered from the Estero, or characterizing infrastructure removal as 
``cleanup'' and ``mariculture debris,'' which clearly implies that we 
were poor stewards of the Estero.
    In fact, we dramatically improved the quality and cleanliness of 
the Estero throughout our stewardship and always took great care to 
leave the Estero better than we found it. Our settlement agreement with 
the Park Service stipulated that all cleanup following the December 31 
eviction date be handled by them exclusively. It was made clear to us 
that our involvement was not wanted.
    Recent news stories in which the Park Service continues its attacks 
on us and the oyster farm, even after it has closed--[These documents 
have been submitted for the record and are being retained in the 
Committee's official files.]

    Question 4. You have no doubt become an expert on the issues 
surrounding wilderness and NEPA in particular. What would you recommend 
to this committee that could be done to bring statutory fairness to 
NEPA?

    Answer. In our experience, NEPA was not used to inform public 
officials, but rather to drive a predetermined outcome. As structured, 
NEPA can be exploited by any agency willing to engage in such 
misconduct. NEPA, as it currently exists, creates opportunities for 
administrative abuse by agencies, the DBOC situation being a prime 
example. The Department of Interior enjoyed broad leeway to prosecute 
their agenda and drive us off our farm.

    As referenced elsewhere in my testimony, every aspect of the NEPA 
process at Drakes Estero was tainted or manipulated to the Government's 
advantage, including:

    <bullet> improper handling and characterization of draft EIS public 
            comments and arbitrary exclusion of over 7,000 comments in 
            support of the oyster farm,

    <bullet> establishment of two environmental baselines, in violation 
            of basic scientific principles,

    <bullet> exclusion of valid data and alteration of independent 
            scientific findings,

    <bullet> submission and use of false and mislabeled data in order 
            to overstate oyster farm impacts, and

    <bullet> failure to complete the NEPA process, publish the Final 
            EIS, seek mandatory fEIS public comments, submit fEIS to 
            EPA, or even provide a copy of the final EIS to the Lunnys.

    Having failed in all of the above areas of NEPA implementation, 
Interior and the Park Service even failed to adhere to their own 
regulations for abandoning a NEPA process, and insisted in Federal 
court that the document was a ``valid EIS.''

    Our petition to the Supreme Court to review the Ninth Circuit 
decision in DBOC v. Jewell sets out two significant jurisdictional 
issues that arise under NEPA that Congress could easily cure:

      (1) Whether Federal courts lack jurisdiction under the 
Administrative Procedure Act to review an agency action that is 
arbitrary and capricious or an abuse of discretion when the statute 
authorizing the action does not impose specific requirements governing 
the exercise of discretion; and

      (2) Whether Federal agencies can evade review of their actions 
under NEPA by designating their actions as `conservation efforts' when 
the record shows that the action will cause significant adverse 
environmental effects.
    Because of the asserted lack of jurisdiction under the APA, the 
majority in our case could not evaluate whether, as the dissent 
concluded, the agency had relied on factors Congress did not intend the 
agency to consider and had misinterpreted the law on which it relied. 
According to our attorneys, nine circuits have split five ways on this 
jurisdiction issue. The courts are also split on the environmental-
review issue.
    Congress could improve NEPA by amending it to ensure that Federal 
court review under the APA is not limited when considering whether 
agency action is arbitrary, capricious or an abuse of discretion. 
Equally important, NEPA could be amended to make it clear that agencies 
cannot avoid environmental review of actions under NEPA simply by 
designating an action as a `conservation effort.' The cynical use of 
this phrase by Federal agencies undermines the value of and public 
confidence in NEPA. There should be little if any opposition to curing 
these procedural deficiencies in NEPA as interpreted by Federal courts.
    For supporting documentation, please see DBOC petition to the 
Supreme Court more fully discussing these issues--[This document has 
been submitted for the record and is being retained in the Committee's 
official files.]

    Question 5. Was there anything discussed during the hearing that 
you felt you were not given ample time to elaborate on or properly 
address?

    Answer. It was asserted repeatedly during the hearing that the 
various investigations and reviews of the NEPA process (and general 
Park Service conduct at Point Reyes) found no wrongdoing. This is 
simply not the case. In fact, the Department of Interior's Inspector 
General and Solicitor, as well as the National Academy of Sciences all 
cited substantial misrepresentation and misconduct in violation of 
DOI's ethics policies by the Park Service in their reviews, as 
evidenced by Rep. Huffman's concession during the hearing that the case 
against DBOC had been ``overstated'' by the Park Service and that the 
Lunnys had been treated ``unfairly.'' The fact that these various 
reviews found wrongdoing yet took no action speaks more to a flawed 
internal review mechanism than it does to the facts of this particular 
case.
    For supporting documentation, please see list of relevant citations 
and findings of wrongdoing contained in the various reviews and 
investigations--[These documents have been submitted for the record and 
are being retained in the Committee's official files.]

                                 ______
                                 

    Mr. Gohmert. Thank you, Mr. Lunny.
    At this time normally, as Chair, I would begin the 
questioning. But I am going to be here until the end of the 
hearing, so I know we have some people that are in markups 
voting in committee. So let me start by recognizing Mrs. 
Radewagen for 5 minutes.
    And before she starts, let me say what I should have said 
at the very beginning. We had votes, and I am so sorry. I do 
not like to start a hearing that is not promptly on time. But 
this is Washington, and we find out it runs a little 
differently than some places.
    I really appreciate, not just the witnesses but those that 
came for the hearing, I appreciate your indulgence, and we sure 
want to start closer to on time, but I do not control the 
votes. So thank you for your indulgence.
    Mrs. Radewagen.
    Mrs. Radewagen. Thank you. I want to thank you, Mr. 
Chairman and Ranking Member Dingell, for holding this important 
hearing today to examine the consequences of inserting 
political views into the science that formulates policy. Thanks 
also to the witnesses for being here. As legislators, it is our 
job to write laws and implement policy. It is that simple.
    When outside influences, whether they be political action 
groups from the right or left or even foreign nations, insert 
themselves into one process, it often becomes detrimental. And 
when these outside influences start to have sway in the science 
that drives our decision, the impact can be far-reaching, often 
beyond the issue of the moment.
    In my home district of American Samoa, we rely heavily upon 
fishing for our economic well-being and the continued 
livelihood of the people. Later this afternoon, the full 
committee will be conducting opening statements for a markup on 
several bills that will address our Nation's fishing policies, 
including Chairman Young's Magnuson-Stevens reauthorization 
bill.
    I mention this because in that bill, of which I am an 
original co-sponsor, we aim to address this exact issue. As we 
all know, NOAA is the agency that provides oversight for our 
Nation's fisheries. We also know that it is no secret that NOAA 
is often influenced by the large environmental lobbies that 
have no personal stake in the region when formulating the 
``science'' that will be used to set policy for the Nation's 
fisheries.
    This often leads to questionable findings, which are then 
used to smother industry. It is common knowledge that the best 
stewards of the environment are most often those who utilize it 
for their livelihood. After all, would any fisherman who counts 
on a steady and reliable catch want to deplete the resource 
that their family relies upon? Would a farmer continuously 
plant crops in the same field year after year, thereby 
depleting the soil, simply for a larger profit for just 1 year?
    While I am sure that these things do happen, it certainly 
is not the norm. No, these people care for their land and the 
waters that provide their income, certainly much more so than a 
lobbyist in Washington. So why is it that they have no say in 
how these resources are regulated?
    This is just one reason that I am an original co-sponsor of 
the Chairman's bill. It will provide greater input from the 
local people who use these resources when formulating the data 
that sets policy, not an environmental lobby with an agenda 
that has no concern for those people or their continued 
economic well-being.
    Mr. Chairman, as the only member of this subcommittee from 
the islands, I would be happy to take special responsibility 
for watching over the DOI Office of Insular Affairs and the 
island governments for which this committee has jurisdiction.
    I want to thank Chairman Gohmert and Ranking Member Dingell 
once again for holding this hearing on a subject that impacts 
policy making across nearly every agency, and I look forward to 
hearing from the panel on how, we have just heard, they have 
been affected by this dangerous and misleading practice.
    Thank you, Mr. Chairman. I yield back.
    Mr. Gohmert. Thank you. Since you are the one 
representative on the committee from the islands, should you 
see a need for a hearing on oversight on any aspect of that, we 
certainly want to cooperate in any way because of your special 
position. So thank you.
    At this time we are going to recognize the Ranking Member, 
Mrs. Dingell, for 5 minutes.
    Mrs. Dingell. Thank you, Mr. Chairman. As I said in my 
opening statement, this is a very important hearing topic, and 
there are a number of critical issues to discuss. One thing I 
would like to focus on is the statement that was made by some 
of my friends on the other side of the aisle, that government-
funded science is somehow tainted or often manipulated for 
predetermined purposes.
    Yet the record demonstrates just the opposite. Government-
funded research creates jobs throughout the country and has led 
to countless breakthroughs, such as the Apollo program and the 
theory of plate tectonics.
    Dr. Oreskes, can you discuss existing mechanisms and 
methods that are used to detect and correct errors in 
government-funded science?
    Dr. Oreskes. Yes. Absolutely. Thank you for that question.
    Government-funded science works in many respects the exact 
same way that any other science works, privately funded, which 
is through the peer review process. Every Federal agency that 
has scientific work has a mechanism for internal peer review. 
In fact, I would argue that in most agencies the peer review is 
actually more stringent than it is in academic science, because 
there are actually two levels of peer review.
    Because typically, in an agency like NOAA, NASA, the U.S. 
Geological Survey, or the Weather Service, there is internal 
review of the scientific reports first. Then if they are 
published in external peer-reviewed journals, there will be a 
second level of review as well.
    In addition, there is a third mechanism available, and it 
is one that has been used by people here at this table today, 
which is National Academy of Sciences review. The issue that 
Mr. Lunny has raised, in fact, was reviewed for a third time by 
the National Academy of Sciences, and unfortunately these 
materials were not made available to me before this committee.
    But I have had a chance to read the executive summary. One 
of the interesting things about this report is that they do 
point out some errors that they do think were made in some 
earlier work, but they also say that those errors were 
corrected. They also point out that the question of whether or 
not mariculture should continue in this case is essentially not 
a scientific question, but a social, political, and economic 
one.
    Mrs. Dingell. Thank you. I want to sort of build on what 
you just said and ask you, are there differences in the way 
peer review works in the context of government science versus 
nongovernment science?
    Dr. Oreskes. Well, there can be differences in some cases, 
and the different agencies sometimes have differences. As an 
historian who has studied this, I would say the chief 
difference is that the peer review in Federal agencies is 
actually more expansive, more capacious, hears from more 
different voices, including members of the community, state, 
and local agencies.
    Industry representatives are often heard, almost always 
heard, in Federal reviews in a way that they would not 
necessarily be heard in academic life. So actually, the Federal 
Government agency review is broader, more capacious, more open, 
and I would say actually much more responsive to the needs of 
the American people than would be the case if academics were 
undertaking that work.
    Mrs. Dingell. Thank you, Doctor.
    Mr. Chairman, I have a number of unanimous consent requests 
of information we would just like to have put in the record. I 
do not know if you want to do that at the end of the hearing, 
if I should do it now, how you would like to----
    Mr. Gohmert. We can wait until the end of the hearing so it 
does not take your time. Just whatever you want to do.
    Mrs. Dingell. OK. Then I am going to yield back.
    Mr. Gohmert. Well, if you are yielding back, we could go 
ahead and do it now.
    Mrs. Dingell. All right. I will start. Mr. Chairman, I 
would like to request unanimous consent to enter into the 
record documents pertaining to the assertion that the Houston 
toad protective action caused a slowdown in the hazardous tree 
removal after January 2012. It is a FEMA letter.
    Mr. Gohmert. Oh, OK. The FEMA letter will be accepted into 
evidence without objection.
    Mrs. Dingell. Thank you, Mr. Chairman. I ask for unanimous 
consent to enter into the record an April 2013 letter from the 
Texas Department of Public Safety showing the scope of work was 
significantly expanded, which would also cause major delays.
    Mr. Gohmert. Without objection.
    Mrs. Dingell. I ask for unanimous consent to enter into the 
record a statement by renowned biologist Dr. Michael Forstner, 
who was one of the biologists on the ground during the Bastrop 
recovery efforts, and who details the logistical coordination 
and inefficiency problems by the contractors that caused him to 
sometimes wait for the contractors instead of the other way 
around.
    Mr. Gohmert. Without objection, so ordered.
    Mrs. Dingell. I ask for unanimous consent to enter into the 
record the minutes of the Bastrop Wildfire interagency meeting 
on September 13, 2011, in which the Fish and Wildlife Service 
made it clear to all the agencies in attendance that the ESA 
should not prevent the protection of homes, lives, and 
property; and that they could not legally require anything more 
stringent than measures outlined in the community-negotiated 
habitat conservation plan.
    Mr. Gohmert. Without objection, so ordered.
    Mrs. Dingell. And I think we can go to the next after the 
next round.
    Mr. Gohmert. All right. At this time I will recognize the 
gentleman from West Virginia, Mr. Mooney, for 5 minutes.
    Mr. Mooney. Thank you, Mr. Chairman. I just have a couple 
questions for Mr. Lunny about his testimony and some followup 
as to what you said. I appreciate your coming, and it is 
important that we heard from you about what happened, and 
certainly share your concerns.
    I know you mentioned in your testimony that the National 
Park Service has turned its attention to attacking the ranchers 
at Point Reyes National Seashore. How is the Park Service's 
management of the elk impacting ranches?
    Mr. Lunny. In 1998, there was an elk management plan, which 
directed the Park Service--one of the alternatives in that plan 
and the NEPA process was to allow the elk to roam on the 
pastoral zone where the ranches are. That alternative was 
rejected.
    The alternative selected in the process says that they are 
to be moved to an 18,000-acre elk range, which is found in a 
wilderness area, and that they would not affect other permitted 
uses within the Seashore. The Park Service actually managed it 
that way for a couple of years.
    Now, since about 2002, the elk have been reproducing on the 
pastoral zone, causing very, very serious adverse effects to 
the ranchers, and to the other permitted uses. We have been 
unsuccessful in working with the Seashore to actually bring 
them to remove the elk, as allowed for in the plan.
    So, there is a new environmental process that has been 
initiated by the Park Service, an environmental assessment, to 
look into this. Our concern is that it is the same people, the 
same scientists, the same staff, who very much abused the NEPA 
process with the oyster farm.
    Mr. Mooney. Thank you for that. As followup, are there any 
other examples of the National Environmental Policy Act abuse 
at Point Reyes?
    Mr. Lunny. There are. There are other abuses, in two ways. 
For example, we do not believe the National Environmental 
Policy Act really required an EIS in the first place for the 
oyster farm. Our request to the Secretary of the Department of 
the Interior was to renew our existing use, a use that had been 
going on for 80 years. There would be, to our understanding, no 
change in the effect to the human environment. So, we do not 
know what triggered that.
    The same thing is true with the ranch environmental 
assessment right now. The ranchers have asked to continue their 
way of life, the same activity that pre-existed the park by 
over a hundred years. We want to continue farming. Now we are 
faced with another process that has every potential of harming 
our way of life.
    Another way that the Park Service has abused the National 
Environmental Policy Act is to act without review. One of our 
neighbors, one of our ranch neighbors, was kicked out of their 
ranch within the pastoral zone, a zone set aside by Congress to 
allow grazing and to allow our way of life. That is the 
cultural resource Congress asked the Park Service to preserve.
    That ranch was kicked out. They renamed it a ``natural 
area.'' They have allowed the elk to proliferate there, right 
in the middle of all the ranch lands, which is now spreading to 
the other ranches. This absolute, complete change of use was 
done with no review and no public input. It was done by the 
Park Service unilaterally.
    Mr. Mooney. Thank you. I know after what you have been 
through, it was a lot of effort to come down here and testify. 
But it is really important that you bring this to our 
attention, so I appreciate you and the other panel experts for 
coming down here and sharing your stories with us.
    I yield back my time, Mr. Chairman.
    Mr. Gohmert. The gentleman has yielded back.
    At this time apparently we have a procedural vote, but I 
would like to continue for a bit further. So, I recognize the 
Full Committee Ranking Member, Mr. Grijalva, for 5 minutes.
    Mr. Grijalva. Mr. Chairman, with your indulgence, if 
sitting members of this committee--I am a visitor--if they 
could go first, that would be fine with me, sir. Thank you.
    Mr. Gohmert. Fine. Then Mr. Huffman, you are recognized for 
5 minutes.
    Mr. Huffman. Thank you, Mr. Chairman and Mr. Ranking 
Member, and thanks to the witnesses. I especially want to 
welcome my constituent, Kevin Lunny, and your wife, Nancy. It 
is good to see you both. Welcome to the Capital.
    I want to say a few words, Mr. Chairman, about the nature 
of this hearing, and then I will talk about the oyster lease 
conflict that for several years has deeply divided the West 
Marin community that I represent.
    First, Mr. Chairman, this hearing purports to be about 
ensuring scientific accountability and accuracy. I have to say 
that is a tough sell, given the Majority party's consistent 
record of attacking government science, of underfunding science 
and research; and frankly, of flouting science, especially when 
it comes to our climate and our environment.
    Just a few months ago, my Republican colleagues jammed 
through a bill aimed at making it harder to list species under 
the Endangered Species Act. That bill would require that any 
information transmitted by industry in opposition to a species 
listing by law would have to be considered ``best available 
science.'' That is how much concern for accountability and 
scientific accuracy we have at this committee and in this body.
    Meanwhile, when it comes to actual science, specifically 
the overwhelming consensus of the world's scientists on the 
causes and effects of global climate change, my friends across 
the aisle simply dismiss it as a liberal hoax.
    Meanwhile, we continue to have these so-called oversight 
hearings where Federal agencies are attacked and accused of all 
manner of misconduct without even giving them the courtesy to 
appear and tell their side of the story. Last week, it was an 
attack on management of our national forests. The Obama 
administration was accused of choosing to let the West burn 
because they do not want to allow timber harvest, but the 
Forest Service was not even allowed to appear and testify and 
tell their side of the story. Today the Majority is again 
leveling harsh accusations against Federal officials without 
giving them the chance to defend themselves.
    Now, you may not agree with the Department of the 
Interior's decision regarding Mr. Lunny's oyster lease. A lot 
of my constituents disagreed with it. But when you set up a 
hearing to accuse Federal officials of fabrication, fraud, and 
scientific misconduct, basic fairness requires that you at 
least give them a chance to tell their side of the story. And 
whether you like it or not, they would tell you a different 
side of the story.
    They would point out that the allegations of fraud and 
deception were investigated by the Department of the Interior's 
Inspector General, who found, and I quote, ``no evidence, 
documents, EIS revisions, or witnesses that supported these 
allegations.'' They were rejected by the Administration's 
Scientific Integrity Office.
    The National Academy of Sciences, through their peer 
reviews, did not always agree with every aspect of the National 
Park Service science, but the NAS did not find fraud or 
deception. And in the end, they actually agreed with the Park 
Service's main scientific findings. So did the U.S. Marine 
Mammal Commission, and when this issue was presented as part of 
the litigation, so did the courts all the way up to the Supreme 
Court of the United States.
    So clearly, we have a case where there were debates. There 
were disputes about the science. That is the way science works. 
But we have to acknowledge that Secretary Salazar's decision to 
exercise his authority in favor of wilderness, whether you 
agree with it or not on a policy level, has been upheld. It is 
final. And the allegations that the Park Service engaged in 
fraud and misconduct have consistently been rejected by other 
agencies, investigators, the National Academy of Sciences, and 
the courts.
    Now, in West Marin, we are trying to move on. We are trying 
to rebuild a relationship of trust and collaboration between 
the National Park Service, the ranchers, the dairymen, and the 
environmental community. Most people do not want the divisive 
oyster dispute to poison what has historically been a 
harmonious relationship among these groups. There is a very 
important ranch management planning process underway. It has 
been referenced.
    The whole point is to provide certainty and a better 
working relationship with the Park Service for the dairies and 
ranches in the Seashore, including long-term leases, to ensure 
that these historic agricultural uses continue in perpetuity as 
part of our unique heritage.
    It is going to be good for the Lunnys. It is going to be 
good for everyone else on the Seashore. I am committed to it. 
The Park Service is committed to it. The ranchers and 
environmentalists I am working with are committed to it. And 
they are starting to talk to each other, understand each other, 
and repair relationships that were badly strained, or even 
broken, by the oyster issue.
    So it is not helpful when this committee re-litigates old 
allegations about National Park Service scientific misconduct 
in the oyster matter as another partisan attempt to attack the 
Obama administration. I do not think this hearing is in the 
best interests of my constituents, including Mr. Lunny.
    I hope that the real story that comes out of today is the 
fact that we are beginning to move on and starting to work 
together again in West Marin for the benefit of our great 
sustainable agriculture and our environment; and how both of 
these values, we hope, will be part of the Point Reyes National 
Seashore experience for many generations to come.
    I yield back, Mr. Chairman.
    Mr. Gohmert. Thank you. Just so there is no question, when 
you say this hearing is not in the best interests of Mr. Lunny, 
that is not any kind of veiled threat, is it? Right?
    Mr. Huffman. Not at all, no. I think my point, and I have 
had this conversation with Mr. Lunny, is that he is one of 
those ranchers, all of whom need to start building a better and 
more trusting relationship with the Park Service and with their 
neighbors. We have to put this divisive dispute behind us, 
especially since it has already been litigated all the way to 
the Supreme Court. It is time for everyone to move on.
    Mr. Gohmert. All right. I understand that we have just 7 
minutes to get over there and vote, and then we will come right 
back. I am so sorry for the temporary recess. But let's be 
recessed for 10 minutes and then--well, we can get over there 
in 2 minutes; so let's go ahead and do questioning by Mr. 
Labrador at this time.
    Mr. Labrador. I am glad that I have this opportunity to 
follow Mr. Huffman, because this is such a partisan issue that 
I am going to read a letter that was written by a very partisan 
person.

        ``The Park Service's latest falsification of science at 
        Point Reyes National Seashore is the straw that breaks 
        the camel's back.

        The Park Service presented charts of noise measurements 
        in its draft environmental impact statement that appear 
        to irrefutably establish that oyster boats at Drakes 
        Bay disturb the pastoral quiet of the nearby 
        wilderness.

        Here is the problem: the noise did not come from oyster 
        boats, nor did it come from anywhere near Drakes Estero 
        or Point Reyes National Seashore. Amazingly, the 
        decibel recordings the Park Service attributed to 
        Drakes Bay oyster boats came from jet skis in New 
        Jersey 17 years ago.

        I am frankly stunned that after all the controversy 
        over past abuse of science on this issue, Park Service 
        employees would feel emboldened to once again fabricate 
        the science in building a case against the oyster farm. 
        I can only attribute this conduct to an unwavering bias 
        against the oyster farm and historic ranches.

        My attention was drawn to the Seashore when I fought to 
        extend local ranching leases from 5 to 10 years so 
        there would be sufficient investment and time for the 
        farmers . . .

        The Park Service has falsified and misrepresented data, 
        hidden science, and even promoted employees who knew 
        about the falsehoods, all in an effort to advance a 
        predetermined outcome against the oyster farm.''

    I am not going to finish the letter, but I move to enter 
this letter into the record. It is signed, ``Sincerely, Dianne 
Feinstein, United States Senator,'' because you know she is a 
strong Republican and a strong partisan on our side on these 
issues.
    Mr. Huffman. Would the gentleman yield?
    Mr. Labrador. I will not.
    Mr. Gohmert. Without objection, so ordered.
    Mr. Labrador. So Mr. Lunny, you characterized NEPA as a 
weapon. What did you mean by that?
    Mr. Lunny. These allegations of harm, harm to harbor seals, 
an 80 percent decline was charged. This noise that you brought 
up, during the draft we corrected the Park Service. We provided 
them with actual noise data from engineers. We showed them in 
their policies where they have to measure it themselves. They 
cannot go to the literature because their rules do not allow 
it. What did they do in what they called the final that was 
never finalized? They did the same thing.
    Mr. Labrador. Now, Mr. Huffman said that this was litigated 
all the way up to the Supreme Court. Did the Supreme Court make 
a decision on the merits of your case?
    Mr. Lunny. This issue was not litigated in the courts. What 
we asked for in the courts was a preliminary injunction that 
would allow us to stay open, so the merits of the lawsuit could 
be heard.
    Mr. Labrador. So the preliminary injunction was rejected, 
correct, by the courts?
    Mr. Lunny. That is correct.
    Mr. Labrador. But the merits of your case were not 
adjudicated either way?
    Mr. Lunny. That is correct.
    Mr. Labrador. OK. Are you worried about any negative 
consequences resulting from your appearance here today?
    Mr. Lunny. Just as Mr. Huffman mentioned, there could be 
consequences. We are terrified. Ranchers that are sitting 
behind me are terrified, because we are challenging the Park 
Service very seriously. They did lie. They did falsify science, 
and they used that science in the courts after we----
    Mr. Labrador. Apparently very partisan people like Dianne 
Feinstein agreed with you that they lied and they falsified 
information. Correct?
    Mr. Lunny. Those are her words.
    Mr. Labrador. One of my favorite quotes is by Thomas 
Jefferson. He said, ``When the people fear their government, 
there is tyranny. When the government fears the people, there 
is liberty.'' Do you feel that there is liberty or tyranny in 
the way that you have been treated by the Federal Government?
    Mr. Lunny. We are terrified.
    Mr. Labrador. You have paid a heavy price in the battle to 
keep your farm. Why was it so important for you to keep 
fighting for your farm?
    Mr. Lunny. We see this as a much bigger issue. This is not 
about the Lunny family. This is about 50,000 visitors a year 
who use this destination with their families and love it. It is 
about sustainable agriculture in Marin County, California. That 
is ground zero for good stewardship and sustainability. This is 
in the middle of the working landscapes.
    What happens here at the oyster farm, regardless what 
anybody else feels, actions speak louder than words. If the 
Park Service was successful in evicting the oyster farm, we 
have grave concern about what might follow. So we had an 
enormous--we were told by Mr. Huffman's staff that 90 percent 
of his constituency supported the oyster farm, in her opinion.
    Mr. Labrador. Has anybody ever apologized to you for the 
falsified information?
    Mr. Lunny. No one has apologized. Some of it has been 
recognized, and yet the record has not been corrected.
    Mr. Labrador. Thank you very much.
    Mr. Gohmert. The time of the gentleman has expired. We will 
be in recess for 10 minutes.
    [Recess.]
    Mr. Gohmert. Thank you for your patience. We will resume 
the hearing. All four of our witnesses are here. I will take my 
5 minutes at this time, I recognize myself for 5 minutes.
    Mr. Lunny, we were talking about your situation when we 
left. Was there anything else you wanted to point out about 
your oyster farm, or the use of it being ended by the National 
Park Service?
    Mr. Lunny. Well, there is a whole chapter that could be 
told about the damage and the harm done by the loss of the 
oyster farm. It is interesting we are in the Natural Resources 
Committee hearing this, because there is a huge body of science 
that supports our industry and our activity throughout the 
Nation. We are spending money everywhere else. The Federal 
Government is spending money to encourage aquaculture in the 
Chesapeake, in the Gulf, and in the Pacific Northwest.
    Mr. Gohmert. But I was curious if you had something 
specifically about your situation you did not finish speaking 
about before we had to take off. But I will give you a chance 
to think on that.
    Let me jump back to the whooping crane situation. I am a 
little concerned about that. We have heard that there is good 
science being used by the Government, and yet I am intrigued. 
What was the basis? We hear it is all about science and 
scientific study. So what was the reason for the Park Service 
saying there were 23 birds, whooping cranes, missing, Mrs. 
Hartnett White?
    Mrs. Hartnett White. I would be happy to explain. The local 
wildlife biologist at Aransas National Wildlife Refuge at the 
base of the Guadalupe River Basin was in charge of making 
annual counts of individual cranes. Those population counts, 
called a census survey, a variety of things, are a critical 
component of all kinds of Endangered Species Act 
implementation.
    On the basis of the methodology that he used there, he came 
up with that number. Among other things, any birds missing from 
areas he had seen them in before, they were presumed dead.
    As I said, very soon after those facts--that he claimed 23 
birds missing, therefore dead--the Fish and Wildlife Service 
issued a report very critical, abandoned the methodology, 
called it, as I said, untenable and indefensible, and then 
later have articulated actually a much more robust protocol 
that I think everyone agrees with it.
    But the facts in the case, and also that the judge 
considered the core facts for her ruling against the state of 
Texas, were based on this very weak methodology for counting 
whooping cranes there. The Fish and Wildlife Service, who was, 
oddly, never a part of this trial--they could have intervened 
at the beginning, or they could have tried to introduce that 
opinion of a locally used methodology. But they did not, so 
those facts----
    Mr. Gohmert. Do you have any idea how long they have been 
using that ridiculous methodology?
    Mrs. Hartnett White. I do not. But those facts will remain 
the key facts in the record if the Supreme Court uses it. I 
would like to think, if the system worked right, if in fact the 
Regional Office or the Headquarters Office of Fish and Wildlife 
Service has decided that a certain methodology is indefensible 
and replaces it, somehow the system could absorb that.
    Mr. Gohmert. It is still broken.
    Well, let me ask one other matter of Commissioner Beckett. 
And also, I have a couple of counties--one of the county judges 
was saying there are two weeds that they have been told were 
going to be listed as threatened, and they had scientific 
evidence.
    A road was put through there, and it is a threatened 
species. They went through and showed, as I understand it, 
pictures of these weeds being all over the place. And they 
said, ``All you are doing is going through showing they are 
everywhere. We actually have a scientific study that trumps 
your having people out there showing that they are everywhere, 
so you lose. It is threatened.''
    But let me ask, what was the meeting that changed FEMA's 
tune? They had initially sent letters saying to Fish and 
Wildlife that there was no effect, and then that turned around 
after a meeting. And you may finish by answering the question.
    Ms. Beckett. I believe that the meeting was called out of 
concern over the fact that we were coming onto the heels of the 
breeding season of the Houston toad. It was the belief of staff 
at U.S. Fish and Wildlife Service, as well as Dr. Forstner, who 
was mentioned earlier, that significant additional measures 
needed to be taken to protect the toad moving forward.
    And I do not doubt that that was necessary. The problem is, 
if at the end of the day the U.S. Fish and Wildlife Service 
determines that you must do XYZ, whatever it is, that is what 
you have to do. You have no other choice. There is no 
consideration for how that affects or could potentially affect 
human life in a disaster.
    Mr. Gohmert. Thank you for your answer.
    At this time we have done one round of questioning, and in 
talking with the Ranking Member here, we will do a second 
round. So do you wish to be recognized again for 5 minutes? Mr. 
Grijalva, you are recognized for 5 minutes.
    Mr. Grijalva. Thank you, Mr. Chairman. Thank you, Madam 
Ranking Member. Some really quick questions. But first, if I 
may, a unanimous consent request, Mr. Chairman. I ask unanimous 
consent to enter in the record two copies of the same letter, 
one in English and one in Spanish, from Carlos Porrata, a 
retired Ranger from California Parks and Recreation Department, 
who presents another side of the Drakes Bay Oyster Company 
story, how it treats its workers, and in particular, its Latino 
workers. I would pass that on for the record. Thank you.
    Mr. Gohmert. Does the gentleman yield back?
    Mr. Grijalva. No. If there is no objection, I am fine with 
it, thank you.
    Mr. Gohmert. OK. Without objection.
    Mr. Grijalva. Let me proceed, if I may, Mr. Chairman.
    Mrs. Hartnett White, I want to ask you quickly about some 
stuff. I want to ask about your climate change work. You have 
written that climate change is real but not caused by humans. 
Is that a correct summary of your position?
    Mrs. Hartnett White. That is not how I would express my 
opinion about the issue. I tried to say at the conclusion of my 
earlier oral testimony that I think that as the impacts of 
certain policy decisions or regulatory decisions that Congress 
makes, as the magnitude of those get greater or bigger, I think 
the elimination of fossil fuels as rapidly as possible would 
have enormous impacts across the world.
    But the science that supports the need to do that has to be 
extremely robust. I think that the current state of climate 
science is not strong enough, nor are the key models validated, 
in order to support policy of that magnitude.
    Mr. Grijalva. You stated that you are not a scientist 
yourself. So whose opinions do you rely on primarily when 
coming to that particular view, given the fact in the last 50 
years we have a preponderance of science that says that--
virtually all of them agree that most warming over the past 50 
years is due to human activities.
    Mrs. Hartnett White. I try to, however imperfectly, for the 
past 30 years and to the extent of which I am capable, have 
continual input from all sides of this issue. I think that the 
empirical method is a jewel of Western civilization, whereby a 
hypothesis or theory must be confirmed by measured physical 
evidence, and that is not the way science by consensus 
operates.
    Mr. Grijalva. Well, science by consensus, I do not know 
what that means. But I would suggest that empirical science, 
objective science, needs to be the cornerstone of any decisions 
that Members of Congress make relative to issues as delicate 
and as far-reaching as something dealing with issues of 
drought, issues of warming, change in our climate--particularly 
where I live, in the arid Southwest, it is getting worse. So 
there has to be a basis for decisionmaking. If the basis is 
always under question, there is no basis for decisionmaking 
other than subjectivity.
    And let me ask you about your funding. The Texas Public 
Policy Foundation received from Koch-affiliated foundations 
between 2003 and 2010, how much money?
    Mrs. Hartnett White. I have no idea. There is a line drawn 
in our foundation between those engaged in policy work and 
those engaged in fundraising.
    Mr. Grijalva. So, it would surprise you to know it is 
$500,000?
    Mrs. Hartnett White. It truly would, sir. I know there are 
multiple sources of funding. For one, funding people can 
dedicate contributions to certain areas. And I know there is--
--
    Mr. Grijalva. The Donors Trust or Donors Capital Fund 
organization, who specialize in assuring that funding is not 
disclosed, particularly around the issue of climate denying, 
that came out to about $2.5 million. Do you personally receive 
any funding from for-profit sources outside your income from 
the Foundation?
    Mrs. Hartnett White. I am not quite sure I understood that 
question.
    Mr. Grijalva. Do you personally receive funding from for-
profit sources outside your Foundation income, whether that 
takes the form of grants, sponsored travel, speaker fees, or 
other options? Those payments and benefits----
    Mrs. Hartnett White. I understand. No. No. The answer is 
no.
    Mr. Grijalva. None from an affiliated fossil fuel industry?
    Mrs. Hartnett White. No.
    Mr. Grijalva. Mr. Chairman, and I have no reason to 
question the answer, but if any affirmation to that statement 
can be provided to the committee in the record, I think it 
would be very much appreciated, and we could put this little 
question to rest. And with that, I yield back.
    Mr. Huffman. Mr. Chair, if I might, I did want to object to 
entry into the record of that last letter, with great respect 
to the Ranking Member, but I really think that a letter 
questioning Mr. Lunny's treatment of his employees and implying 
that there was some mistreatment of Latino employees is of no 
relevance to the subject matter today, and is actually a good 
example of the divisiveness and vitriol that I have been trying 
to move my community past. I think it has no place in the 
record, and I object.
    Mr. Gohmert. If the objection were timely, then it would 
not have come in. But it has already been entered, so it is not 
a timely objection.
    Mr. Huffman. Well, could I ask the Ranking Member if he 
would consider withdrawing it?
    Mr. Grijalva. No, I will not. I think it is relevant. As we 
go through these things, and certainly not having the 
constituency responsibilities you do to that area, my friend, 
we have had inquiries. I have had communications with workers 
and with their representatives relative to this issue. This 
letter came in. It was germane to the overall discussion.
    Mr. Gohmert. I will take that as a no.
    Mr. Grijalva. Thank you, Mr. Chairman.
    Mr. Gohmert. Time has now expired. The gentleman from 
Georgia, Mr. Hice, is recognized for 5 minutes.
    Dr. Hice. Thank you, Mr. Chairman.
    Mr. Lunny, thank you for being here and for providing your 
testimony. I am a bit concerned that the National Park Service 
has, as you referred to, created a playbook. Could you explain 
what you mean a little bit further by a playbook, and 
specifically how that may impact cattle ranchers?
    Mr. Lunny. The playbook that I am referring to was how the 
NEPA process is initiated, and then how they actually are 
undertaken. What we saw in the original EIS was we sat down and 
we made an agreement, an agreement signed by then-Pacific West 
Regional Director, John Jarvis, that we, the most affected 
party, would have an active and meaningful seat at the table as 
we went through this process. The agreements were that we would 
know what studies would be undertaken, we would understand the 
process, and we could be as much a part of it as we could 
legally be.
    What happened was quite the opposite. We would go out there 
in our boats and there would be divers under our racks. And we 
said, ``What are you doing? '' They would say, ``Oh, we are 
here studying this and we are studying that, and we cannot talk 
to you.'' So we actually asked the Park Service, what about our 
agreement? And they said, ``Well, that is unenforceable. You 
can go to the Web site and read Citizen's Guide to NEPA and you 
can find out how you can participate.''
    So, the reason we see it repeating with the ranchers, we 
were promised that we were going to be involved at this stage 
and that stage. They have had lots and lots of meetings, and 
they will tell you, ``We have had 50 meetings with ranchers.'' 
What they did promise is we would have meaningful meetings.
    They told us that we would have a part in helping to select 
alternatives so there were not poison pills jammed into the 
alternatives, as they did in the oyster farm. They made every 
single alternative unpalatable and impossible for the oyster 
farm to survive.
    Now, when we are asking to follow through on that 
opportunity to play a part in the decisions of what those 
alternatives will look like, the Park Service has told us no. 
So we are starting to see the same things unfold----
    Dr. Hice. Please hurry with your answer. I have some more 
questions.
    Mr. Lunny. OK. So that is it.
    Dr. Hice. You also mentioned in your testimony that--you 
referred to the National Environmental Policy Act as a weapon. 
Would you further explain what you meant by that statement?
    Mr. Lunny. We believe, by the actions of the Park Service, 
that they did not need to use it in the first place for our 
permit. It could have simply been renewed. Because they 
initiated the permit, they actually put improper and incorrect 
information, stuff that was knowingly false----
    Dr. Hice. How was it a weapon? How was it a weapon?
    Mr. Lunny. It was used as a weapon by giving that to the 
decisionmaker, the Secretary of the Department of the Interior; 
and even upon our objection, gave it to the Federal courts, and 
used against us in both cases.
    Dr. Hice. All right. Last, you referred to covert cameras 
being used by the Park Service. Did the cameras capture any 
disturbance of the seal population? Just generally, was there 
anything captured on those cameras that we need to be aware of?
    Mr. Lunny. No. There was no disturbance captured. There 
were over 300,000 photos taken without our knowledge with a 
secret camera program. They showed absolutely zero 
disturbances. It was completely exculpatory data. When the 
National Academy of Sciences asked for all the information, 
they hid it. They did not give it to them. The same was true at 
the beginning of the Marine Mammal Commission study. They show 
no disturbances, and they would have solved the controversy if 
they would have allowed that to be used.
    Dr. Hice. Would the Geological Survey show the same thing?
    Mr. Lunny. The scientist chosen, the seal/mammal expert 
that was chosen to review those very same photos, found 
absolutely no disturbances by the oyster farm. Unfortunately, 
by the time it made it into the Park Service's environmental 
impact statement, it was cited as the reason that they could 
tell us there were long-term adverse effects to the harbor 
seals because of the disturbances.
    Dr. Hice. Ms. Beckett, in light of the massive fires in 
Texas in September of 2011, were you ever provided with any 
evidence or rationale that slowing down the recovery would help 
the toad population?
    Ms. Beckett. That the act of slowing it down would--no. My 
perception would be the quicker we could get to some of the 
ecological restoration projects, the better the toad would be. 
That was an assumption on my part. I am not a scientist, but I 
do not think the delay was ever intended to be of any benefit 
to the toad. It certainly was not of benefit to the citizens, 
that is for sure.
    Dr. Hice. Good point. Thank you.
    Mr. Gohmert. Thank you. The gentleman's time is expired.
    At this time we will recognize the Ranking Member, Mrs. 
Dingell.
    Mrs. Dingell. Thank you, Mr. Chairman.
    Obviously, we are really grateful to all of the witnesses 
for being here, and it clearly is a very emotional, passionate 
issue, as each of us has experienced in our own communities 
when things happen like this. I think there is a lot of good 
faith between all of the parties here, so I think both the 
Chairman and I are hopeful that we are just in an objective, 
fact-finding mission here, and that everybody understands that 
what we are trying to do is find the facts. And nobody wants 
retribution or anything like that.
    Having said that, though, your testimony--and I was up very 
late last night studying all of these issues, and they are 
important issues. But your testimony was titled, ``No 
Accountability.'' But I also read Senator Feinstein's letter 
last night and was told, Dr. Oreskes, maybe you would be the 
best person to answer this.
    There was also a National Academy of Sciences study done 
addressing the issues, the allegations, that Senator Feinstein 
brought up in her letter. I think you may have even had it 
there at the table. Could you comment on the National Academy 
of Sciences study, please?
    Dr. Oreskes. Yes, of course. So I would just like to say, 
with all due respect to Senator Feinstein, that she is not a 
scientist. And I would say that it seems that she may have 
jumped to certain conclusions in this case, a shocking thing 
that any politician would do.
    Mrs. Dingell. Let's not go there, please.
    Dr. Oreskes. OK. I am sorry. The National Academy of 
Sciences report is a very long one. It is a very detailed one, 
and they look at a lot of different things. But what they 
conclude, and I can read to you from that, they say, ``Oyster 
mariculture necessarily has ecological consequences in Drakes 
Estero, as in other lagoons and estuaries.'' And that is the 
bottom line.
    So, the whole question is then a judgment call, a value 
judgment, about whether or not those consequences are 
sufficiently minimal that one might grant an exception and 
allow this farming to continue. I am a little surprised that no 
one has pointed out, it is my understanding, that Mr. Lunny 
bought the farm knowing that the leases would expire in 2012, 
because there had already been an agreement to allow them to go 
a certain amount of time.
    The National Academy also points out that under the 
Wilderness Act, the National Park Service has a mandate to 
convert a potential wilderness to wilderness status ``as soon 
as the nonconforming activity can be removed.'' So in other 
words, the National Park Service was obeying the law under the 
Wilderness Act.
    That is the other thing I would like to add, if I am not 
out of line here. I am a little concerned to hear people 
talking about the Government overstepping and referring to 
necessary government functions. The last I understood, 
enforcing the law was a necessary government function.
    The Environmental Protection Act, the Endangered Species 
Act, the Marine Mammal Protection Act, these are the law of the 
land. These scientists are serving Government agencies in 
trying to best help those agencies understand how to enforce 
that law. These are laws that were passed by large bipartisan 
majorities of this Congress, laws that polls show the American 
people continue to support.
    Mrs. Dingell. Let me ask you a different question. You have 
written extensively about the extensive track record of casting 
doubt on science as a way to prevent the implementation of 
certain public policies. Why is casting doubt on the science of 
an issue an effective tactic? What is the effect in someone's 
mind when they read in the news that there is still a debate 
about an issue, as opposed to reading that the science is 
clear?
    Dr. Oreskes. Casting doubt is extremely effective because 
it leads to delay, and we have heard that discussed here 
already. If people--there is a lot of research that shows this, 
including industry research; the tobacco industry did extensive 
research on this in order to exploit it--if people think the 
science is uncertain, then they will think that it is premature 
to act.
    So if you want to delay action, if you want to prevent 
action, if you are manufacturing a product that is hurting 
people like tobacco and you want to continue to manufacture 
that product, then creating confusion, creating doubt, is a 
very effective way to do that.
    Mrs. Dingell. So let me ask you, if you can in an objective 
way, how can someone tell the difference between what is 
legitimate science--tobacco is a good example.
    Dr. Oreskes. It is easy.
    Mrs. Dingell. But what is it--and that has been 
manufactured. How can a consumer that is out there listening to 
all of this tell the difference?
    Dr. Oreskes. Legitimate science comes from scientists, and 
it is often in reports that are long and boring and difficult 
to read. That is part of the challenge, and that is part of why 
I think the scientific community does need to do more to 
explain more clearly, in language that people can understand, 
what results like this mean in ordinary language.
    But you look to scientists published in peer-reviewed 
journals, working in Government agencies and universities, at 
the National Academy of Sciences, peer-reviewed work, work that 
shows the data. That is where the science is.
    Mr. Gohmert. Thank you. At this time we will recognize Mr. 
Huffman for 5 minutes.
    Mr. Huffman. Thank you, Mr. Chairman. I do want to talk a 
bit more about the oyster issue. It is my district. It has been 
a huge issue in my district. Even though I do believe the 
Majority is up to no good with this hearing, I want to say that 
this constituent of mine that you have brought to Washington is 
a good and decent guy.
    I have had a lot of respect for Kevin and his family, who I 
have known for years, since before I was elected to Congress. I 
want to make it clear that I consider him an upstanding member 
of the community, a good steward. I think he is sincerely 
committed to sustainable agriculture and aquiculture.
    He and his family have certainly fought the good fight. 
They have worked tirelessly to persuade Secretary Salazar that 
their oyster lease should be extended notwithstanding Congress' 
designation of Drakes Estero as potential wilderness. When the 
Secretary chose not to extend the lease, the Lunnys vigorously 
contested that decision, as was their right; and I respected 
that.
    They have made their case at every level of government, all 
the way up to the Supreme Court of the United States. And even 
though Mr. Lunny has now signed a settlement agreement and 
vacated the oyster farm, it is clear that he still feels--that 
you still feel, Kevin, that you were wronged by the National 
Park Service and Secretary Salazar. I get that, and I respect 
that.
    I will be the first to acknowledge that Kevin was not 
always treated as fairly and respectfully as he should have 
been. In their zeal to secure the first marine wilderness on 
the West Coast, some advocates overstated the environmental 
impacts of the oyster operation. I think some people impugned 
Kevin's stewardship and his integrity.
    As the conflict escalated, I can assure you that the 
insults and poor treatment went both ways. I know that many who 
favored wilderness were accused of hating agriculture and 
wanting to get rid of all ranches and dairies in the Seashore, 
not just the oyster lease. It got very nasty and very personal. 
It strained relationships that we are still working very hard 
to put back together.
    So if you want a story, Mr. Chairman, of a good guy who 
worked hard to extend his oyster lease on public land and was 
not always treated fairly during the process, this is certainly 
that story. But if you want to tell a story of scientific fraud 
and misconduct, we just have to acknowledge that those 
allegations have been studied and reviewed and rejected at 
every level.
    Those issues, the disputes about those studies, at the end 
of the day did not even form the basis for Secretary Salazar's 
decision. He made the decision based on policy and based on 
discretion that Senator Feinstein herself gave him through a 
specific Act of Congress. It was a policy call.
    Now, most of the ranchers in Point Reyes that I talk to, 
and I believe I can fairly say most of the ranchers in the 
Seashore, have historically had pretty good relationships with 
the National Park Service. I think Kevin, going back in the 
past, would even say historically he had a decent relationship 
with the Park Service. And without exception, I think, the 
ranchers that I am working with and that I talk to want to get 
back to a good working relationship with the Park Service.
    I think we can do that. But again, I think re-litigating 
these old accusations from a matter that has been closed at a 
time when this community is really trying to move on is not 
helpful and productive. That is what I mean when I say that it 
is not in my constituents' interests and not in Kevin's 
interest.
    It is absurd to suggest that that is a threat. I do not 
have the power to threaten anyone, and I would not do it if I 
did. What I am really saying is that we have an opportunity 
here to do the right thing for agriculture and the environment 
and to restore a good working relationship with the Park 
Service. That is what I am focused on, and the tone and the 
direction of today's hearing is not helpful toward that end. I 
yield back.
    Mr. Gohmert. Thank you.
    Well, I have a couple things I wanted to address. One, our 
witness, Ms. Oreskes, has indicated in her testimony that Dana 
Rohrabacher had organized a hearing distressingly similar to 
this one. I am sorry that it is distressingly similar because 
the purpose of the hearing is to hear from real people, mammals 
called human beings, that have been harmed by the Federal 
Government.
    I understand that there are toads out there that some 
people in the scientific community that accept hearsay without 
proper foundation think, well, gee, it may work to the toad's 
advantage if we keep an environment out here that has been 
burned and destroyed and that no toad can live in--which, by 
the way, no mammal can live in.
    But I want to go back to Ms. Beckett on the issue of who 
was truly adversely affected by the delay of the Government to 
allow the rebuilding of the homes in your county.
    Ms. Beckett. I am going to answer your question, Chairman, 
but if you will allow me, the notion that the project was not 
delayed is absurd. We have data of how many trees we cut each 
day prior to the consultation and after the consultation, and 
the data is very, very plain and simple.
    The people that were most affected were the people that 
needed the help the most. Those that could afford to hire a 
contractor, a private contractor, which there were many--it did 
not entirely happen in poor neighborhoods or rich 
neighborhoods; it pretty much hit everybody--but the folks that 
could afford and did not have to wait, did not. They simply 
hired a private contractor.
    The contractor came in there, bulldozed up all the trees, 
put them in a big pile, burned them, hauled them off, whatever 
they wanted to do, because the U.S. Fish and Wildlife Service 
was not going to enforce with regard to that. It just simply 
was not going to happen. So the people that had to sit and wait 
for the help, that had no other resources----
    Mr. Gohmert. These were not rich people?
    Ms. Beckett. No, sir. These were the people--why FEMA was 
there.
    Mr. Gohmert. You mean the Government was hurting poor 
people?
    Ms. Beckett. Yes, sir. Most definitely. Like I said, there 
were contractors everywhere doing work on private property, 
clearing dangerous trees, because we knew, based on the 
production numbers, look, it is going to be 9 months before we 
get to your neighborhood. We knew. We could tell people that.
    Mr. Gohmert. My time is running out. I want to get back to 
Mr. Lunny. Our scientific witness had indicated that it was her 
understanding Mr. Lunny acquired the lease knowing that it was 
going to run out or expire. So instead of taking that hearsay 
testimony as the gospel, let me ask you what you knew at the 
time you--how much money did you pay for that oyster farm?
    Mr. Lunny. Well, Mr. Chairman----
    Mr. Gohmert. Now, you need to be quick.
    Mr. Lunny. We spent about $750,000 up front.
    Mr. Gohmert. And tell us what information you had in your 
mind, government representations to you, at the time you spent 
around $750,000 on the oyster farm.
    Mr. Lunny. We had done our homework. We recognized that it 
was explicitly renewable. Every lease document--this was a 
reservation of use and occupancy--was renewable in 2012. We 
looked at the sponsors of the wilderness bill. Both had said in 
the record that the oyster farm can stay as a pre-existing use 
in wilderness because of all of its public values. We did our 
homework. We invested into the farm, and yes, we did know that 
it was up for renewal in 2012.
    Mr. Gohmert. Well, did you have any indications that it 
would be renewed, and from whom?
    Mr. Lunny. We got a letter from the Park Service in March 
of 2005, months after we took over and after we did the cleanup 
operations and reestablished the production, that says, ``Now 
we have to tell you we legally believe we cannot renew your 
lease.''
    Mr. Gohmert. And as far as your exhausting all remedies so 
that this is final, actually you reached an agreement rather 
than get drug through any more fight. Correct?
    Mr. Lunny. Our concern is, it was made clear----
    Mr. Gohmert. Well, my time is running out.
    Mr. Lunny. The answer is yes. We did that.
    Mr. Gohmert. All right. Let me just finish, because I have 
8 seconds. After what I saw on October 1, 2013 of our 
Government keeping veterans out of their World War II Memorial, 
spending more money to keep them out than it took to close, I 
knew we had a problem. You can expect more hearings to get to 
the bottom of what our Government is doing to our people.
    Anyone who has any additional information they would like 
submitted for the record, you have 5 days to do so.
    Mrs. Dingell. I do ask for unanimous consent to enter into 
the record a Drakes Bay Special Use Permit, former Secretary 
Salazar's decision, consistent with congressional intent.
    The report--you want me to do one by one or all of them 
together?
    Mr. Gohmert. You can do them all together.
    Mrs. Dingell. Report by the Department of the Interior's 
Office of the Inspector General, articles from the California 
press about Drakes Bay Oyster Company, and any relevant 
correspondence related to the subject matter of the hearing.
    Mr. Gohmert. All right. Without objection, those will be 
entered into the record.
    I would also ask unanimous consent that an article 
entitled, ``Conspiracy Queen;'' an article entitled, ``Response 
to the Climate Change Debates;'' an article entitled, 
``Merchants of Smear;'' a letter from the Pacific Coast 
Shellfish Growers Association in response to today's hearing; a 
letter from the East Coast Shellfish Growers; a letter from the 
Arctic Slope Regional Corporation in response to today's 
oversight hearing; and a letter from Mr. John Hulls, be 
admitted for the record. Without objection, that will be done.
    Also, if any Member wishes to ask further questions in 
writing to the witnesses, then we would ask that any written 
responses be provided to this subcommittee within 10 days.
    And I can tell you that I am going to ask a written 
question, since there was a letter admitted without objection 
about Mr. Lunny's treatment of some employees, I am going to 
want to know how many employees the Government adversely 
affected when they shut down the farm. So you will be getting 
that written question from me, Mr. Lunny, and I would like you 
to expand on your answer.

    With that, this hearing is adjourned. Thank you.

    [Whereupon, at 4:25 p.m., the subcommittee was adjourned.]

            [ADDITIONAL MATERIALS SUBMITTED FOR THE RECORD]

  Supplemental Documentation Submitted for the Record by Kevin Lunny, 
                    Owner, Drakes Bay Oyster Company

    Question 1. There has been debate over the original intention of 
Congress in authorizing Point Reyes National Seashore. Can you point to 
anything that discusses that intention by the original legislative 
authors?

    Answer. See below--August 11, 2011 Letter from Pete McCloskey, 
William Bagley, and John Burton to DOI Secretary Ken Salazar

                                  ***

                                                    August 11, 2011

Secretary Ken Salazar
Department of the Interior
1839 C Street, NW
Washington, DC 20240

Re: Continuance of a Permit in Drakes Estero, Point Reyes National 
        Seashore for the Drakes Bay Oyster Company

    Dear Mr. Secretary:

    We write to recommend that you exercise your discretion to grant a 
Special Use Permit for the continuance of the Drakes Bay Oyster Company 
in the Point Reyes National Seashore when its present Reservation of 
Use and Occupancy expires in November, 2012.
    We write as three former Northern California legislators who were 
personally involved in either the transfer of state tidal lands in 1965 
to the Park Service, the necessary additional $35 million funding 
authorized in 1969 to acquire the 20,000 acres of ranches for the 
Park's pastoral zone, or the 1976 Wilderness Act which assigned a 
portion of the Park to wilderness, but retained the 20,000 acres of 
ranchlands to be operated by lease to private ranchers and the oyster 
farm to continue to operate as a ``prior, non-conforming use.''
    As you know this has been a controversial issue since April, 2007 
when Superintendent Don Neubacher and a senior Park Service scientist 
accused the oyster operator of endangering the seal population in the 
Park. The charges were subsequently determined to be false by the 
Department of Interior in 2008 and by a National Academy of Sciences 
panel in 2009. Not until 2010, did the Service release three years of 
logs and daily photographs secretly taken of the seal pupping areas 
which disclosed that kayakers and others than the oyster operators were 
the primary cause of seal disturbances.
    For some ten weeks we have been talking to leaders on both sides of 
the controversy and examining the documents, particularly with regard 
to the environmental issues and the legislative history of the 
Seashore. The Seashore is somewhat unique in the National Park System 
in that from the beginning, it was intended to have a considerable part 
of its area, consisting of the historic scenic ranches being leased 
back to their owners, and to retain an oyster farm and California's 
only oyster cannery in the Drakes Estero. The Estero sits in the middle 
of those 20,000 acres of ranches designated as a pastoral zone; the 
oyster plant and cannery on the shores of Drakes Estero are in that 
pastoral zone.
    Point Reyes National Seashore was created in 1962 through the 
leadership of three remarkable men, Congressman Clem Miller, Secretary 
of Interior Stuart Udall, and Park Director Conrad Wirth.

        Wirth's words to the Congress and to the people of Marin County 
        in 1961 were specific:

        ``EXISTING COMMERCIAL OYSTER BEDS AND THE OYSTER CANNERY AT 
        DRAKES ESTERO . . . SHOULD CONTINUE UNDER NATIONAL SEASHORE 
        STATUS BECAUSE OF THEIR PUBLIC VALUES. THE CULTURE OF OYSTERS 
        IS AN INTERESTING AND UNIQUE INDUSTRY WHICH PRESENTS 
        EXCEPTIONAL EDUCATIONAL OPPORTUNITIES FOR INTRODUCING THE 
        PUBLIC, ESPECIALLY STUDENTS, TO THE FIELD OF MARINE BIOLOGY.''
    In 1965, Assemblyman William Bagley, at the request of the Park 
Service, caused to be enacted A.B. 1024, conveying the State of 
California's tidelands and bottomlands within the Seashore to the Park 
Service, reserving however the fishing rights which then included shell 
fishing rights, traditionally leased by the state for oyster 
production.
    Then in 1969, when the initial appropriation of $19 million became 
exhausted, with the threat of subdivision hanging over the Seashore, a 
second term Congressman was able to convince a reluctant Nixon White 
House to grant an additional $35 million to purchase the remaining 
ranch lands, which were to be continued to be operated in the 20,000 
pastoral zone surrounding the Estero.
    In 1972, the late Congressman Phil Burton gave the Bay Area the 
priceless gift of the Golden Gate National Recreation Area (GGNRA) 
situated just south of Point Reyes.
    In 1974, Congressman John Burton and Senator John Tunney introduced 
bills to designate a portion of the Seashore as wilderness. Department 
of Interior Secretary Jon Kyl pointed out that the State of California 
had reserved fishing rights in the submerged lands, which was 
inconsistent with the submerged lands qualifying as pure wilderness. 
The bills were amended to add 8,000 acres surrounding and including 
Drakes Estero as potential wilderness. Both Congressman Burton and 
Senator Tunney testified that the oyster farm was intended to continue 
as a prior, non-conforming use within the potential wilderness area.

        BURTON: ``THERE ARE TWO AREAS PROPOSED FOR WILDERNESS WHICH MAY 
        INCLUDED AS WILDERNESS WITH `PRIOR, NON-CONFORMING USE.' ONE IS 
        DRAKES ESTERO WHERE THERE IS A COMMERCIAL OYSTER FARM. . . .''

        TUNNEY: ``ESTABLISHED PRIVATE RIGHTS OF LANDOWNERS AND 
        LEASEHOLDERS WILL CONTINUE TO BE RESPECTED AND PROTECTED. THE 
        EXISTING AGRICULTURAL AND AQUACULTURAL USES CAN CONTINUE.''

    Prior to the passage of the Act, both the Citizens' Advisory 
Commission of the GGNRA and the Sierra Club also concluded, and so 
recommended that the oyster farm and cannery could continue as a prior, 
non-conforming use.
    For your convenience, we have attached the precise words of Park 
Director Wirth in 1961, and the words of the principals approving the 
continuation of the oyster farm at the time of the 1976 Wilderness Act 
as Exhibit A. Relevant excerpts from the California Bancroft Library's 
historical essay, SAVING POINT REYES NATIONAL SEASHORE, 1969-70, are 
attached as Exhibit B, and the affidavit of Assemblyman Bagley, with 
related documents attached as Exhibit C.
    We think you will find the words of former Assistant Secretary 
Nathaniel Reed (last page of Exhibit A) or particular significance.
    In our inquiries we have identified three opposing views held by 
honorable people, all of whom, however, have forgotten or want to set 
aside as no longer applicable, the commitments made in 1962 and 
particularly their own words and those of Senator Tunney, Congressman 
Burton and Assistant Secretary Reed regarding the preservation of the 
oyster farm as a non-conforming use in 1976/1975.
    Former State Secretary of Resources Huey Johnson argues that all 
private operations in National Parks should be eliminated. Another 
group center on the single sentence in the House Committee Report 
accompanying the 1976 Act, setting forth the expectancy that non-
conforming uses will be removed with all due speed. A third view is 
held that whenever there is a chance to add additional ``pure'' 
wilderness, for use only by kayakers, canoeists and hikers, the 
opportunity should be seized.
    We have weighed these views, but believe that they are far less 
compelling than the commitments made back in 1976 and earlier. We are 
satisfied after hearing from several leading scientists outside the 
Service, and from the report of the National Academy of Sciences panel 
requested by Senator Feinstein that the 77 years of operation of the 
oyster farm has not endangered the local seal or bird life populations. 
The cannery is perhaps visited by more school children and other 
visitors than any other spot in the Park. The Academy of Sciences 
panel, in addition to finding that there was no substantial evidence of 
any danger to the seal population, has pointed out that the oyster farm 
serves as a wonderful basis for future research. Finally, producing 80% 
of the Bay Area's oysters, over 440,000 pounds annually, for human 
consumption, it meets the Commerce Department's new emphasis on local 
mariculture.
    Each of us agreed some weeks ago that we would not make this 
recommendation to you if we found that the oyster farm represented any 
significant danger to the Estero's environment, its seal population or 
its bird life. It's only drawback seems to be that kayakers, canoeist 
and hikers will see some 140 acres of the 2,200 acre Estero covered 
with oyster racks and bags at low tide when they go out to see the 
seals and wildlife.
    The convincing point was made by the Coastal Commission biologist, 
Dr. John Dixon, when he stated: ``I don't think there is any non-
correlative evidence either way whether the oyster operation endangers 
the seal population.'' This of course put the lie to the Park Service's 
claims back in 2007 that started this whole controversy.
    We are also compelled to note that the deliberate 
misrepresentations of science by the Park Service, and particularly its 
failure for three years to disclose its logs and photographs which not 
only disproved its contentions of damage to the seals by the oyster 
farm, but put the blame on kayakers and others for most of the seal 
disturbances has created a wide distrust of a one of the few remaining 
revered institutions of our Government. None of us have ever met a Park 
Ranger who wasn't courteous, helpful, truthful and competent. The 
Neubacher Administration, however has been guilty of misconduct and 
deceit, as found by the Department's Inspector Genera]. We have 
attached a summary of the deceits and withholding of factual data 
prepared by a Member of the National Academy of Sciences whose home 
overlooks the Seashore as Exhibit D. A copy of the Seashore's brochure, 
with a map of the pastoral and wilderness areas is appended as Exhibit 
E.
    It seems highly possible to us that the there are elements in the 
Park Service Administration, which have had a secret agenda for some 
years to drive out not only the oyster farm, but the privately-leased 
ranches as well. There have been a whole series of small impositions on 
the ranchers which serve to make their operations more difficult. As of 
last weekend, for example, the Park Service had made no attempt to keep 
the wild tule elk herds in the northern wilderness section of the 
Seashore from breaking out onto the cattle ranches in the pastoral 
zone.
    We think it might go a long way to restore public confidence in the 
Park Service to hold appropriate congressional committee hearings to 
ascertain why the Service seems dedicated to setting aside the words of 
Director Wirth of fifty years ago, and the testimony of Congressman 
Burton and Senator Tunney and the words of former Assistant Secretary 
Nat Reed regarding the 1976 Wilderness Act.
    Thanking you for your public service which has done so much to 
restore the integrity of the Department of Interior after the scandals 
of the previous Administration, we remain,

            Respectfully,

                                         William T. Bagley,
                                California State Assembly, 1961-74.

                                            John L. Burton,
                                       Member of Congress, 1974-82.

                                            Pete McCloskey,
                                       Member of Congress, 1967-82.

    Attachments: Exhibits A-E [These documents have been submitted for 
the record and are being retained in the Committee's official files]

    Question 2. It has been asserted that the IG, Solicitor's Office, 
National Academy of Sciences, and others who reviewed this process 
found no wrongdoing, you assert otherwise. Can you point out specific 
examples of wrongdoing cited in these various reports?

    Answer. See below--Memo-Report Excerpts and Quotes on NPS False 
Science

                                  ***

Weaponizing, Falsifying, Fabricating and Misrepresenting Science by the 
                         National Park Service

Excerpts from: Inspector General Investigations, National Academy of 
                    Sciences Reports, Environmental Impact Statements 
                    and Other Reports on National Park Service Science 
                    at Drakes Estero, Point Reyes National Seashore, CA

Senator Dianne Feinstein wrote to Interior Secretary Ken Salazar on 
March 29, 2012:

        The Park Service's latest falsification of science at Point 
        Reyes National Seashore is the straw that breaks the camel's 
        back. I am frankly stunned that after all the controversy over 
        past abuse of science on this issue, Park Service employees 
        would feel emboldened to once again fabricate the science in 
        building a case against the oyster farm. I can only attribute 
        this conduct to an unwavering bias against the oyster farm and 
        historic ranches. The Park Service has falsified and 
        misrepresented data, hidden science and even promoted employees 
        who knew about the falsehoods, all in an effort to advance a 
        predetermined outcome against the oyster farm. Using 17-year-
        old data from New Jersey jet skis as documentation of noise 
        from oyster boat engines in the estuary is incomprehensible. It 
        is my belief that the case against Drakes Bay Oyster Company is 
        deceptive and potentially fraudulent.

    Between 2007 and 2013, National Park Service science was 
investigated and reviewed six different times, each highly critical, 
including the Inspector General, DOI (2008 on NPS and 2013 on NPS and 
USGS), National Academy of Sciences (2009 and 2011), DOI Office of the 
Solicitor, Frost (2011), and National Marine Fisheries Service-NOAA on 
NPS Science in the NPS DEIS (2011).
    Congress statutorily mandated review of the validity of NPS 
science. NPS initiated other reviews. Independent scientists submitted 
scientific misconduct petitions. This list does not include four Data 
Quality Act Complaints, or requests for investigations that 
disappeared, were ignored or otherwise not acted upon. It does not 
include the Marine Mammal Commission Report, the DEIS, the incomplete 
FEIS, or the Federal court case.
    This document is a representative selection of findings from these 
six reports.

    Note: The following items (text in italics) are all direct quotes 
pulled from the source reports.

   U.S. Department of the Interior, Office of the Inspector General 
                            Report, 2008 \1\
---------------------------------------------------------------------------

    \1\ United States Department of Interior Office of Inspector 
General. Investigative Report Point Reyes National Seashore. 2008.
---------------------------------------------------------------------------
On NPS Misrepresenting Scientific Research

        Our [IG] investigation determined that in this report and in 
        the newspaper article, PRNS Senior Science Advisor Sarah Allen 
        had misrepresented research regarding sedimentation in Drakes 
        Estero completed in the 1980s by U.S. Geological Survey 
        scientist Roberto Anima. (pg 2)

On Failure to Correct Misrepresentation After Being Informed of It

        After reading those articles, [USGS Scientist] Anima told [NPS 
        Chief Scientist] Allen that his report did not state that he 
        had ``collected sediment cores from the estero and identified 
        pseudo feces of oysters as the primary source for sediment 
        fill.'' He [USGS Scientist Anima] said he was ``tick[ed] . . . 
        off'' that she had misrepresented his findings that way . . . 
        Anima said he let Allen know he was ``not happy'' with her 
        portrayal of his research. According to him, she did not offer 
        a ``good justification'' for inaccurately referencing his work. 
        (pg 16)
On NPS Scientific Misconduct

        While Allen denied any intentional misrepresentation of Anima's 
        work, our [IG] investigation revealed that Allen was privy to 
        information contrary to her characterization of Anima's 
        findings in the Sheltered Wilderness Report and other public 
        releases, and she did nothing to correct the information before 
        its release to the public. (pg 2)

  National Academy of Sciences Report on NPS Science Reports at Point 
                   Reyes National Seashore, 2009 \2\
---------------------------------------------------------------------------

    \2\ Committee on Best Practices for Shellfish Mariculture and the 
Effects of Commercial Activities in Drakes Estero, Pt. Reyes National 
Seashore, California; National Research Council. Shellfish Mariculture 
in Drakes Estero, Point Reyes National Seashore, California. 2009. 
Link: http://www.nap.edu/catalog/12667.html.

---------------------------------------------------------------------------
On NPS Misrepresenting Scientific Research

        While NPS in all versions of [NPS Report] Drakes Estero: A 
        Sheltered Wilderness Estuary accurately depicted the ecological 
        significance and conservation value of Drakes Estero, in 
        several instances the agency selectively presented, over-
        interpreted, or misrepresented the available scientific 
        information on potential impacts of the oyster mariculture 
        operation. (From NAS Report Section ``Accuracy of the 
        Scientific Conclusions Released by NPS to the Public,'' pg 71)

On NPS Scientific Misconduct

        Consequently, [NPS Report] Drakes Estero: A Sheltered 
        Wilderness Estuary did not present a rigorous and balanced 
        synthesis of the mariculture impacts. Overall, the [NPS] report 
        gave an interpretation of the science that exaggerated the 
        negative and overlooked potentially beneficial effects of the 
        oyster culture operation.

On NPS Credibility and Motivation

        NPS has issued two documents correcting and clarifying Drakes 
        Estero: A Sheltered Wilderness Estuary--``Acknowledgment of 
        Corrections to Previous Versions of the Park News Document 
        Drakes Estero: A Sheltered Wilderness Estuary,'' posted on July 
        25, 2007 (NPS, 2007e), and the September 18, 2007 document, 
        ``National Park Service Clarification of Law, Policy, and 
        Science on Drakes Estero'' (NPS, 2007d). The Clarification 
        document represents the most accurate NPS release of science 
        relating to mariculture impacts, although it does not fully 
        reflect the conclusions of this committee. It appears that 
        hasty responses to local stakeholder concerns by NPS led to the 
        publication of inaccuracies and a subsequent series of 
        retractions and clarifications during this process from 2007-
        2008, which cast doubt on the agency's credibility and 
        motivation. (pg 73)

 Frost Report, Office of the Solicitor, Department of Interior, Public 
Report on Allegations of Scientific Misconduct at Point Reyes National 
                           Seashore, 2011 \3\
---------------------------------------------------------------------------

    \3\ Frost, Gavin. Office of the Solicitor, United States Department 
of the Interior. Public Report on Allegations of Scientific Misconduct 
at Point Reyes National Seashore, California. 22 March 2011. Link: 
http://www.doi.gov/news/pressreleases/loader.cfm?csModule=security/
getfile&pageid=238859.
---------------------------------------------------------------------------
On NPS Scientific Misconduct

        Apparently truthful responses from the NPS employees reveal a 
        collective but troubling mind-set that S1 \4\ enjoyed the 
        unrestricted freedom to research harbor seals at upper Drakes 
        Estero in any manner s/he deemed fit, without the corresponding 
        need to share any data generated, so long as the research was 
        not closely evaluated and the research method(s) remained, in 
        the NPS employees' unilateral view, inferior or ancillary to 
        other research, such as volunteer observations. That 
        questionable state of mind, even if analyzed in conjunction 
        with speculation that digital photos showing DBOC-caused 
        disturbance(s) of harbor seals would have magically become 
        ``sound'' science and ``compatible'' research, and thus would 
        have been immediately used and disclosed, fails to meet the 
        demanding standard of intent needed to prove falsification and 
        misrepresentation. The evidence instead confirms that the NPS 
        employees needed better instruction and more effective 
        supervision; someone in their chain-of-command should have 
        recognized the errors, sounded the alarm, and demanded 
        disclosure of all research which a reasonable, objective 
        scientist could interpret as data suggesting that DBOC 
        mariculture operations did not disturb harbor seals at upper 
        Drakes Estero on May 8, 2007, or March 14 2008. (pg 32)
---------------------------------------------------------------------------
    \1\ 4 ``S1'' identifies PRNS Sarah Allen.

---------------------------------------------------------------------------
On NPS Scientific Bias

        Boredom with, or insufficient time for, the labor-intensive 
        analytic review process does not excuse any failure to 
        scrutinize all of the research, which S1 voluntarily initiated 
        to ``detect natural and human-induced changes'' in the harbor 
        seal populations. Quite possibly, digital photos from the 
        monitoring cameras definitively prove or disprove that DBOC 
        mariculture operations negatively impact harbor seals at upper 
        Drakes Estero. As a direct consequence of S1's failure to 
        process the data completely and speedily, potentially powerful 
        evidence remains unknown. This misconduct arose from incomplete 
        and biased evaluation and from blurring the line between 
        exploration and advocacy through research. (pg 35)

On NPS Violations of the Code of Scientific and Scholarly Conduct

        Further, SE2, S1, S2, S3, and S4 \5\ violated NPS Code of 
        Scientific and Scholarly Conduct language, from the Interim 
        Guidance, that not only required timely and ``full disclosure 
        of all research methods used [and] available data,'' but also 
        obligated the NPS employees to ``communicate the results of 
        scientific . . . activities, objectively, thoroughly, and 
        expeditiously.'' . . . On and before May 1, 2009, these NPS 
        employees, all of whom ``work[ed] with scientific . . . 
        information in performing their duties,'' knew about the camera 
        research project, and partial results associated therewith, yet 
        failed to notify the informant, DBOC, the NAS, and the NRC 
        Committee . . . (pg 35)
---------------------------------------------------------------------------
    \5\ ``SE2'' is PRNS Superintendent Don Neubacher; ``S1'' is PRNS 
Sarah Allen; ``S2'' is PRNS Ben Becker; ``S3'' is PRNS David Press; 
``S4'' is NPS David Graber.

        Finally, the decision made by [NPS employees] S3, S2, and S1, 
        who collectively but covertly used the photographic research to 
        refute arguments unrelated to the information's specific 
        scientific purpose, was arguably inappropriate and violative of 
        the NPS Interim Code provision requiring ``full disclos[ure].'' 
        The NPS scientists referenced the ``ancillary'' or 
        ``incompatible'' digital data, which rebutted the informant's 
        assertions regarding tidal activity and Sunday employment, in 
        an uncontested, and seemingly improper, effort to shield their 
        own scientific findings and to defend the reputation/
        reliability of volunteers who allegedly observed pinniped 
        disturbances on April 29 2007. (pg 36)

   National Academy of Sciences, Review of NPS Science (mandated by 
                        Congress \6\), 2012 \7\
---------------------------------------------------------------------------

    \6\ ``Point Reyes National Seashore, Extension of Permit.'' Public 
Law 111-8. October 30, 2009. 123 STAT 2932.
    \7\ Committee on the Evaluation of the Drakes Bay Oyster Company 
Special Use Permit DEIS and Peer Review; Ocean Studies Board; Division 
on Earth and Life Studies; National Research Council. Scientific Review 
of the Draft Environmental Impact Statement: Drakes Bay Oyster Company 
Special Use Permit. 2012. Link: http://www.nap.edu/
catalog.php?record_id=13461.

---------------------------------------------------------------------------
On NPS Lack of Evidence

        At the request of the NPS, the National Research Council 
        conducted a study to help clarify potential impacts of 
        shellfish farming on the ecology and socioeconomics of Drakes 
        Estero (NRC, 2009). After evaluating the limited scientific 
        literature available on Drakes Estero and relevant research on 
        other similar ecosystems, the committee concluded that ``there 
        is a lack of strong scientific evidence that shellfish farming 
        has major adverse effects on Drakes Estero'' at current (2008-
        2009) levels of production and operating practices (NRC, 2009). 
        (pg 9)
On NPS Failure to Follow CEQ/NEPA Guidelines

        The DEIS employs two different baselines in assessing the 
        impacts of the no action and action alternatives. In a typical 
        EIS, the ``no action'' alternative is considered the current 
        baseline environmental condition against which the impacts of 
        the action alternatives are compared. However, for the DBOC 
        Special Use Permit EIS, the no action alternative (alternative 
        A) refers to a change from the current condition (the Special 
        Use Permit would expire and DBOC would cease operation) and 
        shifts to a new, future condition that is unknown. Impacts 
        associated with action alternatives B, C, and D (10 year 
        extension of the permit for the mariculture operation) are then 
        compared to this projected future ``baseline'' (alternative A), 
        while impacts of alternative A are compared to the better known 
        existing conditions (i.e., with DBOC facilities and operations 
        as described for alternative B) as the baseline. This 
        introduces an extra level of uncertainty to the evaluation of 
        the action alternatives and creates asymmetry in the 
        assessments conducted for the action alternatives relative to 
        the no action alternative. By invoking two baselines, the DEIS 
        essentially contains two separate impact assessments, one for 
        the no action alternative and another for the action 
        alternatives, such that there is not a common basis for 
        comparing the potential impacts of the no action alternative 
        (A) with the potential impacts of the action alternatives (B, 
        C, and D). (pg 3)

On NPS Failure to Have a Proper No-Action Alternative Pursuant to NEPA

        While reviewing the scientific information and analysis in the 
        Draft Environmental Impact Statement (DEIS), the committee 
        found common issues across resource categories that are related 
        to how the DEIS is framed and merit discussion upfront . . . 
        The committee recognizes that, in NEPA practice, the ``no 
        action'' alternative is usually considered the ``baseline'' 
        under which current environmental conditions are compared. In 
        these situations, environmental conditions would not change 
        under a ``no action'' alternative. However, in the case of the 
        DBOC, if the Secretary of the Interior took no action, the 
        Special Use Permit (SUP) would expire and alternative A would 
        be implemented, which would change current conditions. Given 
        that the environmental impacts associated with existing 
        conditions are known with greater certainty than those 
        associated with alternative A (potential future conditions), 
        assessing the impacts of action alternatives B, C, and D 
        against ``no action'' alternative A increases the level of 
        uncertainty in conclusions about the impacts of alternatives B, 
        C, and D. Also, the use of two baselines introduces asymmetry 
        into the analysis such that the impacts of ``no action'' 
        alternative A cannot be compared to the impacts of the action 
        alternatives (alternatives B, C, and D). This becomes a 
        particular problem in the Summary of Environmental 
        Consequences, which presents the potential impacts of the four 
        alternatives as if they were comparable, even though the 
        impacts of the ``no action'' alternative A are assessed using a 
        different baseline than that of the action alternatives (B, C, 
        and D). (pg 13-14)

On NPS Manipulation of NEPA Impact Categories

        It is noteworthy that only one category of beneficial impact is 
        used, hence effects that may range from minor to major 
        beneficial cannot be distinguished. (pg 18)

On NPS Manipulation of NEPA Impact Categories--II

        As mentioned in Chapter 2 of the committee's report, there are 
        no gradations for beneficial impacts in parallel with the 
        minor, moderate, and major gradations of adverse impacts. This 
        results in an asymmetric assessment of the no action (A) and 
        action alternatives (B, C, and D) in the DEIS. For instance, 
        under alternative B, DBOC's operations would be largely 
        unchanged from existing conditions, while under alternative A, 
        DBOC would cease operation. Alternative A ``could result in 
        long-term major adverse impacts to California's shellfish 
        market.'' Alternative B ``would result in a long-term 
        beneficial impact to shellfish production in California.'' If 
        eliminating DBOC entails a major adverse impact, then 
        maintaining DBOC should lead to a major beneficial impact . . . 
        The conclusions reached in the DEIS might change if a more 
        rigorous, cost-benefit analysis were conducted . . . Because 
        the DEIS economic impact assessments were not based on 
        quantitative metrics, it includes inferences and 
        interpretations of impacts that have a high level of 
        uncertainty. (pg 41)
On NPS Manipulation of NEPA Impact Categories--III

        Across the eight resource categories reviewed by the committee, 
        the most common concern that arose was the lack of an 
        assessment of the level of uncertainty associated with the 
        scientific information on which conclusions were based. (pg 47)

On NPS Manipulation of NEPA Impact Categories--IV

        The DEIS did not include negligible as an impact level, 
        although negligible impact is a useful category provided in the 
        examples for the NPS NEPA guidance document ``Summary of 
        Regulations and Policies--Impact Indicators and Criteria,'' 
        Director's Order 12. (pg 47)

On NPS Factual Errors in the DEIS

        The Kelly et al. (1996) paper is the most relevant study 
        concerning the impacts of mariculture activities on shorebird 
        behavior and population distributions and it is referenced in 
        the DEIS. Unfortunately, the DEIS contains several factual 
        errors in Chapter 4 with regards to this paper . . . While it 
        might be true that DBOC operations influence foraging behavior, 
        it is not clear how they would have an adverse impact if the 
        acreage available for foraging is not a limiting factor, 
        especially since the actual acreage used for bag culture has 
        been less than permitted acreage. The DEIS could be improved by 
        correcting these factual errors regarding the Kelly et al., 
        1996 citation. (pg 29)

On NPS Factual Errors in the DEIS--II

        The DEIS does not include references to support the conclusions 
        regarding coho salmon in the Estero. Coho are not currently 
        found in Drakes Estero, but ``the watershed is included in the 
        critical habitat designation because it has habitat elements 
        required by the coho salmon.'' (pg 31)

On NPS Failure to Obtain Proper Sound Data

        The DEIS concludes that alternatives B, C, and D would present 
        a major adverse impact. The committee assigns a high level of 
        uncertainty to this conclusion regarding impacts of DBOC 
        operations on the soundscape because there are no data on 
        underwater sound, lack of a scientifically based sampling 
        scheme (e.g., poor spatial and temporal coverage), lack of 
        direct measurements of sound levels associated with DBOC 
        activities, limited data on how noise impacts harbor seals at 
        the population level, unknowns related to boat traffic with 
        potential decreases or increases in production, and uncertainty 
        associated with potential changes in human noise from onshore 
        improvements proposed in alternative D. Because of these 
        unknowns, the committee finds that other conclusions could be 
        reached for alternatives B, C, and D, i.e., adverse impacts 
        could be classified as moderate or minor, rather than major, 
        even with the impact criteria used in the DEIS . . . There 
        would be less uncertainty in the DBOC sounds sources if the 
        DEIS did not use proxies for sound levels and if the 
        measurements accounted for duty cycle (continuous vs. 
        intermittent vs. impulse sources) to estimate the percent of 
        time various DBOC activities impact the soundscape. (pg 39)

            National Marine Fisheries Service-NOAA, 2011 \8\
---------------------------------------------------------------------------

    \8\ National Marine Fisheries Service, National Oceanic and 
Atmospheric Administration, United States Department of Commerce. Memo 
and Comments on Draft Environmental Impact Statement for Drakes Bay 
Oyster Company Special Use Permit. 17 November 2011.
---------------------------------------------------------------------------
On NPS DEIS--Comments from the National Marine Fisheries Service on the 
Draft Environmental Impact Statement for Drakes Bay Oyster Company 
Special Use Permit

        Based on a review of our records relating to the trust 
        resources for with NMFS has responsibilities under the Marine 
        Mammal Protection Act, the endangered Species Act, and the 
        Essential Fish Habitat provisions of the Magnuson-Stevens 
        Fishery Conservation and Management Act:

    <bullet> Based on the evidence and information that has been made 
            available, the harbor seal population in Drakes Estero 
            appears stable and healthy. We have no documentation of any 
            recent disturbance of harbor seals by the aquaculture 
            operation. We have no records of violations by DBOC or law 
            enforcement investigation of DBOC under the Marine Mammal 
            Protection Act.

    <bullet> There is no indication of negative impacts to fish species 
            of concern to NMFS, including ESA-listed salmonids and 
            their critical habitat.

    <bullet> There do not appear to be any significant impacts of DBOC 
            operations on Essential Fish Habitat in Drakes Estero 
            overall. We have no records to indicate that DBOC is 
            impacting eelgrass to the degree that the eelgrass is not 
            healthy or not providing adequate habitat values in the 
            estero.'' (Memo, pg 1)

        This approach to the defining of, and comparing alternatives to 
        different baselines, is unusual. It is common practice in NEPA 
        documents to compare all alternatives to one baseline defined 
        as existing conditions. NMFS questions whether it is 
        appropriate to compare the impacts of one alternative to one 
        baseline, and then compare impacts of other alternatives to a 
        different baseline in the DEIS. NMFS recommends all the 
        alternatives be compared to the existing conditions baseline. 
        (Enclosure, pg 6)

  Senator Feinstein Criticisms of Serial NPS Misconduct and NPS False 
                                Science

Response to the National Academy of Sciences Report

Press Release and Letter from Senator Feinstein. ``Senator Feinstein 
Urges Interior Department to Carefully Review New Scientific Report on 
Oyster Farming in Drakes Estero.'' 5 May 2009. Link: http://
www.feinstein.senate.gov/public/index.cfm/press-releases?ID=16348dda-
5056-8059-7610-55b9d8709435

        Citing the conclusions of a new report released today by the 
        National Academy of Sciences (NAS), U.S. Senator Dianne 
        Feinstein (D-Calif.) today said that she found it ``troubling 
        and unacceptable'' that the National Park Service had 
        exaggerated the negative effects of oyster farming on the 
        ecosystem of Drakes Estero in the Point Reyes National 
        Seashore.

Response to the National Academy of Sciences Report--II

Op-ed by Senator Feinstein: ``Why Oyster Farm Should Stay''--Marin 
Independent Journal. 17 July 2009. Link: http://
www.feinstein.senate.gov/public/index.cfm/op-eds?ID=89376a5d-5056-8059-
7633-0d9e6660d61c

        So, I asked independent scientists at the National Academy of 
        Sciences to evaluate the controversial park service report on 
        the estero. They concluded that the park service science was 
        shoddy, misleading, and in some cases, flat wrong.

Response to the Frost Report

Fimrite, Peter. ``Sen. Feinstein hits Drakes Bay oyster farm report.'' 
SF Gate. 23 March 2011.

        ``The National Park Service and the Department of the Interior 
        have once again failed to grasp the severity of recent 
        misconduct at Point Reyes National Seashore,'' Feinstein wrote 
        in a letter to Interior Secretary Ken Salazar and Peggy O'Dell, 
        the park service deputy director. The senator demanded 
        immediate steps to eliminate political agendas and instill in 
        employees ``a rigorous and objective pursuit of scientific 
        truth.''

        ``It is critical,'' she said, that the government ``publicly 
        disavow the practice of selectively misusing and misconstruing 
        science to achieve a desired outcome.''

Response to the Frost Report--II

Press Release, Senator Feinstein. ``Time to Rebuild Confidence in the 
Park Service''--Marin Voice. 24 March 2011. Link: http://
www.feinstein.senate.gov/public/index.cfm/2011/3/45e612d3-5056-8059-
7659-9db56a8e6d50-post

        Rather than accepting the Frost Report's verdict of misconduct 
        and taking decisive action, the Department of the Interior 
        responded defensively by noting the absence of ``criminal 
        violation,'' admitting that ``mistakes'' were made, and 
        declining to inform the public whether corrective action is 
        taken.

        This response does nothing to rebuild confidence in the 
        objectivity of the National Park Service.

        Three separate investigative reports have reached the same 
        conclusion:

    <bullet> The Frost Report details a ``collective but troubling 
            mindset'' (p. 32) of misusing science for advocacy 
            purposes. ``This misconduct arose from incomplete and 
            biased evaluation and from blurring the line between 
            exploration and advocacy through research.'' (p. 35)

    <bullet> The National Academy of Sciences found that the Park 
            Service ``selectively presented, over-interpreted, or 
            misrepresented the available science on the potential 
            impacts of the oyster mariculture operation.''

    <bullet> Likewise, the Office of the Inspector General concluded 
            that the Point Reyes science adviser ``misrepresented 
            research.''

Letter to California Fish and Game

Senator Feinstein letter to California Fish and Game on Drakes Bay 
Oyster Co. 24 May 2012. Link: http://www.feinstein.senate.gov/public/
index.cfm/press-releases?ID=601fe5b6-41c2-4712-860c-ab0548b7373b

        I became concerned about this issue when I found that the 
        science regarding the impacts of the oyster farm had been 
        manipulated, and that the oyster farm operator had been treated 
        in a biased and unfair manner. The Park Service has repeatedly 
        misrepresented the scientific record since 2006 to portray the 
        farm as environmentally harmful, and it is my belief that the 
        Park Service is doing everything it can to justify ending the 
        oyster farm's operations . . .

        The Park Service's repeated misrepresentations of the 
        scientific record have damaged its trust with the local 
        community, and stained its reputation for even-handed treatment 
        of competing uses of public resources. I firmly believe the 
        only way to begin to repair that trust, and to send an 
        unmistakable signal that the Administration is committed to 
        scientific integrity, is to renew Drakes Bay Oyster Company's 
        permit.

Response to Interior Department Decision on Drakes Bay

Senator Feinstein Statement on Interior Department Decision on Drakes 
Bay. 29 Nov 2012. Link: http://www.feinstein.senate.gov/public/
index.cfm/press-releases?ID=94865224-aa77-4842-8fbf-db4b52c2d9ef

        The National Park Service's review process has been flawed from 
        the beginning with false and misleading science, which was also 
        used in the Environmental Impact Statement. The Secretary's 
        decision effectively puts this historic California oyster farm 
        out of business. As a result, the farm will be forced to cease 
        operations and 30 Californians will lose their jobs.

Senator Feinstein to DOI Secretary Salazar on NPS Falsification of 
Science

Senator Dianne Feinstein letter to Interior Secretary Ken Salazar. 29 
March 2012.

        The Park Service's latest falsification of science at Point 
        Reyes National Seashore is the straw that breaks the camel's 
        back.

        I am frankly stunned that after all the controversy over past 
        abuse of science on this issue, Park Service employees would 
        feel emboldened to once again fabricate the science in building 
        a case against the oyster farm. I can only attribute this 
        conduct to an unwavering bias against the oyster farm and 
        historic ranches.

        The Park Service has falsified and misrepresented data, hidden 
        science and even promoted employees who knew about the 
        falsehoods, all in an effort to advance a predetermined outcome 
        against the oyster farm. Using 17-year-old data from New Jersey 
        jet skis as documentation of noise from oyster boat engines in 
        the estuary is incomprehensible. It is my belief that the case 
        against Drakes Bay Oyster Company is deceptive and potentially 
        fraudulent.
    Question 3. Did any Federal agencies with relevant oversight weigh 
in as to your oyster farm's stewardship at Drakes Estero during the 
NEPA process?

    Answer. See below--NOAA Nov. 17, 2011 Letter to Point Reyes 
National Seashore with Comments

                                  ***

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


	DBOC SUP EIS
c/o Superintendent
Cicely Muldoon
Point Reyes National Seashore
1 Bear Valley Road
Point Reyes Station, California 94956

    Dear Ms. Muldoon:

    NOAA's National Marine Fisheries Service (NMFS) appreciates the 
opportunity to comment on the Draft Environmental Impact Statement 
(DEIS) for Drakes Bay Oyster Company (DBOC) Special Use Permit (SUP), 
September 2011, prepared by the National Park Service (NPS) and their 
consultants.

    NMFS reviewed the DEIS primarily from the perspective of the 
impacts of the action alternatives on marine resources and ecosystems. 
We also reviewed the adequacy of the methodology used in the analysis 
and identified additional information NPS should consider as it 
develops the final Environmental Impact Statement (FEIS). Our detailed 
comments are provided in the attachment.

    Based on a review of our records relating to the trust resources 
for which NMFS has responsibilities under the Marine Mammal Protection 
Act, the Endangered Species Act, and the Essential Fish Habitat 
provisions of the Magnuson-Stevens Fishery Conservation and Management 
Act:

    <bullet> Based on the evidence and information that has been made 
            available, the harbor seal population in Drakes Estero 
            appears stable and healthy. We have no documentation of any 
            recent disturbance of harbor seals by the aquaculture 
            operation. We have no records of violations by DBOC or law 
            enforcement investigations of DBOC under the Marine Mammal 
            Protection Act.

    <bullet> There is no indication of negative impacts to fish species 
            of concern to NMFS, including ESA-listed salmonids and 
            their critical habitat.

    <bullet> There do not appear to be any significant impacts of DBOC 
            operations on Essential Fish Habitat in Drakes Estero 
            overall. We have no records to indicate that DBOC is 
            impacting eelgrass to the degree that the eelgrass is not 
            healthy or not providing adequate habitat values to the 
            estero.

    To improve the overall technical quality of the FEIS, we recommend 
that NPS:

    <bullet> Modify the methodology so that all the alternatives are 
            compared to the existing conditions baseline (as described 
            in sections 1502.14,1502.15, and 1502.16 in the CEQ 
            regulations at https://ceq.hss.doe.gov/ceq_regulations/
            regulations.html)

    <bullet> Add the National Aquaculture Act of 1980 as a relevant law 
            informing this DEIS

    <bullet> Expand the analysis to consider impacts on cultural 
            resources and visitor experience

    <bullet> Modify the analysis to take into account the ability of 
            ecosystems to recover from negative impacts

    <bullet> Provide a more balanced consideration of the ecosystem 
            services and the positive impacts of shellfish aquaculture 
            on habitat and water quality

    <bullet> Include additional citations from the scientific 
            literature.

    In June 2011, NOAA adopted a new Marine Aquaculture Policy to 
enable the development of sustainable marine aquaculture within the 
context of NMFS multiple stewardship missions and broader social and 
economic goals. Under this policy, NOAA is committed to protecting wild 
species and ecosystems, and making timely and unbiased management 
decisions based upon the best scientific information available. We are 
committed to working with Federal partners to provide the depth of 
resources and expertise needed to address the challenges facing 
expansion of aquaculture in the United States. In keeping with the 
policy of encouraging sustainable aquaculture while protecting wild 
species and ecosystems, NMFS offers the attached comments on the Park 
Service's DEIS.

    Thank you for consideration of our comments and recommendations. If 
you have any questions regarding our comments please contact Monica 
DeAngelis, 562-980-3232, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="6a27050403090b442e0f2b040d0f0603192a04050b0b440d051c">[email&#160;protected]</a> or Diane Windham, 
916-930-3619, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="5f1b363e313a710836313b373e321f31303e3e7138302971">[email&#160;protected]</a>

            Sincerely,

                                         Rodney R. McInnis,
                                            Regional Administrator.

Enclosure: National Marine Fisheries Service Comments on the Draft 
Environmental Impact Statement for Drakes Bay Oyster Company Special 
Use Permit--[This document has been submitted for the record and is 
being retained in the Committee's official files]
    Question 4. Mr. Huffman has objected to Mr. Grijalva's submission 
to the record of an unsubstantiated letter alleging mistreatment of 
workers at DBOC. Can you provide anything in support of Mr. Huffman's 
objection to this letter?

    Answer. See below--October 28, 2013--Amicus Brief to Ninth Circuit 
from Jorge Mata and Isela Meza

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


                    	FRAP RULE 29(c)(4) STATEMENT
    This brief is filed pursuant to FRAP 29(a) and 29-2(a). All parties 
have consented to its filing.
    Jorge Mata has worked at the oyster farm with his family for 28 
years. His wife Veronica has worked at the oyster farm for 24 years and 
is currently in charge of the shellfish packing operation. His sister 
Leticia has worked at the oyster farm for 29 years. His grown son Jorge 
Mata Jr. and his daughter Ruby work part-time at the oyster farm. His 
youngest child attends West Marin Elementary School in Point Reyes 
Station, California. Over the many years he has worked at the oyster 
farm, Mr. Mata has developed specialized skills and become very 
experienced at growing oysters, setting oyster larvae and complying 
with seafood safety rules. He is proud to work at the oyster farm where 
his family is treated with respect, earns a living wage, are able to 
live and work together and have developed personal relationships with 
his coworkers and the Lunny family. Mr. Mata and his family stand to 
lose their jobs, and their respective homes, if the oyster farm is 
closed.
    Isela Meza is Drakes Bay Oyster Company's staff marine biologist. 
She received a degree in Marine Science, and was trained as an 
Oceanologist at the University of Mexico, Baja graduating in 2008. Ms. 
Meza has worked and lived at the oyster farm for five years. Her job 
entails handling microscopic oyster larvae and ensuring that they 
``set'' and begin to grow properly. Ms. Meza stands to lose her job if 
the oyster farm is closed.
    Counsel for Appellants initially assisted in the drafting of this 
brief.
            BRIEF OF JORGE MATA AND ISELA MEZA, AMICI CURIAE
    Closing the oyster farm will hurt real working people and their 
families. Approximately thirty-one skilled men and women worked full-
time--many for decades--at the oyster farm before the government made 
its decision to deny a renewal of the farm's lease. Between fifteen and 
twenty-five individuals, oyster farm workers and their families, 
continue to work full-time or part-time at the oyster farm and/or live 
in safe and affordable on-site housing. Collectively, the employees 
have twelve children that attend the high quality schools of Marin 
County. This community of workers will be lost if the oyster farm is 
forced to close.\1\
---------------------------------------------------------------------------
    \1\ The facts in this brief are drawn generally from the 
declarations filed in the district court of amicus curiae Jorge Mata 
(docket no. 81.1), educator James Patterson (docket no. 36), and 
appellant Kevin Lunny (docket no. 38, paras. 69-74).
---------------------------------------------------------------------------
    Oyster farming requires specialized skills and compliance with 
numerous regulatory requirements. The process begins with staff trained 
in marine biology nurturing microscopic oyster larvae to ensure that 
they ``set'' and begin to grow properly. Once they do, workers then 
gently place the baby oysters in mesh bags, or string them on special 
tubes, and transport them by boat to the growing areas in Drakes 
Estero. The process requires that oyster farm workers meticulously 
follow regulatory protocols designed to avoid disturbing the seals and 
other wildlife that are thriving in Drakes Estero. For the next several 
years after they are placed in the growing areas, staff carefully tend 
the oysters as they mature.
    When the oysters are ready, staff brings them back to shore where 
they are prepared for market. Oysters are sold, and often eaten, raw 
and a consumer can get very sick from eating a bad oyster. To keep 
consumers safe, staff diligently follows the strict sanitary 
requirements imposed by the California Department of Public Health and 
the U.S. Food and Drug Administration. Oysters destined for sale on the 
half shell must be sorted and cleaned. Canned oysters have to be 
washed, shucked and processed. It takes years for individual employees 
to become proficient at their work.
    Oyster farm life is a familial endeavor. Many workers live on the 
same property as the place they work. Co-workers and the employer are 
considered like family. Oyster farming is often a family affair with 
men women and children over the age of 16 contribute to supporting the 
family by working on the oyster farm. Husbands and wives, grandparents 
and grown grandchildren often work together at the oyster farm. All of 
the workers reside in the rural areas within a short distance from the 
oyster farm. They volunteer in the community and participate in the 
lives of their children at the excellent local schools. The oyster farm 
community and the region in which they live is their home and perhaps 
the only home they have known.
    If the farm is closed, it is extremely unlikely that the employees 
will be able to find other jobs in the area where they can put their 
specialized skills to work. If the workers lose their jobs, they will 
likely have to pull their children out of the local schools and take 
lower paying jobs perhaps far away from the community they call home. 
Closing the farm will be devastating to these workers and their 
families.

                       CERTIFICATE OF COMPLIANCE
    I certify that this brief complies with Fed. R. App. Proc. 32(c) 
and does not exceed 15 pages.

                         CERTIFICATE OF SERVICE
    I certify that I electronically flied the foregoing with the Clerk 
of the Court for the United States Court of Appeals for the Ninth 
Circuit by using the appellate CM/ECF system on October 28, 2013.
    I certify that all participants in this case are registered CM/ECF 
users and that service will be accomplished by the appellate CM/ECF 
system.
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


                                 _________
                                 

                              United States Senate,
                                            Washington, DC,
                                                    March 29, 2012.

Hon. Ken Salazar,
U.S. Department of the Interior,
1849 C Street, N.W.,
Washington, DC 20240.

    Dear Secretary Salazar:

    The Park Service's latest falsification of science at Point Reyes 
National Seashore is the straw that breaks the camel's back.
    The Park Service presented charts of noise measurements in its 
draft environmental impact statement (DEIS) that appear to irrefutably 
establish that oyster boats at Drakes Bay disturb the pastoral quiet of 
the nearby wilderness. Here is the problem: the noise did not come from 
oyster boats, nor did it come from anywhere near Drakes Estero or Point 
Reyes National Seashore. Amazingly, the decibel recordings the Park 
Service attributed to Drakes Bay oyster boats came from jet skis in New 
Jersey 17 years ago.
    I am frankly stunned that after all the controversy over past abuse 
of science on this issue, Park Service employees would feel emboldened 
to once again fabricate the science in building a case against the 
oyster farm. I can only attribute this conduct to an unwavering bias 
against the oyster farm and historic ranches.
    My attention was drawn to the Seashore when I fought to extend 
local ranching leases from 5 years to 10 so there would be sufficient 
investment and time for the farmers and ranchers to not only operate 
viable businesses, but to perform environmental improvements. Despite 
efforts to comply, the ranches and oyster farm have been subject to 
repeated mistreatment that is unbecoming of your Department.
    The Park Service has falsified and misrepresented data, hidden 
science and even promoted employees who knew about the falsehoods, all 
in an effort to advance a predetermined outcome against the oyster 
farm. Using 17-year-old data from New Jersey jet skis as documentation 
of noise from oyster boat engines in the estuary is incomprehensible. 
It is my belief that the case against Drakes Bay Oyster Company is 
deceptive and potentially fraudulent.
    The Park Service's conduct is a serious breach of trust with the 
farming and ranching community at Point Reyes National Seashore. The 
ranchers are concerned that if Drakes Bay Oyster Company's permit is 
not renewed, they will be next. I share that concern.
    I firmly believe that renewal of the permit is the only way for the 
Park Service to send an unmistakable signal that the Administration's 
commitment to scientific integrity is real and that repeated 
misrepresentations of the scientific record to advance employees' 
personal agendas will not be tolerated. I also believe that renewal of 
the permit is the only way for the Park Service to begin to repair the 
trust of the Seashore's ranching and farming community.

    I look to you to bring resolution to this very serious matter.

            Sincerely,

                                          Dianne Feinstein,
                                             United States Senator.

                                 ______
                                 

                 Arctic Slope Regional Corporation,
                                         Anchorage, Alaska,
                                                    April 28, 2015.

Hon. Louie Gohmert, Chairman,
House Subcommittee on Oversight and Investigations,
1334 Longworth House Office Building,
Washington, DC 20515.

Re: Oversight Hearing on ``Zero Accountability: The Consequences of 
        Politically Driven Science''

    Dear Chairman Gohmert:

    On behalf of Arctic Slope Regional Corporation (``ASRC''), I am 
pleased to submit comments on the subject of the Subcommittee's 
oversight hearing titled ``Zero Accountability: The Consequences of 
Politically Driven Science.''
    ASRC is an Alaska Native Corporation, representing the Inupiat 
people of the North Slope region of Alaska. We were created at the 
direction of Congress under the terms of the Alaska Native Claims 
Settlement Act of 1971 (``ANCSA''). ANCSA was designed to settle the 
aboriginal claims of Alaska Natives and authorized the transfer of 
roughly 45 million acres of land to Alaska Natives. This landmark 
legislation extinguished Alaska Native aboriginal land rights, and 
authorized and directed us to adopt a western corporate model to manage 
Native lands and natural resources for the benefit of our shareholders.
    Through ANCSA, Congress authorized ASRC to use the North Slope's 
natural resources to benefit the Inupiat people both financially and 
culturally. Consistent with this unique legislation, ASRC is a for-
profit business committed both to providing sound returns to its 
shareholders and to preserving Inupiat culture and traditions. ASRC 
owns nearly 5 million acres of land on Alaska's North Slope, much of 
which has potential for oil, gas and other natural resource 
development.
    The responsible development of natural resources and maintenance of 
our Inupiat traditions is challenging. On the North Slope, we are 
challenged by the climate, by the cost of energy, by the lack of 
transportation infrastructure and distance to markets, and by the 
regulatory environment in which we work.
    ASRC acknowledges our longstanding relationship with some of the 
Federal agencies and the many hardworking public servants. 
Unfortunately, we have had numerous experiences in which Federal 
agencies imposed poorly conceived and paternalistic rules on our people 
and our land. We rarely know with certainty that the science behind bad 
decision-making is ``politically driven,'' but, as explained below, we 
recognize insufficient science and inadequate support for Federal 
decision making.
ESA Species Listings and Critical Habitat Designations
    Our Inupiat shareholders continue to rely upon the wildlife species 
of the North Slope for subsistence purposes, as we have done for 
thousands of years. Alaska Natives have been the Arctic's primary 
conservation stewards, carefully balancing subsistence needs and 
cultural traditions with a profound respect for the wildlife that 
shares our natural environment. Based upon this relationship, our 
people have developed a deep and substantial understanding of the 
biological and physical processes affecting our subsistence species and 
the habitat that they rely upon.
    In recent years, under the Endangered Species Act (``ESA''), the 
U.S. Fish and Wildlife Service (``USFWS'') and National Marine 
Fisheries Service (``NMFS'') have listed and designated critical 
habitat for the polar bear, listed the bearded seal, and listed and 
proposed critical habitat for the ringed seal. These actions have been 
undertaken based upon estimated projections of the impacts of climate 
change, a phenomenon that has not been caused by Alaska Natives. 
Although we objected to these actions, and pointed out flaws in the 
underlying science, the Federal Government did not heed our comments. 
Instead, the polar bear was listed under the ESA based upon modeling 
projections of sea ice by mid-century, and the bearded and ringed seal 
were listed based upon further projections out to the end of the 21st 
century. Similarly, USFWS designated critical habitat for the polar 
bear and NMFS has proposed critical habitat for the ringed seal based 
upon broad generalizations of essential habitat features without the 
requisite scientific data demonstrating where this habitat may be 
located with any specificity or certainty. Instead of fulfilling its 
obligation to utilize the best available science, the Federal 
Government has shifted the burden to our people and our affected 
communities to demonstrate that these actions have been in error.
    In order to protect our way of life and subsistence culture, we 
have been forced to file lawsuits challenging each of these ESA 
actions. Fortunately, in several instances, our resort to litigation 
has been successful. Notably, in 2013, the U.S. District Court for 
Alaska vacated USFWS's designation of critical habitat for the polar 
bear.\1\ Likewise, in 2014, the Court also vacated NMFS's listing of 
the Beringia distinct population segment of bearded seal.\2\ In both of 
these decisions, the court found that the underlying scientific data 
did not support the Services' conclusions. We are now in the process of 
challenging NMFS's decision to list the Arctic subspecies of ringed 
seal as a threatened species under the ESA.
---------------------------------------------------------------------------
    \1\ Alaska Oil and Gas Ass'n v. Salazar, 916 F.Supp.2d 974 (D. Ak. 
2013).
    \2\ Alaska Oil and Gas Ass'n v. Pritzker, 2014 WL 3726121 (D. Ak., 
July 25, 2014).
---------------------------------------------------------------------------
    Unfortunately, we are becoming accustomed to using litigation as a 
tool to protect our people. The expense, time, and burden of pursuing 
this approach can and should be avoided. The Federal Government must 
fulfill its responsibility to make ESA decisions based upon the best 
scientific data available, and traditional knowledge and information 
gathered and maintained by our people and communities must be included.
    The ESA requires USFWS and NMFS to take certain actions based upon 
the best available science, including decisions to list species, 
designate critical habitat, and conduct consultation on federal actions 
that may affect listed species or critical habitat.\3\ However, the ESA 
does not currently include a statutory definition of what constitutes 
best available science, giving Federal agencies discretion to determine 
which data are appropriate. While there is general recognition that 
traditional knowledge should be considered in ESA decision-making, it 
is typically not relied upon or incorporated as fully as other sources 
of data. This current practice is flawed. Too often traditional 
knowledge is sought at the end of the listing or habitat designation 
process, after the Services have already made their decision. Instead, 
ASRC believes that traditional knowledge is an integral component of 
the best scientific data available and, as a critical source of 
information, must be considered early and throughout the ESA 
deliberation process, and not merely relegated to an afterthought in 
the Services' decision-making.
---------------------------------------------------------------------------
    \3\ E.g., 16 U.S.C. Sec. Sec. 1533(b)(1)(A) (listing species based 
on ``best scientific and commercial data available''); 1533(b)(2) 
(designation of critical habitat based on ``best scientific data 
available''); 1536(a)(2) (consultation shall use ``best scientific and 
commercial data available'').
---------------------------------------------------------------------------
    USFWS's recent exercise in considering whether to list the yellow-
billed loon is an example that highlights the need to incorporate 
traditional knowledge and information at the start of the ESA 
deliberation process instead of at the end. ASRC believes that had 
traditional knowledge been sought and incorporated into the best 
scientific data available when considering whether to list the species, 
the Federal Government would have arrived at its conclusion not to list 
the loon much sooner. Further frustrating matters, ASRC had to invoke 
consultation privileges pursuant to Executive Order 13175 and 
Secretarial Order 3317, to garner the attention of the Federal 
Government.
    Our experiences lead us to believe that the Federal Government 
continues to rely upon unsupported assumptions and overbroad 
interpretations of limited data in efforts to use the ESA to address 
and mitigate the effects of climate change. This policy-driven approach 
contravenes the intent of Congress in enacting the ESA, and 
disproportionately harms the cultural and economic well-being of the 
Inupiat people.
WOTUS Proposed Rule
    On April 6, 2015, ASRC testified before the Senate Committee on 
Environment and Public Works Subcommittee on Fisheries, Water, and 
Wildlife on the Environmental Protection Agency (``EPA'') and U.S. Army 
Corps of Engineers (``Corps'') proposed rule (the ``Proposed Rule'') 
defining the scope of waters protected under the Clean Water Act 
(``CWA''),\4\ a hearing chaired by Senator Dan Sullivan.
---------------------------------------------------------------------------
    \4\ Definition of ``Waters of the United States'' under the Clean 
Water Act, 79 Fed. Reg. 22,188 (Apr. 21, 2014).
---------------------------------------------------------------------------
    As explained in our testimony, and in comments submitted to EPA and 
the Corps on the Proposed Rule, Alaska has more wetlands than all of 
the other 49 states combined. According to a 1994 USFWS report, 
wetlands cover 43.3 percent of Alaska. In the Lower 48 states, wetlands 
only occupy 5.2 percent of the surface area. While USFWS used an 
expansive definition of ``wetlands'' in its study, that definition is 
very similar to the jurisdictional waters categories added to the 
definition of ``waters of the United States'' by the EPA and Corps in 
their Proposed Rule. Thus, on the North Slope of Alaska, more than 80 
percent of the region could be deemed ``waters of the United States'' 
by the Proposed Rule without application of the ``significant nexus'' 
test or any other individualized inquiry.
    Unlike the many exceptions proposed for agricultural and other 
uses, the Proposed Rule creates no exceptions for any material portion 
of the wetlands in Alaska. Yet Alaskan waters and wetlands are unusual 
in many respects that, in many cases, make them unsuitable for this 
broad assertion of jurisdiction by the Federal Government. Many of 
Alaska's wetlands are frozen for nine months out of the year, and their 
hydrologic functions are different from those in other parts of the 
country. For example, unlike wetlands in temperate zones, Arctic 
wetlands, lying above of thousands of feet of frozen permafrost, are 
not connected to aquifers subject to water flow. Thus, while there may 
be saturated soils that support hybrid vegetation, there is limited or 
no wetland connectivity to navigable waters. Yet the Proposed Rule 
fails to consider any of these unique aspects of Alaskan wetlands.
    Economic development in America's Arctic is already challenging, 
and those challenges will grow alarmingly if our Federal Government can 
simply deem 80 percent of the entire North Slope region to be ``waters 
of the United States'' without considering the requisite scientific 
information. Whether politically driven or simply poorly conceived, the 
Proposed Rule threatens to have enormous impacts on our ability to 
build our communities and develop our natural resources. It threatens 
our ability to use those very lands that we received in exchange for 
our surrender of our aboriginal claims.
The Threat to End the Bowhead Hunt
    The fight of the Inupiat Eskimo people to preserve our subsistence 
way of life has been a foundational and often negative experience for 
our people. Our struggle to maintain our traditional way of life is 
exemplified by the effort to preserve our seasonal bowhead whale hunt, 
a tradition we have carried on for thousands of years. The entire 
community participates and shares in the hunt, ensuring that the 
traditions and skills of the past will be carried on by future 
generations. Each whale provides thousands of pounds of meat and 
maktak, which is shared by all the people in our communities.
    To preserve our traditional bowhead hunt we have had to fight 
science with science for nearly forty years. I want to emphasize that 
the Federal Government is now a partner in this fight to preserve our 
cultural hunt--but this was not always so.
    In the late 19th and early 20th centuries, Yankee and British 
whaling operations substantially reduced the size of our regional 
Bering Sea stock of bowhead whales. In the early 1970s, as opposition 
to commercial whaling operations started to grow, some countries raised 
concerns about the status of the regional bowhead population and our 
subsistence harvest of this stock. We were not made aware of this 
international interest until 1977, when the International Whaling 
Commission (``IWC'') imposed a ban on the subsistence harvest of 
bowhead whales by Alaska Eskimos. The ban was based upon a Federal 
Government report that erroneously estimated that only 600 to 2,000 
bowhead whales existed in the Bering Sea stock. Had our Inupiat hunters 
been consulted, the IWC would have been informed (correctly) that there 
were at least 4,000 bowhead whales in the population.
    In response to the ban, our Inupiat whale hunters established the 
Alaska Eskimo Whaling Commission (``AEWC''), which undertook the 
difficult task of convincing the Federal Government that our Inupiat 
elders knew more about the bowhead whale population than Western 
scientists. The North Slope Borough, our county-level government, also 
established its own Department of Wildlife Management, which has now 
spent decades uniting Western science with Native traditional knowledge 
to better understand the bowhead whale. Traditional knowledge and local 
science have prevailed, but not before our tiny communities were forced 
to make enormous investments of resources (time, energy, and money) to 
preserve our traditional way of life.
    We have had similar experiences with migratory birds, polar bears, 
and other marine mammals. Our communities are rife with stories of 
Federal law enforcement officers harassing our elders and intimidating 
our young people. We, as Inupiat people living in the United States, 
have had to create our own organizations, hire our own scientists, 
expend our own limited resources, and argue our case for forty years 
just to preserve a way of life that we have maintained for thousands of 
years.
Conclusion
    This letter highlights just three examples of costly challenges we 
have faced as a people due to the failure of Federal agencies to 
support decision-making with sufficient scientific data. Unfortunately, 
we have become accustomed to fighting these decisions to prevent any 
disproportionate and harmful impacts on our people. The expense, time, 
and burden of protecting our traditional way of life and building our 
communities would not fall so heavily on our shoulders if the Federal 
Government fulfilled its responsibility to make decisions based upon 
the best scientific data available, including information and 
traditional knowledge gathered and maintained by our people and 
communities.
    ASRC has been working with Congressman Don Young to determine how 
best to tackle some of the challenges we discuss in this letter. We 
hope the Subcommittee will be able to work with our Congressman on this 
effort as well.

    We appreciate this opportunity to share our views with the 
Subcommittee.

            Sincerely,

                                          Rex A. Rock, Sr.,
                                                   President & CEO.

                                 ______
                                 

          East Coast Shellfish Growers Association,
                                    Toms River, New Jersey,
                                                    April 25, 2015.

Hon. Rob Bishop, Chairman,
Committee on Natural Resources

Hon. Louis Gohmert, Chairman,
Subcommittee on Oversight and Investigations

1324 Longworth House Office Building,
Washington, DC 20515.

    Honorable Congressmen:

    I am writing to comment on the upcoming April 29th hearing 
concerning the ``Consequences of Politically Driven Science.'' As a 
scientist I find the consequences of agenda-driven science offensive 
and pernicious. I find it even more egregious when such science is 
financed by public dollars and advanced by federal agencies. The 
specifics of the National Park Service investigations and reports 
pertaining to the Drakes Bay Oyster Farm in Drakes Estero on California 
are but one example of how biased, agenda-driven science can destroy 
jobs and propagate false information to achieve a pre-determined 
outcome.
    My association represents 1,300 small shellfish farms from Maine to 
Florida. These proud stewards of the environment harvest over $155 
million worth of local, sustainable and nutritious oysters and clams 
while employing thousands in rural coastal areas. These hard-working 
farmers have had their reputations tarnished by National Park Service 
allegations of West Coast impacts that were untrue and misrepresented.
    There are numerous examples where the Park Service used 
questionable practices, poor scientific protocols, and deceptive data 
in an attempt to make their case that the Oyster Farm in Drakes Estero 
created negative environmental impacts, when in fact the opposite was 
true. Oyster farms provide documented ecosystem services and improve 
water quality while providing habitat for fish and many other 
organisms.
    Scientists and industry experts provided hundreds of pages of 
comments to refute each claim of harm alleged in the Draft EIS that the 
NPS published in their efforts to eradicate the Drakes Bay Oyster Lease 
after decades of operation. These comments effectively refuted each of 
the claims of impact alleged in the NPS DEIS, yet (in an apparent 
violation of NEPA) the NPS ignored these comments when the final EIS 
was produced. The claims of impacts raised in these documents are 
damaging an industry that has received kudos for environmental 
stewardship from numerous environmental groups and government agencies.
    New applicants for leases to conduct shellfish farms are now asked 
to prove a negative--to demonstrate that their proposed farming 
activities will not result in some of the impacts described in these 
unfounded and misleading federal publications. Here are just a few 
examples:

    <bullet> The NPS misrepresented sound data from Jet Skis and 
            jackhammers to make the case that the farm was noisy and 
            offended park goers. Had they used a meter to measure 
            actual farm sound levels they would have been hard pressed 
            to find an issue.

    <bullet> The NPS cherry-picked seal abundance data in an attempt to 
            prove an impact to seal breeding in the Estero, and they 
            withheld two years of photographic records that would have 
            exonerated the farm from these charges. The National 
            Research Council and the Marine Mammal Commission have both 
            published documents refuting the NPS allegations of harm.

    <bullet> Further NPS allegations of introduced exotic species, 
            eelgrass damage, sediment accumulation and flow alterations 
            were also shown to be false and misleading. Comments on the 
            DEIS refuting the NPS allegations of impacts were ignored 
            in the final EIS.

    Other examples of agenda-driven science have led to listing species 
as endangered or threatened. When a species is listed it often forces 
those who interact with it to make drastic and expensive modifications 
to culture practices. In some cases farmers are forced to cease or move 
entire operations. In many cases, permits are delayed or denied because 
of perceived or feared impacts. It is important that decisions with 
such significant implications are driven by accurate and unbiased 
science.
    It is NOAA's stated policy that shellfish aquaculture in the U.S. 
should be expanded to create jobs, improve coastal water quality, 
provide domestic seafood and lessen our dependence on imported seafood 
that currently comprises 91% of consumption, adding $11.7 trillion to 
our trade deficit. NOAA submitted comments in response to the NPS DEIS 
on Drakes Estero suggesting that the impacts were insignificant and 
unsupported by scientific evidence. The reckless and misleading NPS 
publications relating to the Drakes Bay Oyster Farm will make it more 
difficult for growers to obtain permits and respond to permitting 
agency concerns.
    Our Association would like to see Congress statutorily mandate that 
the entire body of science prepared at Point Reyes National Seashore by 
the NPS staff (or developed by contract) be retracted--for cause, bias 
and misconduct.

    Thank you.

            Sincerely,

                                  Robert B. Rheault, Ph.D.,
                                                Executive Director.

                                 ______
                                 

       Pacific Coast Shellfish Growers Association,
                                       Olympia, Washington,
                                                    April 27, 2015.

Hon. Louie Gohmert, Chairman,
House Subcommittee on Oversight and Investigations,
Committee on Natural Resources,
1324 Longworth House Office Building,
Washington, DC 20515.

Re: Hearing on Zero Accountability: The Consequences of Politically 
        Driven Science

    Dear Chairman Gohmert and Subcommittee Members:

    This letter is submitted on behalf of the Pacific Coast Shellfish 
Growers Association (``PCSGA'') regarding the Subcommittee's upcoming 
hearing concerning the consequences of politically driven science, 
particularly as it relates to science employed by the National Parks 
Service (``NPS'') in its review of the potential environmental impacts 
associated with renewal of Drakes Bay Oyster Company's (``DBOC'') lease 
of its shellfish farm in Drakes Estero, California. PCSGA appreciates 
the Subcommittee's review of this issue and opportunity to comment on 
an issue of great concern to the shellfish industry as a whole.
    PCSGA, founded in 1930, represents over 120 private and tribal 
shellfish growers in California, Oregon, Washington, Alaska and Hawaii. 
PCSGA's members grow a wide variety of healthful, sustainable shellfish 
including oysters, clams, mussels and geoduck. The majority of our 
members represent multiple generations of shellfish farming. Shellfish 
have played an important role in several Pacific Coast coastal 
communities for nearly a century and support family wage jobs, are a 
critical component to healthy marine ecosystems and provide a healthy, 
high quality, sustainably produced protein source. PCSGA works on 
behalf of its members on a broad spectrum of issues, including 
environmental protection, shellfish safety, regulations, technology and 
marketing.
    PCSGA has expressed serious concerns over the Drakes Bay Oyster 
Company Special Use Permit Draft and Final Environmental Impacts 
Statements and associated studies referenced therein (collectively, the 
``EIS''), prepared by Point Reyes National Seashore (``PRNS'') as the 
lead agency for the project pursuant to the National Environmental 
Policy Act (``NEPA''). PCSGA does not believe that the EIS provided an 
unbiased analysis that would have helped to inform the public and 
decisionmakers regarding potential environmental impacts. PCSGA 
submitted a comment letter on December 9, 2011, including comments from 
its consultant Confluence Environmental Company, which criticized a 
number of statements made in the Draft EIS, including (1) a flawed 
description and characterization of the alternatives available; (2) a 
consistent exaggeration of negative impacts and understatement or 
ignorance of potential positive impacts; and (3) a failure to recognize 
or discuss a significant amount of available published science on the 
interactions between shellfish and the surrounding environment. A copy 
of these comments is included as Exhibit A.
    PCSGA's concerns were reiterated by the National Academy of 
Sciences (``NAS''), which twice submitted significant criticisms of 
NPS' analysis of potential impacts. The majority of these concerns were 
not addressed in the Final EIS prepared by PRNS.
    Given the failure of NPS to adequately respond to concerns raised 
by NAS, PCSGA, and others in the Final EIS, PCSGA submitted a Complaint 
about Information Quality on May 30, 2013 (the ``Complaint''). The 
Complaint noted that the flawed environmental analysis in the EIS 
regarding alleged adverse environmental impacts associated with 
shellfish aquaculture potentially created a significant precedent that 
could be used by other state or federal agencies or project opponents 
seeking to deny shellfish farm permits. A copy of the Complaint is 
attached as Exhibit B.
    PCSGA received a response to the Complaint from the NPS on August 
1, 2013. A copy of the NPS response is attached as Exhibit C. The 
letter notes that the Compliant is moot, given that the EIS did not 
``provide the central basis for the [DOI's] decision'' not to renew the 
DBOC lease and that DOI's decision was not based ``on the data that was 
asserted to be flawed.'' \1\ NPS asserted that the ``information 
challenged in your compliant has not been used and will not be used in 
a decision-making process . . .'' and that ``no further dissemination 
of the information is expected . . .'' \2\ Despite the acknowledgement 
that DOI did not rely on the EIS to make its determination, and tacit 
agreement that the EIS analysis was fundamentally flawed, NPS has not 
withdrawn the EIS from public consideration and maintains it on its 
website.\3\
---------------------------------------------------------------------------
    \1\ Letter from Christine S. Lehnertz to Robert M. Smith and 
Margaret Pilaro Barrette, August 1, 2013, at 2.
    \2\ Id.
    \3\ http://www.nps.gov/pore/learn/management/planning_dboc_sup.htm.
---------------------------------------------------------------------------
    PCSGA appreciates the opportunity to comment on this important 
topic concerning the use, or misuse, of scientific analysis when 
considering impacts associated with shellfish farms. The evaluation of 
potential environmental impacts associated with shellfish farms is a 
crucial component for both project applicants and regulatory agencies 
to ensure that shellfish operations can continue to sustainably coexist 
with their surrounding environment, as they have successfully done for 
decades on the West Coast. An objective, complete, and unbiased 
analysis of a farm's effects on the surrounding environment is critical 
to inform the public and regulatory decisionmakers. The DBOC EIS is 
inconsistent with a reasonable and objective evaluation of potential 
impacts.

            Sincerely,

                                  Margaret Pilaro Barrette,
                                                Executive Director.

Exhibits A-C were submitted as attachments; due to size constraints, 
these documents are being retained in the Committee's official files.

                                 ______
                                 

                                     John R. Hulls,
                                   Point Reyes, California,
                                                    April 27, 2015.

Hon. Louie Gohmert, Chairman,
House Subcommittee on Oversight and Investigations,
1324 Longworth House Office Building,
Washington, DC 20515.

    Dear Chairman Gohmert and members of the Subcommittee on Oversight 
and Investigations:

    For more than 30 years, Point Reyes has been my home and during 
those years, I had a front-row seat to witness the Department of 
Interior and National Park Service's blatant abuse of science, law, 
policy and procedure. This serial scientific misconduct, taking place 
over several years, severely damaged the community, both socially and 
economically, and resulted in the National Park Service's closure of 
the second largest employer in the area, Drakes Bay Oyster Company 
(DBOC), located in Drake's Estero.

    As an independent consultant, I served as project scientific 
coordinator on coastal ecology research and management projects, 
including a multi-year study for California's State Water Resources 
Control Board examining the microbial ecology of the coast from San 
Francisco to Bodega Bay. Based on my familiarity with the science and 
ecology, I have also written extensively on oyster farm issues for 
local papers.

    My coverage of the story dates back to 2007, the very beginning of 
the controversy, when Point Reyes Seashore Superintendent, Don 
Neubacher, attempted to shut down the oyster farm, based on alleged 
criminal harm being caused by Kevin Lunny, operator of DBOC.

    A subsequent Inspector General's (IG) investigation determined that 
the so-called data on which the NPS Superintendent made his charges was 
completely non-existent at the time he made the charges. DOI science 
and ethics have not gotten any better since. The long history of the 
oyster farm fight at Drakes Estero has been documented by others, so I 
will focus on a major issue where NPS behavior can be traced from the 
initial misconduct and distortion of issues.

    In the process, certain NPS officials and consultants were willing 
to distort or misrepresent the scientific or financial record to 
support a predetermined NPS agenda. In the process, data was 
manipulated, reports were distorted and false information was publicly 
disseminated.

    In the end, accountability collapsed when an inadequate DOI IG 
investigations failed to disclose that NPS' falsely cited data directly 
implicated NPS scientists in the manufacturing of misleading science. 
Accountability at NPS? There is none.

    Over the years, I have authored dozens of columns and articles. 
Here, I submit four articles for the Committee's consideration and 
review in this hearing:

    <bullet> ``Drake's Estero Inspector General Report, Investigating 
            the Investigators,'' March 2, 2013, Russian River Times.

    <bullet> ``The Gang That Couldn't Map Straight,'' November 16, 
            2011, Russian River Times.

    <bullet> ``Statistics, Damnable Statistics and Lies,'' November 20, 
            2008, Point Reyes Light.

    <bullet> ``Environmental Justice in West Marin? '' December 19, 
            2012, Russian River Times.

    The record is clear and overwhelming: NPS is willing to manufacture 
science and distort policy to achieve a pre-determined position. In the 
Drakes Estero Inspector General's Report, Investigating the 
Investigators, NPS statements are simply taken at face value, despite 
glaring inconsistencies and outright misstatements. In The Gang that 
Couldn't Map Straight, NPS simply redraw maps to create a new 
hypothesis of harm. In Statistics, Damnable Statistics and Lies they 
completely distort a major segment of the West Marin economy in a study 
required by NPS policy, simply eliminating the oyster farm (West 
Marin's second largest employer) and they then ignore a Data Quality 
Act filing by Point Reyes Light seeking to correct the NPS report. 
Environmental Justice in West Marin? shows NPS and Interior riding 
roughshod over executive orders and National Environmental Protection 
Act requirements.

    Highlights of each article are found below. Web links to these and 
other articles, with expandable images, may be found at: https://
russianrivertimes.wordpress.com/category/oyster-farm/. Finally, I look 
at a few very specific issues raised by the various articles.

    The origin of the word science comes down from the Latin scientia, 
or knowledge, so it's important not to be blinded by NPS `science' but 
to look at what we know.

    In the first Inspecting the Inspector article, we know that someone 
at NPS elected to import data of the sound of a souped-up 2 stroke jet 
ski as opposed to a small 4 stroke modern outboard on the oyster boats, 
then failed to measure the actual source of the sound as required by 
NPS standards? Who made this decision, which violated mandatory NPS 
policy, and how did NPS supposedly expert consultants, who had actually 
visited the oyster farm fail to note the obvious discrepancies? Who is 
responsible?

    In the Gang that Couldn't Map Straight, who at NPS directed the 
staff time and supposed research for drawing of a map in direct 
conflict with earlier maps prepared by NPS but the federal and state 
agencies directly responsible for the management of estero and marine 
mammals? Likewise, was it NPS or the NPS consultant who caused the 
oyster farm to be eliminated from the socio-economic study, and who 
made the decision not to follow the NEPA guidelines and the NPS policy 
on outreach regarding the impact on the oyster worker community?

    All of these and the many other questions raised do not require 
hard-core science or complicated statistics or convoluted 
interpretations of policy, but rather, a common-sense approach to facts 
and behavior that in many ways identical not only to science, but good 
journalism and indeed to well-run committee hearings, where at the end 
of the day, the old questions of ``Who? What? When? Where? How? '' are 
answered in such a way that we can all move forward. Our West Marin 
community needs the committee's help not only to restore honesty and 
integrity and achieve accountability, but to protect us from the 
ongoing arrogance of an NPS that feels it is above the law, science and 
policy.

            Respectfully,

                                              John R. Hulls

                                  ****

Drake's Estero IG Report: Investigating the Investigators
Posted on March 2, 2013 by russianrivertimes

                            Highlighted Text

    ``. . . the [Russian River] Times is left with two options to 
explain the IG's failure to uncover any of the damning evidence found 
by the Times. Either (1) the IG investigation is incompetent, and they 
merely took the NPS responses on their face with no proper 
investigation, or (2) the final IG report simply omits information that 
would be damaging to the NPS and the Department of the Interior, and 
that Interim IG Mary Kendall, as the committee implies, has essentially 
abandoned her watchdog responsibility.''

    ``. . . the IG report will stand as just another in a long line of 
NPS and DOI investigations of themselves, costing the taxpayers 
literally millions of dollars, that are nothing more than whitewash and 
cover-up.''

                                  ****

The Gang that Couldn't Map Straight
Posted on November 16, 2011 by russianrivertimes

                            Highlighted Text

    There are real consequences to NPS presenting biased and 
unsubstantiated information to the public. An Oct 2009 Russian River 
Times article on coastal sustainability quoted a 2008 NOAA presentation 
by Dr. Stonich, who characterized the behavior of different 
environmental groups, saying some groups work with regulatory agencies 
to preserve both the environment and sustainable mariculture, while 
others (citing an anti-mariculture group in Puget Sound) support ``. . 
. strategies of mobilization and confrontation rather than sitting down 
with diverse stakeholders to reach consensus . . . support bringing 
suit against shellfish firms'' . . . and ``view sitting down at the 
table with adversaries as co-option.'' NPS' politically motivated 
policy positions on Drake's Estero, dressed up as science, feed into 
the negative behavior, divide communities and threaten the 
sustainability of our coastal towns.

    So, who pays?

    We do. Investigations by the Department of Interior Inspector 
General, the National Academy of Sciences, the Frost report, and a 
forthcoming report from the Marine Mammal Commission represent an 
expense to the taxpayers of millions of dollars, yet the NPS pattern 
continues: after each report, a new set of claims of harm, and the 
disclosure of previously undisclosed information. From all this time 
and expense, the only thing that can be said for certain is that the 
NPS cannot be trusted to reach a fair and impartial decision regarding 
the fate of Drake's Estero.

                                  ****

POINT REYES LIGHT
OPINION: ARCHIVES
Statistics, Damnable Statistics and Lies
John Hulls--November 20, 2008
Web address: http://www.ptreyeslight.com/cgi/
        opinion_archives.pl?record=59

                            Highlighted Text

    Even more telling: the study never even mentions mariculture. 
Though Drake's Bay Oyster Company is the second largest single employer 
next to the Park Service itself; represents a major factor in 
California mariculture; and is the State's last oyster cannery, it 
doesn't even warrant mention. Yet cannery employment represents a major 
secondary source of income for many ranch worker' families in the area 
and is a valuable partner in West Marin's sustainable food production.

    The Economic Impact Study, as it is now titled, is a prelude to the 
upcoming presentation of the draft of the long-overdue General 
Management Plan. Right now, it looks as though the Park Service is 
preparing by cooking the books via statistics that say agriculture in 
the park is not `important.' White deer with oyster stew on the menu, 
again? To get ready to understand the draft Management plan when it is 
released, West Marinites should read the park's socio-economic impact 
study. Also try Darrell Huff's delightful little book, `How to Lie with 
Statistics,' in print since 1954 and just as useful today.

                                  ****

Environmental Justice in West Marin?
Posted on December 19, 2012 by russianrivertimes

                            Highlighted Text

    The November 29, 2012 Secretarial decision to reject a renewal 
permit to the oyster farm is the last of a long series of NPS actions 
that have converted Drakes Estero into a regulatory free-fire zone for 
NPS, where neither law, regulation nor policy seem to apply. Under Jon 
Jarvis, as Pacific West Regional Director and now, Director, NPS, and 
Park Superintendent Don Neubacher, (now promoted to Yosemite) NPS 
dealing with the communities of West Marin has been anything but 
transparent, open and honest.

    Despite repeated complaints from the community, overly aggressive 
law enforcement by Park Rangers led to an initial 2003 incident where 
an off-duty ranger hosed down passing motorcyclists on Highway 1, 
leading to an altercation resulting in NPS losing a lawsuit brought by 
the motorcyclists. This was then followed by a 2004 incident where the 
same ranger and a fellow officer, off Seashore property, handcuffed two 
teenagers and pepper sprayed them in the face and eyes. This eventually 
resulted in a $50,000 settlement, but most damaging in the eyes of the 
small West Marin communities was the fact that then-superintendent 
Neubacher lied at a public meeting, claiming that he was asking the 
Marin County DA to investigate the incident, when in fact he was asking 
the DA to bring charges against the teenagers. The community was 
justifiably incensed.

    The Park Service actions are extensively documented by Pulitzer 
Prize winning editor Dave Mitchell in the Point Reyes Light and on his 
blog, Sparsely Sage and Timely. These two incidents were extensively 
reported in the local press and seeded a great deal of community 
distrust in the Park Service.

    Secretary Salazar can't claim that he did not know about such 
problems in the agency. Inspector General Devaney was asked by Congress 
to address the ``institutional culture of managerial irresponsibility 
and lack of accountability'' in the Interior Department. In his 2006 
Congressional testimony, he described a major problem within DOI, 
namely, ``intricate deviations from statutory, regulatory and policy 
requirements to reach a predetermined end.'' This mirrors exactly the 
rogue actions of NPS in the Drakes Estero case today, riding roughshod 
over the rights of the oyster farmer, the oyster workers and the 
community at large. It's time to send a strong message to Secretary 
Salazar and NPS Director Jarvis: such behavior will not be tolerated, 
and remove them from management of the estero and the pastoral zone, 
and replace it with a separate park management body. If that's 
unacceptable, then it's time for the White House and the President to 
provide leadership at Interior and the NPS who will respect the law and 
the citizens of West Marin.

                                 ______
                                 

Naomi Oreskes, Conspiracy Queen
By: Norman Rogers

June 7, 2011

http://www.americanthinker.com/articles/2011/06/
naomi_oreskes_conspiracy_ queen.html

Naomi Oreskes is the environmentalist Noam Chomsky. She thinks that 
anyone who questions environmentalist doctrine is evil. Her crusade is 
to expose the presumed ulterior motives of the critics. According to 
Oreskes, if you question the dubious studies concerning secondhand 
tobacco smoke, you must be in the pay of tobacco companies. If you 
question global warming, you must be working for a fossil fuel company. 
If you question the DDT ban, you must part of a right wing conspiracy 
to weaken faith in government regulators.

Oreskes is the author of one of the silliest articles ever to appear in 
the journal Science. She claimed that she analyzed 928 peer-reviewed 
papers on global warming and 100% agreed with the Intergovernmental 
Panel on Climate Change (IPCC) concerning global warming. If you go to 
the website of the Nongovernmental International Panel on Climate 
Change (NIPCC) you can find hundreds of peer reviewed papers that 
disagree with the IPCC in one way or another.

Her latest book, with co-author Erik Conway, is Merchants of Doubt. In 
this tedious book she treats us to the details of numerous disputes 
between those who subscribe to normative environmental theology and 
those who don't. Normative environmental theology is the sort of 
theology that is preached by the Sierra Club or the Union of Concerned 
Scientists. Oreskes is a professor and an important administrator at 
the University of California. Like Chomsky, she cloaks her endless 
conspiracy theories in the machinery of scholarship. Her 343 page book 
has 64 pages of notes. A pig with lipstick is still a pig.

Neither Oreskes nor her co-author have strong scientific educations and 
it shows. From her book it is obvious that she enjoyed access to many 
scientists, but somehow none of her scientist friends found the time to 
proof read Merchants of Doubt. This is not hard to understand. 
Merchants of Doubt is a book of unsurpassed monotony. Conspiracy 
theories get boring very quickly, especially when the conspiracies are 
all variations of a few crude plots. A number of informed critiques of 
Merchants of Doubt can be seen in the 1-star Amazon reviews.

In the introduction to Merchants of Doubt the fact that adding CO2 to 
the atmosphere causes the stratosphere to cool and the troposphere to 
warm is explained as follows:

        But if the warming is caused by greenhouse gases emitted at the 
        surface and largely trapped in the lower atmosphere, then we 
        expect the troposphere to warm, but the stratosphere to cool.

It is a bit difficult to know what this sentence means but it is clear 
that Oreskes hasn't the faintest idea concerning radiation and the role 
of greenhouse gases. Greenhouse gases (mostly CO2) are not trapped in 
the lower atmosphere but are well mixed up to and including the 
stratosphere. CO2 causes the stratosphere to cool because CO2 is a good 
radiator of infrared radiation and thus improves the capability to 
exhaust stratospheric heat to space as radiation. Cooling of the 
stratosphere is not evidence of global warming. It is evidence of 
increased CO2 in the atmosphere. The distinction is important.

The climategate emails are hundreds of emails among important 
scientists that show them to be perverting scientific protocols and 
practicing propaganda to promote global warming alarmism. Ben Santer is 
a prominent player in the climategate emails. He is most famous for 
saying this about the global warming skeptic scientist Patrick 
Michaels:

        Next time I see Pat Michaels at a scientific meeting, I'll be 
        tempted to beat the crap out of him. Very tempted.

Oreskes, apparently before the release of the climategate emails, said 
this about Ben Santer:

        He's thoroughly moderate . . . soft-spoken, almost self-
        effacing . . . you might think he was an accountant . . . 
        <SUP>[i]</SUP>

Ben Santer, who may be Oreskes' favorite scientist, has been struggling 
for years with the skeptics concerning the relative heating of the 
upper troposphere. He has resorted to publishing papers with as many of 
24 co-authors, apparently in an attempt to make his arguments more 
credible by collecting a lot of scientists willing to support him.

In Oreskes' milieu, it is apparently a bad thing to be anti-communist. 
She attacks and psychoanalyzes the physicist Frederick Seitz for his 
``strident'' and ``unalloyed'' anti-communism. She puts thoughts in 
Seitz's head. He thinks his colleagues are ``ingrates'' and he ``has an 
uneasy time with the masses.'' He was ``hawkish'' and ``superior.'' 
Another physicist, William Nierenberg, is also psychoanalyzed by 
Oreskes. According to her Nierenberg ``hated environmentalists'' and 
was ``overconfident.'' Nierenberg's son Nicholas Nierenberg has been so 
upset by Oreskes' distortions of his father's work that he started a 
website to refute Oreskes. The sin of these eminent physicists for 
Oreskes is that they were critics of environmental extremism and strong 
supporters of the United States in the cold war. Seitz and Nierenberg 
are both dead and thus cannot defend themselves.

Fred Singer is a scientist who has been in the forefront of defending 
science against junk science. This is not an easy road to take. Junk 
science is a basic tool for groups that are pushing ideological 
positions. Subtle distinctions are not welcomed by the ideological 
groups. If you acknowledge that smoking cigarettes causes cancer, but 
then you dare to say that the hazard presented by secondhand smoke is 
exaggerated, you are tagged as a supporter of cancer. If you say that 
the case for man-caused global warming is full of holes you are tagged 
as an agent of fossil fuel companies. Very few scientists are brave 
enough to take the heat and personal attacks the come from standing up 
to junk science. Fred Singer has been doing it for a long time. In his 
late 80s, he is still writing scientific papers and traveling the world 
giving lectures. Oreskes is a promoter of junk science and for that 
reason cannot abide Fred Singer. Singer is her favorite punching bag. 
His name appears dozens of times in Merchants of Doubt.

Should we be surprised that Naomi Oreskes is a professor at the 
University of California and has been promoted to an administrative 
position? After all Noam Chomsky was a professor at MIT. But Chomsky 
was a professor because of his work in linguistics, not because he 
believes in crazy conspiracies. It seems that Naomi Oreskes is 
successful not in spite of her love of conspiracy, but exactly because 
she promotes conspiracies. This makes one wonder what has happened to 
the intellectual climate at the University of California.

The science establishment has fallen so low that it thinks it is a 
useful tactic to deal with its critics by accusing them of conspiracies 
financed by tobacco companies and oil companies. For the last 50 years, 
starting with DDT, we have been subjected to junk science scares. The 
scares were invariably false or exaggerated. Most of these scares were 
not more than brief media sensations, but some scares have been 
disruptive, diverting attention from real problems. The king of all 
scares is global warming. Taken seriously, it requires revamping the 
entire world economy and making us all poorer. The predictions of 
global warming disaster are deeply flawed junk science dressed up with 
an impressive ``scientific'' structure of panels, committees and 
organizations. The global warming scare is rapidly collapsing. 
Scientists outside of the global warming bubble are pointing out the 
flaws in the science and a coterie of well-informed bloggers is getting 
out the message by bypassing the establishment media where critics' 
voices are generally blocked. Nature is helping because the earth and 
the oceans are failing to warm according to script.

That a conspiracist like Naomi Oreskes would be welcomed by the global 
warming scientific establishment and invited to speak at the December 
2010 American Geophysical Union meeting is a symptom of increasing 
desperation. The global warming advocates have dug themselves into a 
deep hole and they can't seem to stop digging. Ironically Oreskes spoke 
at a meeting where Exxon Mobil was the biggest financial 
contributor.<SUP>[ii]</SUP> Apparently it's not a conspiracy if Exxon 
Mobil gives its money to the right people.

 <SUP>[i]</SUP> MERCHANTS OF DOUBT PAGE 1.

<SUP>[ii]</SUP> EXXON MOBIL WAS A TITANIUM SPONSOR, THE HIGHEST 
                    CATEGORY.

                                  ****

    Norman Rogers is a Senior Policy Advisor at the Heartland Institute 
and maintains a personal website.

                                 ______
                                 

Science and Smear Merchants
By: S. Fred Singer

June 21, 2011

http://www.americanthinker.com/2011/06/science_and_smear_merchants.html

Professor Naomi Oreskes, of the University of California in San Diego, 
claims to be a science historian. One can readily demonstrate that she 
is neither a credible scientist nor a credible historian; the best 
evidence is right there in her recent book, ``Merchants of Doubt: How a 
Handful of Scientists Obscured the Truth on Issues from Tobacco Smoke 
to Global Warming,'' coauthored with Eric Conway. Her science is 
faulty; her historical procedures are thoroughly unprofessional. She 
is, however, an accomplished polemicist, who has found time for world 
lecture tours, promoting her book and her ideological views, while 
being paid by the citizens of California. Her book tries to smear four 
senior physicists--of whom I am the only surviving one. I view it as my 
obligation to defend the reputations of my late colleagues and good 
friends against her libelous charges.

Oreskes is well known from her 2004 article in Science that claimed a 
complete scientific consensus about manmade global warming; it launched 
her career as a polemicist. Her claim was based on examining the 
abstracts of some 900 published papers. Unfortunately, she missed more 
than 11,000 papers through an incorrect Internet search. She published 
a discreet ``Correction''; yet she has never retracted her 
ideologically based claim about `consensus.' Al Gore still quotes her 
result, which has been contradicted by several, more competent studies 
[by Peiser, Schulte, Bray and von Storch; Lemonick in SciAm, etc].

Turning first to her science, her book discusses acidification, as 
measured by the pH coefficient. She states that a pH of 6.0 denotes 
neutrality [page 67, MoD]. Let's be charitable and chalk this off to 
sloppy proofreading.

Elsewhere in the book [page 29], she claims that beryllium is a ``heavy 
metal'' and tries to back this up with references. I wonder if she 
knows that the atomic weight of beryllium is only 9, compared to, say, 
uranium, which is mostly 238. A comparison of these two numbers should 
tell anyone which one is the heavy metal.

Her understanding of the Greenhouse Effect is plain comical; she posits 
that CO2 is ``trapped'' in the troposphere--and that's why the 
stratosphere is cooling. Equally wrong is her understanding of what 
climate models are capable of; she actually believes that they can 
predict forest fires in Russia, floods in Pakistan and China--nothing 
but calamities everywhere--and tells climate scientists in a recent 
lecture: If the predictions of climate models have come true, then why 
don't people believe them? [see http://tinyurl.com/3wrvon2] Perhaps 
because people are not gullible.
But the most amazing science blunder in her book is her hypothesis 
about how cigarette smoking causes cancer [page 28]. She blames it on 
oxygen-15, a radioactive isotope of the common oxygen-16. I wonder if 
she knows that the half-life of O-15 is only 122 seconds. Of course, 
she does not spell out how O-15 gets into cigarette smoke, whether it 
is in the paper or in the tobacco itself. If the latter, does she 
believe that the O-15 is created by the burning of tobacco? If so, this 
would be a fantastic discovery, worthy of an alchemist. Perhaps someone 
should make her aware of the difference between radio-active and 
`reactive' oxygen; the two words do sound similar.

I am sure one would find more examples of scientific ignorance in a 
careful reading of the rest of the book. But why bother?

Having demonstrated her scientific `expertise,' let's turn to her 
historical expertise. Any careful historian would use primary sources 
and would at least try to interview the scientists she proceeds to 
smear. There is no trace of that in Oreskes' book. She has never taken 
the trouble to interview Dr. Robert Jastrow, founder of the NASA-
Goddard Institute for Space Studies, and later Director of the Mt. 
Wilson Astronomical Observatory and founding president of the renowned 
George C Marshall Institute in Washington, DC. I can find no evidence 
that she ever interviewed Dr. William Nierenberg, director of the 
Scripps Institution of Oceanography, who actually lived in San Diego 
and was readily accessible. And I doubt if she ever even met Dr. 
Frederick Seitz, the main target of her venom.

Seitz was the most distinguished of the group of physicists that are 
attacked in the book. He had served as President of the U.S. National 
Academy of Sciences and of the American Physical Society, and later as 
President of Rockefeller University. He had been awarded numerous 
honorary degrees from universities here and abroad, as well as the 
prestigious National Medal of Science from the White House.

Instead of seeking firsthand information--in the tradition of 
historical research--Oreskes relies on secondary or tertiary sources, 
quoting people who agree with her ideology. A good example of this is 
her discussion of Acid Rain and of the White House panel (under Reagan, 
in 1982) chaired by Bill Nierenberg, on which I also served. Here she 
relies on what she was told by Dr. Gene Likens, whose research funding 
depends on portraying acid rain as a very serious environmental 
problem. It most definitely is not--and indeed, it disappeared from 
view as soon as Congress passed legislation designed to reduce the 
effect.

An amazing discovery: I found that Oreskes gives me credit (or blames 
me) for inventing `cap-and-trade,' the trading of emission rights under 
a fixed cap of total emissions [see pp. 91-93]. I had never claimed 
such a priority because I honestly don't know if this idea had been 
published anywhere. It seemed like the natural thing to suggest--in 
order to reduce total cost, once an emission cap had been set. My 
example involved smelters that emit SO2 copiously versus electric 
utilities that burn coal containing some sulfur. I even constructed 
what amounts to a `supply curve' in which the bulk of the emission 
control is borne initially by the lowest-cost units.

Of course, Likens and some others on the panel, antagonistic to coal-
burning electric utilities, objected to having my discussion included 
in the panel report. Nierenberg solved the problem neatly by putting my 
contribution into a signed Appendix, thereby satisfying some panel 
members who did not want be responsible for a proposal that might let 
some electric utilities off the hook.

We have established so far that Oreskes is neither a scientist of any 
sort nor a careful professional historian. She is, however, a ``pop-
psychologist.'' It seems she has figured out what motivates the four 
senior physicists she libels in her book; it is ``anti-communism.'' 
Really! This is not only stated explicitly but she also identifies them 
throughout as ``cold warriors.''

Well, now we know at least where Oreskes stands in the political 
spectrum.

                                  ****

    Atmospheric physicist S. Fred Singer pioneered upper-atmosphere 
ozone measurements with rockets and later devised the satellite 
instrument used to monitor ozone. He is Professor Emeritus of 
Environmental Sciences at the University of Virginia and founding 
director of the U.S. Weather Satellite Service (now NESDIS-NOAA). He is 
a Fellow of the Heartland Institute and the Independent Institute.

              A RESPONSE TO ``THE CLIMATE CHANGE DEBATES''

       http://www.sciencemag.org/cgi/reprint/328/5983/1230-a.pdf

                             S. Fred Singer
``In questions of science, the authority of a thousand is not worth
                     the humble reasoning of a single individual.''

                                                      --Galileo Galilei

Philip Kitcher, a philosophy professor at Columbia University, has 
written a book review, entitled ``The Climate Change Debates'' 
(Science, vol 328, 4 June, 2010, pp. 1230-34). His recipe for an ``open 
discussion and debate'' about climate change seems to be a one-sided 
coverage by an elitist, self-chosen group. ``Genuine democratic 
participation'' is out, in favor of ``reliance on expert opinion.'' And 
who might these `experts' be? No surprise there; Kitcher knows--and 
shapes his review accordingly. Making his point, Kitcher then 
juxtaposes ``aging'' scientists to ``serious'' scientists.

    It's all downhill from there. To emphasize his recommendation to 
deny a platform to ``deniers'' (his term), consider his choice of books 
for review. All eight books are basically polemics for anthropogenic 
global warming (AGW), with precious little science in them. Assuming a 
rough balance of such books on both sides of the AGW debate, the 
probability of such a choice by pure chance is about 0.39 percent. So 
much for balance.
    To make matters even worse, he plugs the very worst of the eight 
books selected--Merchants of Doubt, written by science historians Naomi 
Oreskes and Erik Conway.\1\ It attempts to smear mainly four 
scientists, all physicists with long records of publications, public 
service, and honors. In defense of three of these (recently deceased), 
who were founders of the George C. Marshall Institute, the GMI has 
published a reply to this attack on the integrity of the Institute and 
its founders. The reply is available at http://www.marshall.org/pdf/
materials/894.pdf and is worth quoting from:
---------------------------------------------------------------------------
    \1\ ``Merchants of Doubt: How a Handful of Scientists Obscured the 
Truth on Issues from Tobacco Smoke to Global Warming'' by Naomi Oreskes 
and Erik M. Conway, Bloomsbury Press, New York. 2010. 357 pp, According 
to S. Fred Singer'' a shoddy and truly unprofessional book by two 
academics who claim to be historians of science. True historians would 
present an unbiased account of the available facts and carry out 
sufficient due diligence to obtain such facts. In this case, we have 
little more than a polemic that expresses the considerable prejudices 
of the authors, particularly those of professor Naomi Oreskes.''

        ``Replete with half-truths and mischaracterizations, Naomi 
        Oreskes and Erik Conway's book besmirches the reputations of 
        three great American scientists to silence dissent within the 
        ranks of scientists and stifle debate among policymakers about 
        how to respond to global warming. Their message is both anti-
        science and anti-democratic. Whether the goal of reducing 
        greenhouse gas emissions is desirable or not is irrelevant, the 
        merits of their scholarship and its implications are clear. 
        Predictably, they create a tobacco strawman and knock it down 
        to set the tone of a grand conspiracy to harm the public. 
        Specifically, the work overstates the linkage between Dr. 
        Seitz, a past president of the National Academy of Science--the 
        nation's most senior scientific establishment, and a past 
        president of a leading biomedical institution, the Rockefeller 
        University in New York City, and R.J. Reynolds. Yes, Seitz 
        helped establish an advisory committee to direct a research and 
        development program upon his retirement as president of 
        Rockefeller. Why? Because Reynolds and Rockefeller University 
        (as well as the Rockefeller family) had a long-standing 
        relationship and it was an opportunity to provide input into a 
        multi-million dollar program in basic medical and human health 
        research. Seitz assembled a team of eminent health scientists 
        to provide insight and advice. What did the research 
        contribute? A Nobel Prize, for one, while others included 
        studies of the effect of renin on blood pressure, factors 
        affecting cell development, and contributors to arterial 
---------------------------------------------------------------------------
        sclerosis.

        The very documents Oreskes and Conway cite to build the tobacco 
        strawman reveal that Seitz and his colleagues did nothing more 
        than direct an advanced research program. The underlying 
        citations state the Seitz-led research program was independent 
        of Reynolds and conducted by scientists and scientific 
        institutions of the highest regard. Other than asserting guilt 
        by association, Oreskes and Conway present no evidence that 
        Seitz and his many colleagues were participants in some grand 
        conspiracy. That conspiracy exists only in their minds. Next, 
        Oreskes and Conway claim Seitz and the George C. Marshall 
        Institute wrongly defended the creation of a ballistic missile 
        defense. Yes, Seitz and his colleagues, Dr. Robert Jastrow and 
        Dr. William Nierenberg, believed it was morally repugnant to 
        allow citizens to stand defenseless before the prospect of 
        nuclear annihilation as an intentional U.S. government policy. 
        Construction of a defense was technically possible and would 
        enhance the security of the United States, they believed. 
        Others didn't and the debates across the foreign policy and 
        scientific establishments were as charged and vociferous as any 
        seen before or since. The facts are: the Soviet Union fell; 
        President Reagan's advocacy of missile defense was part of the 
        equation contributing to their fall; the emerging missile 
        defense offers the prospect of security against rogue states 
        and terrorists for whom traditional deterrence likely fails; 
        and a world where nuclear weapons were rendered obsolete (Dr. 
        Jastrow's 1983 book outlines steps toward this end) remains a 
        goal of presidents of both political parties.

        Next comes the charge that Seitz et al engaged in personal 
        attacks on prominent climate scientists in hopes of fostering 
        doubt about whether humans were causing global warming. If 
        Oreskes or Conway had bothered to speak with anyone who 
        actually knew or worked with these men, they would have quickly 
        learned that they were men of principle, motivated by concerns 
        about the erosion of scientific literacy and dangers of 
        manipulation of science for political ends arising from that 
        erosion. What caused them to look at climate change science? 
        Curiosity about the scientific basis of claims of apocalyptic 
        global warming and worry about the implications that political 
        leaders would draw from potentially inflated claims. Each had 
        decorated scientific careers and each had been leaders of 
        world-class scientific institutions and participants on 
        government-sponsored scientific panels. Jastrow was a professor 
        of Earth Sciences at Dartmouth and founder of the Goddard 
        Institute for Space Studies; and Nierenberg was the head of the 
        Scripps Institution of Oceanography. Each had considerable 
        experience working at the nexus of science and public policy 
        and understood the role that scientific information played in 
        shaping policy and political outcomes.

        Oreskes and Conway claim an opposition to government regulation 
        motivated the Institute's founders' positions on climate 
        change. Speculating about what Drs. Jastrow, Seitz, and 
        Nierenberg felt about global warming is unnecessary as they 
        clearly described their concerns, ``If the changes in our 
        atmosphere are likely to cause consequences, we must understand 
        the problems and promote sensible policies to remedy them. What 
        would be unwise is to lapse into apocalyptic thinking or 
        ostrich-like denial. We believe ourselves far more 
        sophisticated, more enlightened, than preceding generations. 
        Until we can calmly and objectively approach our environmental 
        challenges without promoting public hysteria and exciting 
        short-sighted, self-interested reaction, we cannot claim that 
        we are.'' (Scientific Perspectives on the Greenhouse Problem, 
        Jameson Books, 1990: 92-93).

        In fact, their work is remarkably prescient. Writing 20 years 
        ago, Seitz, Jastrow and Nierenberg identified the critical 
        variables affecting estimates of temperature and man's impact 
        of climate that remain the central focus of the scientific 
        debate today. They were: adjustments for uncertainty in the 
        temperature observations (the quality of the surface 
        temperature record has been shown to be in question); the 
        effect of the ocean thermal lag (the role of the oceans and the 
        movement of heat and carbon dioxide in the oceans remains an 
        area of active study); adjustments for natural variability (our 
        understanding of the natural patterns of Earth's climate is 
        still under development); and procedures for estimating 21st 
        century warming (a process based entirely on computer models 
        and forecasts which have known limitations).

        For its part, the Marshall Institute is not a ``merchant of 
        doubt.'' Our long-held position is simple--take action on 
        climate change commensurate with the state of knowledge, and 
        have that action be flexible so it can adjust as our 
        understanding of man's impact on the climate changes. Do we 
        oppose cap-and-trade or Kyoto Protocol-like policies? Yes. They 
        are expensive and will yield little environmental return. Do we 
        propose actions to take? Yes. Did Oreskes and Conway bother to 
        inquire about them? No. Oreskes and Conway's work is the latest 
        in a long line of one-sided, fearmongering pseudo-exposes whose 
        purpose is to incite and intimidate. Readers are left with a 
        clear message--Doubt and dissent are dangerous and scientists 
        that question the conventional view of climate change are 
        corrupt charlatans in the pocket of industry. Doubt and dissent 
        are cornerstones of the advancement of knowledge and the 
        scientific process.''

    It is quite clear that Kitcher doesn't have a clue about climate 
science or its history. There are a few facts he should learn first 
about scientists he lists:

    <bullet> Roger Revelle was indeed a ``prominent climate scientist'' 
            but he was also a skeptic, as evident from his many 
            publications. Full disclosure: He co-authored a skeptical 
            article with me, which caused a lot of grief for Al Gore 
            and led to a libel suit, in which I prevailed. For detail, 
            see ``Politicizing Science: The Alchemy of Policymaking'' 
            (Michael Gough, ed.) Hoover Institution Press, Stanford, 
            2003.

    <bullet> Ben Santer is ``prominent'' for quite a different reason. 
            He altered the text and doctored a graph in the 1996 IPCC 
            report, to promote the impression that ``the balance of 
            evidence'' favored AGW. When these changes were discovered, 
            he could not deny them but instead assumed the role of 
            victim from unjust persecution. For detail, see ``Climate 
            Policy from Rio to Kyoto: A political issue for 2000 and 
            beyond'' by S. Fred Singer. Hoover Essay in Public Policy 
            No. 102. 2000.

    <bullet> Kitcher evidently admires Naomi Oreskes. But does he know 
            that in her zeal she claimed (and perhaps still does) that 
            there are no publications that contradict AGW? In her 
            sloppy research, published in 2004 Science, she had 
            overlooked more than 90% of listed publications, and later 
            published a quiet correction to her paper that had 
            enshrined a phony ``scientific consensus'' which never 
            existed.

    <bullet> Kitcher also admires Jim Hansen--he of failed catastrophic 
            climate predictions. Starting with his temperature 
            forecasts of 1988, he now holds the world record for 
            predicting a 20-foot rise in sea level by 2100. Al Gore 
            loves that number, which is about 20 times the value given 
            by the IPCC `consensus.' Question: Does this make Hansen a 
            `contrarian'--and perhaps even a `denier' ?

    <bullet> And then we come to Steven Schneider--who has admitted 
            quite candidly that sometimes one has to doctor the science 
            (shades of Ben Santer) and invent disasters--if it will 
            help to persuade the public. All for the greater good, of 
            course.

    Unfortunately, Kitcher lacks any insight into science. So there is 
little point in trying to tell him that current research shows the 
human contribution to climate change to be minor and well below IPCC 
model calculations--while the evidence for natural influences is 
becoming ever stronger. [For detail, see the NIPCC summary report 
``Nature--Not Human Activity--Rules the Climate'' http://www.sepp.org/
publications/NIPCC_final.pdf]
    Perhaps he does not realize that respected economists and 
historians consider a warmer climate to be beneficial overall. 
Certainly, all agriculturists know that higher levels of carbon dioxide 
promote the growth of crops and forests.
    And the IPCC agrees (and has said so for 20 years) that even severe 
emission controls will have negligible effects on future levels of 
atmospheric greenhouse gases.
    Elsewhere, Kitcher doesn't seem to distinguish between the health 
effects of smoking and secondhand smoke (SHS). Yes, smoking leads to 
lung cancer; but on SHS he should read Congressional Research Service 
report CRS-95-1115 and assorted academic studies to learn how EPA 
fudged statistical analysis to come up, in 1993, with their scary 
conclusion of 3000 annual deaths from lung cancer. [To discredit my 
work on climate science, and because I agree that EPA misused 
statistics, I have been falsely accused to be ``in the pay of the 
tobacco lobby.'' Not only untrue, but I have never smoked, find SHS 
irritating, and serve on the advisory board of an anti-smoking 
organization.]
    He also mixes up (purposely?) the revelations of the Climategate e-
mails with various errors in the IPCC report. Yes, Prof. Kitcher, the 
conspiracy to ``hide the decline [of global temperature]'' by using 
``[Michael] Mann's trick'' is a far more serious matter than getting a 
wrong date for the melting of Himalayan glaciers. And so are the other 
conspiracies that the leaked e-mails have uncovered: Keeping dissenting 
scientists from publishing in refereed journals; intimidating editors; 
perverting the peer-review process, etc. Why this effort to conflate 
obvious and inconsequential IPCC errors with conspiracies aiming to 
affect major public policies? So, Kitcher should disqualify himself for 
his lack of science, his extreme bias (as shown by his choice of books 
and his comments), and his inflammatory language. It reflects poorly on 
the editors of Science magazine that they would permit this kind of 
article to be published and then refer to it as a ``debate.''
    But perhaps one should take the long-range view. The AGW alarmists 
are losing the scientific debate--and they are becoming desperate. It's 
not just that the current domestic economic problems make some future 
climate change seem unimportant; it's the changes in climate science 
itself: the rapidly disappearing evidence for any significant AGW. 
These people are destructive to the normal process of scientific 
debate, replacing argument by reason and fact with the politics of 
personal attack and libel. In so doing, they are eroding the trust the 
public has invested in science and scientists, who are coming to view 
scientists as just another special-interest group. You can see it in 
the polls. Works like Oreskes/Conway and their ideological supporters 
are accelerating this process. It is time to return to a focus on the 
science (which the AGW alarmists seem to be incapable of doing).

                                 *****

    Atmospheric physicist S. Fred Singer is Professor Emeritus of 
Environmental Sciences at the University of Virginia and founding 
director of the U.S. Weather Satellite Service (now NESDIS-NOAA).

                                 ______
                                 

                                 [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
                                 

    Working Paper: Disaster Debris Monitoring and Bastrop County,
  TX Federal Emergency Management Agency (FEMA) DR-4029

Tetra Tech, Inc. (formerly Science Applications International 
Corporation, Inc.) was retained by Bastrop County, Texas (the County) 
to monitor disaster debris removal operations following the Texas 
Wildfires (FEMA DR-4029) that impacted the County. Tetra Tech 
monitoring operations began October 3, 2011. Prior to the beginning of 
monitoring operations, the County was aware of the presence of the 
Houston Toad in the designated work areas. However, the FEMA submitted 
their findings to the U.S. Fish and Wildlife Service that debris 
removal operations were not likely to adversely affect the federally 
listed species. As a result, in a letter dated September 23, 2011, the 
U.S. Fish and Wildlife Service agreed that debris removal operations 
would not impact the federally listed species. The County commenced 
with hazardous debris and tree removal operations with TFR, Enterprises 
as the County's debris collection hauler and Tetra Tech as the 
monitoring firm.

In addition to a right-of-way (ROW) debris and hazard removal program, 
a private property debris removal (PPDR) program was also authorized by 
FEMA. The PPDR program addressed hazardous trees and debris that were a 
result of the fires but beyond the capacity of residents to address 
themselves. Debris removal and monitoring operations continued for 
approximately four months until the operations were significantly 
impacted by a letter from FEMA dated January 27, 2012. FEMA and the 
U.S. Fish and Wildlife Service determined that new operational 
requirements would need to be implemented for field operations due to 
the Houston Toad. Specifically, additional monitors designated as 
``Houston Toad Monitors'' would be required for all debris removal 
operations. See Attachment A for the FEMA Houston Toad Monitoring Work 
Plan.

The implementation of the Houston Toad Monitoring Work Plan 
significantly impacted debris removal operations, decreased debris 
removal contractor productivity, and ultimately increased the length of 
time needed to complete the project. Examples of Houston Toad 
Monitoring Work Plan requirements and the impact on operations 
efficiency or schedule are as follows:

Availability of Houston Toad Monitors: Houston Toad Monitors were 
required to be on site and clear areas prior to debris or hazardous 
tree removal work. However, FEMA could only fund a total of four 
Houston Toad Monitors to the County on any given day. As a result, 
operations and contractor crews were limited to the number of available 
Houston Toad Monitors, which had a maximum capacity of four per day for 
the County.

Working Hours: The Houston Toad Monitoring Work Plan placed 
requirements on same-day debris collection or re-inspection from a 
Houston Toad Monitor prior to removal if completed the next day. This 
requirement limited the contractors' working hours each day due to the 
time needed for debris to be collected from the site and moved to the 
contained debris management site.

Means and Methods: The Houston Toad Monitoring Work Plan allowed the 
Houston Toad Monitors to dictate means and methods for PPDR. For 
example, the Houston Toad Monitors could dictate the routes for the 
contractor to move equipment on private property so as to minimize 
ground disturbance. This increased the time to complete work at each 
property. Additionally, the Houston Toad Monitors could often dictate 
trees be removed using ``climbers'' to remove portions of a tree at a 
time instead of being felled from the ground.

As a result of the implementation of the Houston Toad Monitoring Work 
Plan, debris contractor efficiency was reduced by at least 50 percent. 
Specifically, the number of tree removals completed each day following 
January 27, 2012 was reduced by approximately 20 percent. The average 
number of tree removals completed per day for the PPDR program 
decreased from 191 trees to 151 trees. Additionally, as Figure 1 shows, 
total debris collected per day for the right-of-way program was 
drastically impacted due to the Houston Toad Monitor requirements and 
availability. Figure 1 shows a clear decrease in productivity following 
the implementation of the Houston Toad Monitoring Work Plan.

Figure 1--Total Debris Removal by Day for Right-of-Way (ROW) Collection
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


    In closing, Tetra Tech understands the need to implement guidelines 
and requirements to protect wildlife, especially those that are 
federally listed species. During the course of the project, the Tetra 
Tech project management team adhered to the requirements specified in 
the Houston Toad Monitoring Work Plan. However, it is clear that the 
Houston Toad Monitoring Work Plan had a direct correlation to the 
decreased contractor efficiency and the increased time needed to 
complete the project.

Attachment A: FEMA Houston Toad Monitoring Work Plan--[This document 
can be found on page 26 as part of the attachments to Clara Beckett's 
prepared statement].

[LIST OF DOCUMENTS SUBMITTED FOR THE RECORD RETAINED IN THE COMMITTEE'S 
                            OFFICIAL FILES]

-- Bastrop Wildlife Interagency Meeting--Natural Resources, 
Incident Command--Bastrop Convention Center, September 13, 
2011, Minutes of Meeting.

-- California Coastal Commission--Staff Report to the Drake's 
Bay Oyster Company recommending ``Restoration of Drakes Estero 
through removal of marine debris and equipment associated with 
the former Drake's Bay Oyster Company aquaculture operation.''

-- Editorial titled ``Truth on the half shell in oyster 
debate.'' Press Democrat, May 13, 2013.

-- Editorial titled ``A Deal is a Deal,'' by Lynn Scarlett, The 
Huffington Post, January 17, 2013.

-- Fifth Circuit Court of Appeals Verdict in the case of 
``Arkansas Project v. Shaw''.

-- Forstner, Michael, Alexander Stone Chair in Genetics, Texas 
State University, Statement to Chairman and Members of the 
Committee.

-- Investigative Report by the Office of the Inspector General, 
Department of the Interior, on the Environmental Impact 
Statement issued by the National Park Service on the Drake's 
Bay Oyster Company.

-- Kennedy, Pete, President, Farm-to-Consumer Legal Defense 
Fund<SUP>'</SUP>, Statement to Chairman and Members of the 
Committee.

-- Porrata, Carlos, November 1, 2012 Letter (both in English 
and Spanish) addressed to Director Jon Jarvis of the National 
Park Service, titled ``Latino Jobs at Drakes Bay Oyster 
Company, Point Reyes National Seashore.''

-- Robinson, George, Acting Regional Administrator for FEMA, 
December 5, 2012 Letter to Chief Kidd, Assistant Director, 
Texas Dept. of Public Safety.

-- Salazar, Ken, then-Interior Secretary, November 29, 2012 
Letter to the National Park Service titled ``Point Reyes 
National Seashore--Drake's Bay Oyster Company.''

-- Special Use Permit issued by the National Park Service to 
the Drakes Bay Oyster Company.

-- Texas Department of Public Safety, April 18, 2013 Letter to 
Mr. Gregory Eaton, Director, Recovery Division, FEMA-Region VI.

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
